           THE
FEDERAL BUREAU OF PRISONS’
    DRUG INTERDICTION
        ACTIVITIES

       Report Number
         I-2003-002




       January 2003
                                      EXECUTIVE DIGEST


Introduction
         Illegal drugs are present in almost all Federal Bureau of Prisons’ (BOP)
institutions, as evidenced by inmate drug tests, inmate overdoses, drug finds in the
institutions, and criminal and administrative cases lodged against inmates, staff, and
visitors. This review by the Office of the Inspector General’s (OIG) Evaluation and
Inspections Division examines how drugs enter BOP institutions and what the BOP
is doing and can do better to stem the flow of illegal drugs into its institutions.

       The harm of drugs in BOP institutions is clear. Drugs disrupt the BOP from
providing a safe and secure environment for inmates and staff. Drug abuse is
associated with serious inmate misconduct, and it also interferes with the
rehabilitative potential of BOP drug treatment programs. In addition, inmates with
drug problems who have not received treatment while in prison are more likely to
continue criminal activity after their release from incarceration, thereby affecting
public safety.

         The BOP’s strategy to prevent drugs from entering its institutions employs two
major components: (1) stopping the supply of drugs through various interdiction
activities; and (2) reducing the demand for drugs through drug abuse treatment for
inmates. To stop the supply of drugs, BOP interdiction activities focus on the
institutions’ points of entry such as visitors, staff, mail, the receiving and discharge
area, the warehouse, the rear gate, volunteers, and contractors. To reduce the
demand for drugs, the BOP offers drug abuse treatment to inmates through various
institution-based programs, including drug abuse education (classroom instruction),
non-residential (out-patient) drug abuse treatment in BOP institutions, and
residential (in-patient) drug abuse treatment in BOP institutions.

         The OIG found that inmate visitors, staff, and the mail are the three primary
ways drugs enter BOP institutions. We found that while the BOP employs a variety
of interdiction activities to intercept smuggling attempts by visitors and through the
mail, it has failed to take adequate measures to prevent drug smuggling by its staff.
In fact, interdiction activities common in many state correctional systems, such as
searching staff, limiting the personal property staff are permitted to bring into the
institution, and conducting random drug tests of staff, are not used by the BOP.

      We also found that an insufficient number of BOP inmates receive drug
treatment, partly because the BOP underestimates and inadequately tracks inmates’
treatment needs. In addition, non-residential treatment – an important component of



U.S. Department of Justice                                                          i
Office of the Inspector General
Evaluation and Inspections Division
drug treatment – is not adequately provided at BOP institutions due to insufficient
staffing, lack of policy guidance, and lack of incentives for inmates to seek drug
treatment.

      After describing our principal findings in more detail, we summarize the 15
recommendations we offer to make the BOP’s drug interdiction and treatment efforts
more effective.

Principal Findings

Indicators of the Drug Problem in BOP Institutions

        The BOP recorded more than 2,800 positive tests for drug use by inmates
each year from fiscal year (FY) 1997 through FY 2001. The BOP national rate of
positive drug tests declined only slightly during this 5-year period, as did the overall
rate of positive drug tests for four of the BOP’s five institution security levels.

         Analyzing trends among BOP institutions of differing security levels is
significant because it allows comparison of institutions with similar inmate
populations and security features. We found that despite enhanced perimeter
security features and internal operational procedures at the higher security level
institutions, drugs are still getting in at rates more than 1½ times the BOP national
rate. Specific institutions within each security level have much higher rates of
inmate drug use. For example, while the BOP national rate for positive inmate drug
tests in FY 2001 was 1.94 percent and the overall rate for high security institutions
was 3.04 percent, the high security U.S. Penitentiary in Beaumont, Texas, had a
positive inmate drug test rate of 7.84 percent.

        Misconduct reports issued by BOP staff against inmates also demonstrate
that drugs are present in BOP institutions.1 For FY 1999 through FY 2001, the BOP
drug misconduct rates showed that drugs are smuggled into institutions regardless
of their security level. Every BOP institution has issued drug misconduct reports to
inmates at some time during the 3-year period reviewed. Similar to the drug test
results, several institutions within each security level significantly exceeded the
overall rate for that security level for drug misconduct charges. Although misconduct
rates may partially reflect the BOP’s success in uncovering inmates’ prohibited


          1
           The BOP has specific administrative rules identifying prohibited inmate behavior. If an
inmate violates any of these rules, the BOP issues a misconduct report. The prohibited behaviors are
divided into four levels: 100, 200, 300, and 400, with the 100 level being the most serious. Four drug-
related misconduct charges are listed as 100-level offenses: Refusing to Provide a Urine Sample;
Introduction of Any Narcotics; Use of Any Narcotics; and, Possession of Any Narcotics. Across all
security levels for the last five fiscal years, drug misconduct charges have comprised approximately
66 percent of all 100-level misconduct charges.

U.S. Department of Justice                                                                       ii
Office of the Inspector General
Evaluation and Inspections Division
behavior, the fact that the total number of drug misconduct charges for all BOP
institutions exceeds 3,500 annually indicates that drugs are regularly entering its
institutions.

       In addition, inmate overdoses (50 since FY 1997), drug finds in the institutions
(1,100 recorded in evidence logs since FY 2000), and criminal cases prosecuted
against inmates, staff, and visitors show that drug use and smuggling occur in
almost every institution. From FY 1997 through FY 2001, the Federal Bureau of
Investigation (FBI) opened 791 drug-related cases involving BOP inmates
(538 cases), visitors (183 cases), and staff (70 cases). The OIG Investigations
Division’s drug cases from FY 1997 through FY 2001 reflect 34 staff arrests. In
addition, from FY 1997 through FY 2001, the BOP sustained drug-related
misconduct allegations against 93 employees.

Stopping Drugs at the Primary Points of Entry

       The BOP staff we interviewed identified inmate visitors, staff, and mail as the
three primary points of entry for drugs into BOP institutions. We found that while the
BOP employs drug interdiction activities to prevent drug smuggling through visitors
and mail, it fails to take adequate measures to prevent staff from bringing drugs into
the institutions. The BOP does not employ staff interdiction strategies common in
state correctional systems such as limiting the personal property staff are permitted
to bring into institutions, searching staff, and random drug testing.

          Inmate Visitors

        According to BOP officials, inmates’ visitors represent the predominant
source of drugs entering BOP institutions. At the institutions we visited, wardens,
department heads, intelligence staff, and correctional officers attributed visitors’
success in smuggling drugs to two primary reasons: (1) the availability of contact
visits, and (2) insufficient cameras, monitors, and staff to observe visits.

          •    Contact Visits are a Main Conduit for Drug Smuggling. All inmates are
               permitted to receive contact visits, including those in disciplinary and
               administrative segregation.2 During a contact visit, no physical barriers
               separate inmates and their visitors, unlike the image portrayed on
               television where inmates are separated from their visitors by glass and
               speak through telephones. Inmates sit next to or across from their visitors
               and are allowed limited physical contact, such as handshaking,
               embracing, or kissing, at the beginning and end of the visit. In a contact
               visit, visitors can discreetly hand over the drugs to an inmate, exchange

          2
         The exception are inmates found guilty of a misconduct related to visiting procedures or
otherwise placed on visiting restrictions by the Disciplinary Hearing Officer.

U.S. Department of Justice                                                                     iii
Office of the Inspector General
Evaluation and Inspections Division
               the drugs by mouth when kissing, or place the drugs in a food package or
               beverage purchased from visiting room vending machines and give the
               food or drink to the inmate.

               As a deterrent to drug smuggling, in 1998 with a $1.8 million grant from
               the Office of National Drug Control Policy, the BOP began a pilot program
               in 28 institutions using ion spectrometry technology to randomly scan
               visitors for drugs as they enter the BOP institutions.3 After a 2-year test
               period, the BOP concluded that the ion spectrometry technology was a
               significant factor in the decrease of drug use by inmates in medium, low,
               and administrative institutions, but not in the high security institutions. At
               the institutions we visited with ion spectrometry, the majority of wardens
               and correctional officers involved in processing visitors and visiting room
               monitoring believed this technology is an effective deterrent to drug
               smuggling. However, the cost of the machine is high ($30,000) and the
               maintenance contract and supplies are also expensive ($3,000-$8,000 per
               year). Now that the pilot program has ended, BOP institutions must fund
               the machines from their existing budgets. Those institutions we visited
               that did not receive the technology during the pilot program are uncertain
               whether they can afford to purchase it. The BOP currently does not have
               plans to centrally purchase more machines for other institutions. Rather,
               the BOP intends to rotate the machines among its institutions.

          •    Insufficient Cameras, Monitors, and Staff Available for Adequate
               Monitoring are Vulnerabilities. In several institutions, we observed and
               correctional officers told us that there were not enough cameras, monitors,
               and staff to thoroughly observe inmate visiting sessions. Several of the
               institutions we visited need to install additional cameras in the visiting
               rooms because the rooms’ architecture, such as large pillars, creates blind
               spots that obstruct the view of BOP staff. Institutions also do not always
               have enough camera monitors for correctional officers to view what the
               cameras are recording. In addition to a lack of cameras and camera
               monitors, correctional officers at several institutions stated that not enough
               officers are available to view the camera monitors or roam the visiting
               rooms on busy visiting days. Institutions with adjacent “overflow” rooms
               for high-volume days do not always assign an additional officer to observe
               visiting activities in these overflow rooms.




          3
         Ion spectrometry technology detects the presence of microscopic traces of illegal drugs on
persons and their clothing. Currently, approximately 40 BOP institutions have the technology.

U.S. Department of Justice                                                                    iv
Office of the Inspector General
Evaluation and Inspections Division
          Staff

        The BOP imposes no restrictions on the personal property BOP staff can
bring into the institutions, does not search staff or their property when they enter for
duty, and does not conduct random drug testing of staff. The BOP’s interdiction
activities to prevent drug smuggling by staff consist of background investigations,
annual integrity training, and limited drug testing of certain staff. Background
investigations are conducted prior to initial employment with the BOP and are
updated every five years. In addition, the BOP conducts staff drug tests for pre-
employment, post-accident, reasonable suspicion, and post-substance abuse
treatment.

       We found that these limited measures have not been effective. Drugs
continue to enter the institutions through staff, as evidenced by the drug cases
involving BOP staff investigated every year by the OIG and the FBI. While the
number of staff who smuggle drugs into BOP institutions is small, they can do more
damage to the safety and security of the institutions than visitors who smuggle
drugs. When staff smuggle drugs, the amounts are often larger, they reach more
inmates, and more money is involved. Additionally, smuggling may contribute to a
reduction in trust among fellow staff and in public trust and confidence in the BOP.
We believe that additional drug interdiction efforts targeted at staff are needed to
reduce drugs in BOP institutions.

          •    Property is Unrestricted. The BOP does not restrict the size or content of
               personal property staff bring into the institutions even though BOP
               managers acknowledge employees are a primary drug entry point. Such
               restrictions on personal property are common in state correctional
               systems. At each BOP institution we visited, we observed staff bringing in
               duffle bags, briefcases, satchels, and large and small coolers. Institution
               managers, intelligence officers, and correctional officers expressed
               serious doubt about the effectiveness of the BOP’s efforts to eliminate
               drugs from its institutions when they have no control over the property
               staff can bring inside.

          •    Searches are Rarely Conducted. The BOP conducts searches of staff
               only if it has reasonable suspicion of wrongdoing by a specific employee,
               such as suspicion that an employee is introducing or attempting to
               introduce contraband into an institution. However, BOP intelligence staff
               told us searches rarely occur because wardens fear charges of
               harassment and discrimination. Because the BOP does not either
               routinely or randomly search staff or their personal property, staff can
               easily hide drugs under their clothes or in the property they bring into the
               institutions without fear of detection. BOP staff told us that restrictions on
               the type and amount of personal property employees may bring into an

U.S. Department of Justice                                                               v
Office of the Inspector General
Evaluation and Inspections Division
               institution, along with procedures for searching property and staff, would
               help deter drug smuggling. Also, FBI and OIG agents we interviewed who
               investigate BOP drug cases believed the lack of searches of staff and their
               property contribute to the staff’s ability to smuggle drugs into BOP
               institutions. Several of the state correctional systems we surveyed
               routinely search staff and their property.

          •    Random Staff Drug Testing Has Not Been Implemented. We found that
               despite winning a federal court case in 1993 that permitted random drug
               testing of BOP staff, and the existence of a written BOP policy that
               requires drug testing, the BOP conducts no random drug tests of its staff.4
               The majority of staff we interviewed at all levels (managers, supervisors,
               correctional officers, and drug treatment staff) support random drug testing
               of staff. The union representatives we interviewed also support random
               staff drug testing. As with other drug interdiction activities directed toward
               staff, random drug testing is common in both state and local correctional
               systems. Additionally, the Department of Justice’s other components that
               have a law enforcement mission (such as the FBI, Drug Enforcement
               Administration, Immigration and Naturalization Service, U.S. Marshals
               Service, and OIG) conduct random drug tests on employees. When we
               inquired why random drug testing of BOP staff was not instituted, despite
               the court decision allowing and the BOP policy requiring it, BOP managers
               were unable to provide a clear reason why the BOP has not done so.

          Inmate Mail

        Inmate mail is the third primary entry point for smuggling drugs into BOP
institutions. The large volume of inmate mail, limited staff training, and inadequate
drug detection technology present significant challenges for BOP staff to effectively
detect drugs in inmate mail.

          •    More Controls are Needed for Incoming Mail. The BOP relies
               predominantly on manual inspections of mail, but mailroom staff believe
               these inspections cannot detect all drugs that may be hidden in incoming
               mail because of the high volume. Institution mailrooms process up to
               3,000 pieces of mail daily, with double that amount or more on a Monday
               (because there is no mail delivery on weekends) and during holiday
               periods. Because the BOP imposes no restrictions on unsolicited mail
               (such as catalogues and other publications), which comprises 10 percent
               of the volume, the added workload further burdens mailroom staff, who

          4
          American Federation of Government Employees, Council 33 v. Roberts, 9 F.3d 1464 (9th
Cir. 1993); see also American Federation of Government Employees, Council 33 v. Reno, 1994 WL
22,4570 (N.D.Cal., May 16, 1994) (on remand).

U.S. Department of Justice                                                                vi
Office of the Inspector General
Evaluation and Inspections Division
               must borrow correctional officers from other functions to assist in
               processing mail in a timely manner. Mailroom staff told us that additional
               policies are needed to limit the growing volume of unsolicited mail. For
               example, some state correctional systems, such as Connecticut, Illinois,
               and Oklahoma, restrict unsolicited advertisements and publications.

          •    Training and Technology are Not Adequate. Drugs may go undetected
               through all stages of mail inspection because of human error or
               inadequate technology. Mailroom staff told us that they need improved
               drug interdiction training to better inspect mail, including training to
               familiarize themselves with different types and forms of drugs and the
               methods used by inmates and outsiders to smuggle drugs. Mailroom staff
               also stated that new technology, such as ion spectrometry technology, is
               needed to help identify drugs concealed in mail.

Reducing Inmates’ Demand for Drugs Through Drug Treatment

       Demand reduction for drugs through drug abuse treatment for inmates is the
second component of the BOP’s drug interdiction strategy. However, this
component of the strategy has not been implemented as effectively as it could be.
We found that an insufficient number of BOP inmates receive drug treatment, partly
because the BOP underestimates and inadequately tracks inmates’ treatment
needs. In addition, an important component of drug treatment, non-residential
treatment, is not adequately provided at BOP institutions due to insufficient staffing,
lack of policy guidance, and lack of incentives for inmates to seek drug treatment.

          •    Inmates’ Drug Treatment Needs are Underestimated and Not Tracked.
               The BOP’s Psychology Services Branch, which is responsible for the
               development, coordination, and monitoring of BOP drug treatment
               programs, has estimated that 34 percent of all federal inmates need drug
               treatment. However, this figure is outdated and we believe
               underrepresents the number of BOP inmates who need drug treatment.
               According to drug treatment staff at the institutions we visited and
               research by other organizations, such as the Bureau of Justice Statistics
               and the Centers for Disease Control and Prevention, this estimate is too
               low. These staff and organizations reported that the percent of federal
               inmates with drug problems ranges from 50 to 80 percent. The BOP’s
               34 percent figure was derived from estimated survey data that was
               collected in 1994 rather than from actual, real-time diagnoses made at the
               institutions by psychologists and drug abuse treatment specialists.
               Therefore, we believe that substantially more BOP inmates need drug
               treatment than the BOP’s official estimate.



U.S. Department of Justice                                                           vii
Office of the Inspector General
Evaluation and Inspections Division
               In addition, the BOP does not document all inmates’ diagnoses or drug
               treatment needs in SENTRY, the automated database system that
               maintains an individual file on each inmate. Without this data, BOP
               cannot identify and track inmates with drug problems to encourage drug
               treatment and allocate resources properly.

               Non-Residential Drug Treatment is Not Always Available. The BOP states
               that non-residential (out-patient) treatment is a major component of its
               strategy to reduce inmates’ demand for drugs. However, at five of the
               institutions we visited, non-residential treatment was limited or not
               available at all. Senior staff at these five institutions acknowledged that
               their drug treatment programs were inadequate. Further, the BOP’s
               internal program reviews have reported ongoing deficiencies in
               institutions’ provision of non-residential treatment. Non-residential drug
               treatment in BOP institutions should be part of a continuum of treatment
               for inmates and should be provided after drug abuse education and before
               residential drug treatment. Non-residential treatment is significant to the
               inmates’ rehabilitation and is the only drug treatment available to BOP
               inmates in the general population while awaiting BOP residential drug
               placement. But because inmates are not eligible for BOP residential drug
               treatment until the last 3 years of their sentences, and because the
               average sentence is approximately 10 years, many inmates must wait 7
               years or more for drug treatment. We believe that non-residential drug
               treatment should be provided in the interim. The BOP provides drug
               abuse education classes, but these are not an adequate substitute for
               drug treatment.

               We found that non-residential treatment is not always available because
               the BOP has not staffed its institutions with enough drug abuse treatment
               specialists to provide non-residential treatment and has not adequately
               emphasized non-residential treatment in its drug treatment policy. Finally,
               while drug abuse education classes and the residential drug abuse
               treatment program have incentives for completion and sanctions or
               consequences for non-completion, non-residential treatment does not
               have any incentives or sanctions. Because of the lack of incentives and
               sanctions, inmates do not readily volunteer to participate in non-residential
               drug treatment. The result is that not enough inmates participate in
               needed drug treatment programs.

Other Opportunities to Improve Drug Interdiction Activities

       We reviewed other points of entry for drugs into BOP institutions – such as
the receiving and discharge area, the warehouse, the rear gate, volunteers, and
contractors – that BOP staff stated were also vulnerable to drug smuggling.

U.S. Department of Justice                                                            viii
Office of the Inspector General
Evaluation and Inspections Division
Regarding the receiving and discharge area, the warehouse, and the rear gate, we
concluded that better technology could supplement manual inspections for drugs by
correctional officers. For volunteers and contractors, we concluded that information
about their backgrounds could be more effectively shared among BOP institutions to
assist institutions in their selection decisions. We also reviewed the role of
institutions’ intelligence staff in drug interdiction activities and concluded that rotation
of the Special Investigative Supervisor (SIS) lieutenant is too frequent and that
timely investigative and drug training for the SIS lieutenants is needed. We also
reviewed the BOP’s only canine unit at the USP Lewisburg, Pennsylvania, and
concluded canine units could be a useful drug interdiction technique for other
institutions. Canines trained specifically in drug detection can search for and detect
drugs in all areas of the institutions where BOP currently has no drug detecting
technology, such as the mailroom, the warehouse, the receiving and discharge area,
the rear gate, and inmates’ housing, work, and common areas.

Recommendations

         Our report contains 15 recommendations to help improve the BOP’s efforts to
prevent drugs from entering its institutions. We recognize that no single interdiction
activity or combination of activities may eliminate all drugs from entering BOP
institutions, and not every technique may be necessary at every institution. But we
believe the BOP should employ a variety of additional and improved interdiction
activities. We made these recommendations based on our field work, our review of
BOP policies and procedures, and our interviews with BOP staff and their
experienced judgment of potential solutions to the drug problem in BOP institutions.
We also reviewed information about drug interdiction activities conducted by several
state correctional systems. We incorporated into our recommendations those state
activities that we believe could be adopted by the BOP to supplement its existing
interdiction activities.

        Regarding inmate visits, we recommend the BOP consider restricting or
eliminating contact visits for specific inmates or institutions based on an assessment
of the inmate’s history of drug use or drug smuggling in prison and the institution’s
overall drug problem. We also recommend the BOP consider implementing pat
searches of visitors. The BOP also should invest in additional technology such as
cameras, monitors, ion spectrometry technology, or other emerging drug detection
technology to better screen and monitor visitors. Finally, the BOP should increase
its staffing level in visiting rooms to ensure sufficient direct observation and
monitoring of each visit.

       Regarding BOP staff, we recommend the BOP implement policies to restrict
the size and content of property staff bring into institutions. We also recommend
that the BOP implement a policy regarding the searching of staff and their property
when they enter BOP institutions, as well as implement random drug testing for staff.

U.S. Department of Justice                                                            ix
Office of the Inspector General
Evaluation and Inspections Division
        Regarding mail, we recommend the BOP implement a policy restricting
unsolicited mail. The BOP should provide additional training for staff to help them
effectively search mail to detect drugs, and also should test mailroom drug detection
technologies.
        Regarding inmate drug treatment, we recommend that the BOP maintain in
SENTRY complete drug treatment-related data for all inmates and use this data as a
basis to better assess the drug treatment needs of inmates and to better allocate
resources for drug treatment staff and programs. The BOP should implement
additional non-residential treatment programs for inmates in the general population.
The BOP should provide a curriculum for non-residential treatment and guidance
regarding the minimum number of weeks and sessions. We also recommend the
BOP implement incentives for participation in non-residential drug treatment and
consequences for non-completion.

        We also recommend that the BOP improve drug interdiction activities for the
receiving and discharge area, the warehouse, the rear gate, volunteers, contractors,
and institution intelligence operations. The BOP also should consider another pilot
test of canines as a drug detection technique for its institutions.

       We recognize that some of these recommendations may require additional
funds, but we believe these efforts are needed to reduce the problem of drugs
entering BOP institutions.




U.S. Department of Justice                                                      x
Office of the Inspector General
Evaluation and Inspections Division
                                         TABLE OF CONTENTS


INTRODUCTION .................................................................................................. 1

          Background ................................................................................................ 1
          Methodology............................................................................................... 3

RESULTS OF THE INSPECTION ........................................................................ 5

          The BOP’s Drug Problem
              Inmates’ Drug Tests ............................................................................ 5
              Inmates’ Drug Misconduct Charges .................................................... 9
              Other Indicators................................................................................. 13

          Stopping the Supply of Drugs at the Primary Points of Entry
              Inmate Visitors .................................................................................. 16
                  Recommendations ..................................................................... 21
              Staff................................................................................................... 22
                  Recommendations ..................................................................... 27
              Inmate Mail........................................................................................ 29
                  Recommendations ..................................................................... 37

          Reducing the Demand for Drugs Through Drug Abuse Treatment .......... 38
             Recommendations ............................................................................ 47

          Other Opportunities for Improving Drug Interdiction
              Receiving and Discharge .................................................................. 49
              Institution Deliveries: The Warehouse and Rear Gate ..................... 51
              Volunteers and Contractors............................................................... 53
              Institution Intelligence Operations ..................................................... 55
              Canine Units...................................................................................... 58
              Recommendation .............................................................................. 61

APPENDIX I:              Drug Abuse Treatment Programs ............................................ 62
APPENDIX II:             Contacts and Site Visits........................................................... 64
APPENDIX III:            Categories of Inmate Drug Tests ............................................. 66
APPENDIX IV:             Positive Drug Test Rates by Institution Security Level ............ 68
APPENDIX V:              Definitions of 100-Level Misconduct Charges ......................... 75
APPENDIX VI:             Drug Misconduct Charges by Institution Security Level .......... 77
APPENDIX VII:            Visiting Policy and Procedures ................................................ 85
APPENDIX VIII:           Mail Policy and Procedures ..................................................... 87
APPENDIX IX:             Requirements for Authorizing Volunteers and Contractors ..... 90
APPENDIX X:              Glossary of Acronyms ............................................................. 94


U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX XI: BOP’s Response to the Draft Report....................................... 95
APPENDIX XII: OIG’s Analysis of the BOP’s Response................................. 106




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                        INTRODUCTION


       The Evaluation and Inspections Division, Office of the Inspector General
(OIG), reviewed drug interdiction activities implemented by the Federal Bureau of
Prisons (BOP) to prevent drugs from entering BOP institutions.

Background
      From fiscal year (FY) 1992 through FY 2001, the number of sentenced
inmates in BOP institutions increased by 103 percent from 59,516 to 120,827, and
the number of federal institutions increased from 67 to 100.5 Throughout this
10-year period, the number of sentenced drug offenders comprised more than 50
percent of the BOP’s inmate population.6

        The BOP is responsible for preventing drugs from entering its institutions
because drugs disrupt the BOP from providing a safe, secure environment and from
assisting inmates in becoming law-abiding citizens. Drug abuse is typically
associated with serious inmate misconduct such as assaults, fighting, and
possession of weapons.7 Fatal and non-fatal drug overdoses also occur in BOP
institutions. In addition, continuing criminal activity inside the institutions interferes
with the rehabilitative opportunities that drug abuse treatment programs offer
inmates. Inmates who have not received drug abuse treatment are more likely to
continue criminal activity after release.8




          5
           The BOP’s total inmate population consists of offenders who have been convicted but not
yet sentenced to a term of incarceration and inmates who are serving their terms of incarceration.
The number of sentenced inmates includes inmates in BOP institutions only. As of October 2001, the
BOP had a total inmate population of 156,238. Of these inmates, 130,061 were confined in BOP
institutions, 12,668 were confined in privately managed secure facilities, and 13,509 were confined in
other non-BOP facilities. As of October 2002, the BOP’s total inmate population had increased to
163,447 and the number of BOP institutions had increased to 102.
          6
          According to the BOP, the percentage ranged from a high of 61.3 percent in September
1994, to a low of 55.5 percent as of October 2001. BOP website, Quick Facts, “BOP Population Over
Time/Drug Offenders as a Percentage of All Sentenced Offenders,” May 2002.
          7
        “Visitor Drug Testing Demonstration Project,” BOP Office of Research and Evaluation,
May 2001.
          8
          According to the National Institute of Drug Abuse, National Institutes of Health, “Principles of
Drug Addiction Treatment, A Research-Based Guide,” July 2000, research shows that treatment for
drug-addicted offenders during and after incarceration can have a significant beneficial effect upon
future drug use, criminal behavior, and relapse to drug use. Additionally, in the “BOP TRIAD Drug
Treatment Evaluation Project,” September 2000, the BOP evaluated its residential drug abuse
treatment program and found that offenders who had completed the program and had been released
to the community for three years were less likely to be re-arrested or to be detected for drug use.
U.S. Department of Justice                                                                          1
Office of the Inspector General
Evaluation and Inspections Division
        To prevent drugs from entering its institutions, the BOP employs a strategy
with two major components: stopping the supply of drugs through various interdiction
activities and reducing the demand for drugs through drug abuse treatment for
inmates.

        Stopping the Supply of Drugs. The BOP’s interdiction activities are governed
by various BOP national policies and supplemented by local institutional directives.
To stop the supply of drugs in its institutions, the BOP gathers intelligence
information, investigates criminal activity inside the institutions, and directs specific
interdiction activities toward the institutions’ potential points of drug entry. Table 1
lists the potential points of entry for drugs identified by the BOP and summarizes the
interdiction activities typically directed toward each point of entry.

                  Table 1. Drug Points of Entry and Interdiction Activities

                      a                                                               b
Points of Entry                                   Drug Interdiction Activities
                           Background check for non-family visitors on visiting lists, lockers for personal
                                                                                    c
Visitors                   property, metal detector, ion spectrometry technology, visual search
                           observation of visits by correctional officers, cameras, two-way mirrors
                           Background investigations; annual integrity training; drug testing for suspicion,
Staff                      post-accident, pre-employment, post-substance abuse treatment;
                           administrative and criminal sanctions
Mail                       X-ray scanner, visual inspection, mail monitoring
Receiving and
                           Property and pat searches, x-ray scanner
Discharge
Warehouse and              X-ray scanner; visual search; vendors deliver to warehouse—do not enter
Rear Gate                  secure perimeter; and rear gate inspection of supplies
                           National Crime Information Center (NCIC) database check, fingerprints, and
Volunteers                                   d
                           security training

Contractors                Pre-contract requirements, drug test annually for re-badging, security training
  Source: BOP
  a
    Interdiction activities also are directed at inmates. These activities include property searches, pat
  searches, cell searches, drug testing, telephone and mail monitoring, and administrative and
  criminal sanctions.
  b
    Not all interdiction activities are employed or available at every institution.
  c
    The ion spectrometry technology detects the presence of microscopic traces of illegal drugs on
  persons, clothing, and objects, and is available in approximately 40 BOP institutions.
  d
    The NCIC computer system contains databases and an index of computerized criminal justice
  information maintained by the Federal Bureau of Investigation (i.e., criminal record history
  information, fugitives, stolen properties, missing persons). This system is available to federal, state,
  and local law enforcement and other criminal justice agencies.




U.S. Department of Justice                                                                          2
Office of the Inspector General
Evaluation and Inspections Division
        To deter drug use in its institutions, the BOP takes administrative and criminal
action against inmates, staff, and visitors who engage in illegal drug activity.
Administratively, inmates are issued a misconduct report for violating BOP rules
prohibiting drug-related activity and face an administrative hearing. If found guilty of
a drug charge, an inmate loses “good time” toward service of sentence, is placed in
disciplinary segregation, and loses other privileges such as visits, telephone, and
commissary for a specified period of time. If circumstances warrant, the BOP refers
the matter to appropriate law enforcement authorities to investigate and prosecute
the inmate. When a BOP staff member engages in criminal drug activity, the BOP
takes disciplinary action (such as removal) and refers the matter for criminal
prosecution. If a visitor is caught smuggling drugs into the institution, the BOP takes
administrative action to bar that person from the institution and pursues criminal
prosecution.

        Reducing the Demand for Drugs. The BOP has developed drug abuse
treatment programs to reduce inmates’ demand for drugs while incarcerated and
increase their potential for successful rehabilitation and re-entry into the community.
The BOP’s drug abuse treatment programs consist of drug abuse education
(classroom instruction), non-residential (outpatient) drug treatment, and residential
(inpatient) drug treatment. Appendix I provides detailed information about the BOP’s
drug abuse treatment programs.

Methodology
        We interviewed the BOP Director, senior management officials from the
BOP’s Central Office, and institution staff. We conducted fieldwork between October
2001 and August 2002. We visited nine institutions selected by region, inmate drug
testing results, drug misconduct rates, institution security level, and site of ion
spectrometry technology. While at the institutions, we interviewed approximately
100 BOP staff and observed interdiction activities at each of the institutions’ points of
entry for drugs. We also interviewed Federal Bureau of Investigation (FBI) agents
and OIG agents responsible for investigating criminal activity at the institutions. For
a list of specific sites visited and staff interviewed, see Appendix II.

        We used quantitative and qualitative information to assess the effectiveness
of the BOP’s drug interdiction activities. We examined inmates’ drug testing records,
drug misconduct charges, overdose data, records of drug finds, and arrest records
for FY 1997 through FY 2001. To examine the drug problem in the BOP and identify
trends and patterns, we grouped and analyzed data using the BOP’s security level
classifications for its institutions – administrative, minimum, low, medium, and high
security.9 In this manner, we could assess the effectiveness of the BOP’s drug


          9
           BOP Program Statement 5100.07, Security Designation and Custody Classification Manual,
describes the security levels. Inmates with similar characteristics (e.g., sentence length, criminal
history, violence and escape history, and level of supervision required) are housed together based on
this system. The institutions within a security level also have similar security features such as staff-
U.S. Department of Justice                                                                        3
Office of the Inspector General
Evaluation and Inspections Division
interdiction activities in institutions that operate under similar conditions, as well as
assess whether the security level affects the presence of drugs in institutions.

        We also obtained drug interdiction strategies of 17 state corrections
departments via survey or through other reports, and reviewed articles containing
information about drugs in federal, state, and local correctional facilities. We
compared the states’ drug interdiction activities to the BOP’s drug interdiction
activities to identify new activities that could be applied within the BOP.




to-inmate ratios, mobile patrols, gun towers, perimeter barriers, housing, detection devices, and
internal security.
U.S. Department of Justice                                                                          4
Office of the Inspector General
Evaluation and Inspections Division
                                 RESULTS OF THE INSPECTION


The BOP’s Drug Problem

          Although the BOP conducts interdiction activities at its
          institutions to prevent the introduction of drugs, inmates’ positive
          drug tests, drug misconduct charges, drug overdoses, drug finds,
          and drug cases against staff, visitors, and inmates indicate drug
          use and drug smuggling occur in almost every institution.

Inmates’ Drug Tests Show Drug Use in Most Institutions

       Each year from FY 1997 through FY 2001, more than 2,800 inmates tested
positive for drugs.10 Table 2 shows the annual number and rate (or percent) of
positive urinalysis drug tests for all BOP institutions. During this 5-year period, the
BOP introduced drug detecting technology for use on visitors, increased the number
of inmate drugs tests at high security level institutions, and expanded availability of
residential drug treatment for inmates. Despite these interdiction activities, the rates
of positive drug tests have decreased only slightly over the 5-year period.

                    Table 2. Number and Rate of Positive Drug Tests for
                                   All BOP Institutions

                            FY 1997          FY 1998    FY 1999       FY 2000        FY 2001
Total Number of
Positive Tests
                                 2,804          2,907      3,120          3,323           3,244

Total Drug Tests
Performed
                              125,456         128,646    144,096       156,747         167,105

Positive Drug
Test Rate (%)
                                      2.24       2.26        2.17           2.12           1.94
Source: BOP
Data for each fiscal year excludes institutions that did not have test results for the entire year.
Data for two high security level institutions, USP Marion and ADX Florence, which have non-contact
visits and little or no inmate movement, were excluded.
See Appendix X for a glossary of acronyms.

        Although the BOP’s national rate of 1.94 percent in FY 2001 represents all
positive inmate drug tests as a percent of all drug tests performed in all BOP
institutions, it understates the high level of drug use at some individual institutions.
To assess the full picture of inmate drug use, we examined positive drug test rates

          10
          The BOP tests for the following five illegal substances: methamphetamines, opiates,
marijuana, morphine (including heroin), and cocaine. See Appendix III for more information about the
BOP’s inmate drug testing program.
U.S. Department of Justice                                                                     5
Office of the Inspector General
Evaluation and Inspections Division
by institution security levels and rates for institutions within those security levels.
Analyzing trends within security levels allows comparison of institutions with similar
inmate populations and security features. This analysis shows that despite more
enhanced security perimeter features and internal operational procedures at the
higher security level institutions, these institutions have a greater level of positive
drug tests than other BOP institutions.

        Figure 1 shows the rates of positive drug tests by each institution security
level for FY 1997 through FY 2001, as compared with the positive drug test rate for
all BOP institutions.11

                                         Figure 1. Positive Drug Test Rates by
                                            Security Level FY 1997 - FY 2001
                                 5.00%
      Percent Positive




                                 4.00%

                                 3.00%

                                 2.00%

                                 1.00%

                                 0.00%
                                           FY 1997    FY 1998    FY 1999        FY 2000       FY 2001
                          Administrative    3.16%     2.68%       2.41%          2.52%         2.24%
                          Minimum           0.82%     0.77%       1.09%          1.17%         0.93%
                          Low               1.34%     1.61%       1.36%          1.28%         1.44%
                          Medium            2.66%     2.54%       2.25%          2.30%         1.93%
                          High              3.93%     4.10%       4.33%          3.29%         3.04%
                          All BOP           2.24%     2.26%       2.17%          2.12%         1.94%



    Source: BOP
    Data for each fiscal year excludes institutions that did not have test results for the entire year.
    Data for two high security level institutions, USP Marion and ADX Florence, which have non-contact visits
    and little or no inmate movement, were excluded.
    See Appendix X for a glossary of acronyms.

       For the administrative, medium, and high security levels, the FY 2001 overall
positive drug test rates declined by less than 1 percent from the FY 1997 rates.
The minimum and low security levels increased marginally by 0.11 percent and 0.10

                     11
            The percentage of inmates drug tested varies by institution security level. According to BOP policy
effective November 1999, each high security level institution is required to randomly test 10 percent (up from 7
percent) of its total inmate institution. Each medium, low, and administrative security level institution is required
to perform random testing on 5 percent of its total population. Each minimum security level institution is required
to perform random testing on 3 percent (down from 5 percent) of its total population. The ADX Florence,
Colorado, and the USP Marion, Illinois, are required to conduct 5 percent random testing monthly of their total
inmate populations.
U.S. Department of Justice                                                                                     6
Office of the Inspector General
Evaluation and Inspections Division
percent, respectively. When comparing the FY 2000 and FY 2001 positive drug test
rates, rates for all security levels except the low security level decreased, although
slightly. At the end of FY 2001, the high security level had the highest overall
positive drug test rate, followed by the administrative, medium, low, and minimum
security levels. This order of highest to lowest overall positive drug test rate by
security level has not changed since FY 1997.

         Although the BOP national rate for positive drug tests and overall rates by
security level have generally declined, serious drug problems exist at individual
institutions. The inmates’ urinalysis drug test results show that every administrative,
minimum, low, medium, and high security level institution for which data was
available had positive tests for use of illegal drugs at some time during the 5-year
period from FY 1997 through FY 2001 (see Appendix IV for a complete list of the
rates of positive drug tests for individual institutions). Even the high security U.S.
Penitentiary (USP) Marion, Illinois, and the Administrative Maximum Security
Institution (ADX) Florence, Colorado, which do not allow inmates to have contact
visits and have extremely limited and controlled movement of inmates, had positive
drug tests at some time during the five years reviewed.

       Some institutions have positive drug test rates that are much higher than the
national rate and their respective overall security level rate. For example, Table 3 on
the next page shows the three institutions for each security level with the highest
positive drug test rates for FY 2001.




U.S. Department of Justice                                                         7
Office of the Inspector General
Evaluation and Inspections Division
           Table 3. Top Three Institutions With the Highest Rates of Positive Drug
                     Tests Within Each Security Level for FY 2001

                               Institution                             FY 2001 Rate (%)
                                      BOP National Rate                         1.94
                                                                                     a
                                  High Security              Overall Rate 3.04
               USP Beaumont                                                                        7.84
               USP Lompoc                                                                          6.09
               USP Leavenworth                                                                     2.65
                                                                                     b
                                 Medium Security              Overall Rate 1.93
               Victorville Medium FCI                                                              5.52
               Tucson FCI                                                                          4.45
               Phoenix FCI                                                                         4.10
                                                                                     c
                                  Low Security                Overall Rate 1.44
               Taft CI                                                                             5.94
               Beaumont Low FCI                                                                    2.69
               Dublin FCI                                                                          2.16
                                                                                       d
                                 Minimum Security             Overall Rate 0.93
               Phoenix FCI Camp                                                                    6.41
               Lewisburg USP ICC                                                                   6.40
               El Reno FCI Camp                                                                    3.45
                                                                                      e
                                 Administrative               Overall Rate 2.24
               Rochester FMC                                                                       7.61
               Springfield USMCFP                                                                  6.27
               Los Angeles MDC                                                                     4.19

              Source: BOP
              See Appendix X for a glossary of acronyms.
              See Appendix IV for a complete list of positive drug test rates for individual institutions.
              a
                In FY 2001, the rates of positive drug tests decreased for 7 of 9 high security institutions.
              However, rates for 2 institutions increased from FY 2000, and rates for 3 institutions were
              above the FY 2001 national rate.
              b
                Eleven of the 31 medium security institutions for which data was available had positive
              drug test rates higher than the overall annual rate for medium security institutions, and 12
              institutions’ rates increased from FY 2000.
              c
                Thirteen of 25 low security institutions for which data was available had annual positive
              drug test rates higher than their FY 2000 rates.
              d
                Twenty-three of 50 minimum security facilities for which data was available had annual
              positive drug test rates higher than their FY 2000 rates. The high drug rate at the USP
              Lewisburg Intensive Confinement Center (ICC), which is a Boot Camp, is attributed to the
              past practice of drug testing inmates upon admission. This practice has ceased.
              e
                Nine of 19 administrative institutions for which data was available had positive drug test
              rates higher than their FY 2000 rates. The high rates at the administrative medical centers
              could be attributed to authorized prescription drugs for inmates’ health conditions.



U.S. Department of Justice                                                                                      8
Office of the Inspector General
Evaluation and Inspections Division
Inmates’ Drug Misconduct Charges Indicate Drug Use and Smuggling

       Inmates who violate the BOP’s rules of conduct receive a misconduct
         12
report. The prohibited behaviors are divided into four levels of severity: 100, 200,
300, and 400, with the 100-level prohibited behaviors the most serious (see
Appendix V for a complete list of the 100-level misconduct charges). The BOP has
four drug-related misconduct charges, all of which are 100-level infractions:

          •    Refusing to provide a urine sample or to take part in other drug abuse
               testing;

          •    Introduction of any narcotics, marijuana, drugs, or related paraphernalia
               not prescribed for the individual by the medical staff;

          •    Use of any narcotics, marijuana, drugs, or related paraphernalia not
               prescribed for the individual by the medical staff; and

          •    Possession of any narcotics, marijuana, drugs, or related paraphernalia
               not prescribed for the individual by the medical staff.

       During the last three fiscal years, drug misconduct charges within each
security level have comprised more than 50 percent of all 100-level misconduct
charges.13 Across all security level institutions, drug misconduct charges have
comprised approximately 66 percent of the 100-level charges. Table 4 on the next
page shows drug misconduct charges as a percentage of 100-level misconduct
charges from FY 1999 through FY 2001.14




          12
          The BOP Program Statement 5270.07, Discipline and Special Housing Units, sets forth
administrative rules against prohibited behavior by which the inmates must abide.
          13
           Whenever an inmate has a positive drug test, the BOP should issue a misconduct report
for “Use of any narcotics…not prescribed for the individual by the medical staff.” However, separate
from the “Use” charge, misconduct reports also may be issued for possession or introduction of any
narcotic when drugs are found on an inmate, in their cell, or in an area where they can be attributed
to a particular inmate, or if an inmate is caught attempting to smuggle drugs into the institution.
Inmates also can be charged with “Refusing to provide a urine sample…,” which administratively is
considered the same as if the urine sample was positive. Thus, the number of drug misconduct
charges may be higher than the number of positive drug tests.
          14
           Prior to FY 1999, all misconduct charges were aggregated to include the main institution
and its satellite camp or other associated security level institution on the main compound. For
example, a minimum security camp’s misconduct charges were aggregated into the main institution’s
data even though the main institution was a high security institution, thus mixing data of different
security level institutions. Beginning in FY 1999, the BOP began to disaggregate misconduct data so
that each institution reports its own data separately.
U.S. Department of Justice                                                                       9
Office of the Inspector General
Evaluation and Inspections Division
    Table 4. Drug Misconduct Charges as a Percent of 100-Level Misconduct
                     Charges by Institution Security Level

    Security Level                    FY 1999           FY 2000                 FY 2001

  High                                          62.6              60.3                     57.2

  Medium                                        76.7              68.1                     63.2

  Low                                           71.7              69.0                     74.1

  Minimum                                       81.9              88.1                     80.1

  Administrative                                72.6              65.7                     56.1
  Source: BOP
  Data for each fiscal year excludes institutions that did not have misconduct data for the entire year.
  Data for two high security level institutions, USP Marion and ADX Florence, which have non-contact
  visits and little or no inmate movement, were excluded.


         For FY 1999 through FY 2001, the BOP’s drug misconduct rates show that
drugs are smuggled into the institutions regardless of the security level of the
institution. We found that all BOP low, medium, and high security level institutions
and most minimum security level and administrative institutions had drug misconduct
reports issued to inmates at some time during the 3-year period reviewed (see
Table 5 on the next page). The total number of misconduct charges for all
institutions exceeds 3,500 charges annually and indicates that the BOP’s interdiction
activities have not been fully successful in preventing drugs from entering its
institutions.




U.S. Department of Justice                                                                        10
Office of the Inspector General
Evaluation and Inspections Division
                        Table 5. Number and Rate of Drug Misconduct Charges by
                                       Institution Security Level



                                  FY 1999                              FY 2000                           FY 2001

                     Average                               Average                           Average
                                      Total #     Drug                   Total #    Drug                   Total #    Drug
                       Daily                                 Daily                             Daily
 Security Level                      of Drug     Charge                 of Drug    Charge                 of Drug    Charge
                      Inmate                                Inmate                            Inmate
                                     Charges     Rates                  Charges    Rates                  Charges    Rates
                    Population                            Population                        Population


High                     11,895         1,356     11.40      12,380       1,336     10.79      12,750       1,154      9.05


Medium                   29,716         1,400      4.71      32,038       1,437      4.49      34,986       1,358      3.88


Low                      36,126            565     1.56      40,308         553      1.37      44,087         580      1.32


Minimum                  20,969            150     0.72      22,760         233      1.02      22,776         179      0.79


Administrative           16,319            311     1.91      17,889         322      1.80      18,973         298      1.57

Source: BOP
Data for each fiscal year excludes institutions that did not have misconduct data for the entire year.
Data for two high security institutions, USP Marion and ADX Florence, which have non-contact visits and little
or no inmate movement, were excluded.




         U.S. Department of Justice                                                                         11
         Office of the Inspector General
         Evaluation and Inspections Division
       For each security level, Table 6 shows the three institutions with the highest
drug misconduct rates for FY 2001.


                     Table 6. Top Three Institutions with the Highest Rates of Drug
                      Misconduct Charges Within Each Security Level for FY 2001


                                                                        FY 2001
                                                    Average Daily
                                                                        Total # of      Drug Charge
                        Institution                    Inmate
                                                                      Drug Charges       Rates (%)
                                                     Population
                                                                                               a
                      High Security                   Overall Misconduct Rate 9.05
     USP Beaumont                                            1,372               319                   23.25
     USP Lompoc                                              1,509               238                   15.77
     USP Leavenworth                                         1,679               213                   12.69
                                                                                               b
                     Medium Security                  Overall Misconduct Rate 3.88
     Phoenix FCI                                             1,248               142                   11.38
     Victorville Medium FCI                                  1,504               156                   10.37
     Tucson FCI                                                759                70                    9.22
                                                                                               c
                      Low Security                    Overall Misconduct Rate 1.32
     Taft CI                                                 1,862               172                    9.24
     Forrest City FCI                                        1,818                61                    3.36
     Beaumont Low FCI                                        1,921                59                    3.07
                                                                                                   d
                     Minimum Security                   Overall Misconduct Rate 0.79
     Cumberland FCI Camp Unit                                  134                 6                    4.48
     Leavenworth USP Camp Unit                                 333                10                    3.00
     Memphis FCI Camp Unit                                     306                 8                    2.61
                                                                                               e
                       Administrative                 Overall Misconduct Rate 1.57
     Los Angeles MDC                                           818                30                    3.67
     Rochester FMC                                             789                16                    2.03
     San Diego MCC                                             772                14                    1.81
    Source: BOP
    See Appendix X for a glossary of acronyms.
    See Appendix VI for the rate and number of drug misconduct charges by individual institution.
    a
      Three of 9 high security institutions for which data was available had drug misconduct
    rates that were higher than the overall high security rate of 9.05 percent for FY 2001.
    b
      Ten of 31 medium security institutions for which data was available had drug misconduct rates
    higher than the overall medium security drug misconduct rate of 3.88 percent for FY 2001.
    c
      Ten of 25 low security institutions for which data was available had drug misconduct rates higher
    than the overall low security drug misconduct rate of 1.32 percent for FY 2001.
    d
     Thirty of 62 minimum security institutions for which data was available had drug misconduct rates
    above the overall minimum security drug misconduct rate of 0.79 percent for FY 2001.
    e
     Eight of 20 administrative institutions for which data was available had drug misconduct rates
    above the overall administrative drug misconduct rate of 1.57 percent for FY 2001.


U.S. Department of Justice                                                                             12
Office of the Inspector General
Evaluation and Inspections Division
Other Indicators Show Persistent Drug Use and Smuggling

       Data on inmate drug overdoses, drug finds in institutions, and drug cases
involving inmates, visitors, or staff are also important indicators of drug problems in
BOP institutions. However, this data only partially reflects the extent of the problem
because not all overdoses are documented by the BOP and not all drug smuggling
is detected.

       Overdoses. Between FY 1997 and FY 2001, the BOP reported 18 inmate
overdose deaths that resulted from ingested illegal controlled substances. In
addition, 32 non-death overdoses occurred from non-prescription drugs or
prescription drugs during FY 2000 and FY 2001.15 The BOP was not able to provide
us with the number of non-death overdoses that occurred from ingesting illegal
controlled substances because its Health Services Division does not track this
information.

       Drug Finds. The BOP’s data on drug finds in its institutions during FY 2000
and FY 2001 shows 1,100 finds, with approximately half of these found on the
inmates, in the inmates’ belongings, or in the inmates’ cells. The data did not
indicate how the inmates obtained the drugs or drug paraphernalia. Sixteen drug
finds were attributed to visitors and 24 drugs finds were attributed to the mail. For
the remainder of the drugs finds, the data showed either they occurred in common
areas of the institutions or the locations were not indicated. The sources of entry for
the drugs also were not indicated.

       Drug Cases. From FY 1997 through FY 2001, the BOP has sustained drug-
related misconduct allegations against 93 employees. The cases include
introduction of drugs into the institutions, as well as personal drug use.

       In addition, from FY 1997 through FY 2001, the FBI opened 791 drug-related
cases involving BOP inmates (538 cases), visitors (183 cases), and staff (70 cases)
that resulted in 510 convictions or pre-trial diversions.16,17

          15
          One non-death overdose occurred at the Taft Correctional Institution, which is a contract facility. In
another non-death overdose, the inmate ingested bleach. The BOP does not maintain data prior to these fiscal
years.
           16
              The number of cases does not reflect whether or not the cases were substantiated. Each case
opened can represent multiple subjects or indictments or both. The FBI has investigative responsibility for all
violations of Title 18, United States Code, Section 13 (Crimes on Government Reservations) and criminal
activities at the BOP institutions, including Sections 1791 and 1792 (Irregularities in Federal Penal Institutions).
These criminal activities include any drug-related crimes primarily committed by inmates, visitors, or other
civilians. The OIG shares responsibility with the FBI for investigating criminal allegations against BOP staff. The
proximity of the FBI or OIG field office to the institution is an important factor in the decision on who investigates
staff misconduct.
          17
              In pre-trial diversions, certain defendants in criminal cases are referred to community agencies prior
to trial while their criminal complaints or indictments are held in abeyance. The defendant may be given job
training, counseling, and education. If s/he responds successfully within a specified period, the charges against
him/her are commonly dismissed.

U.S. Department of Justice                                                                                    13
Office of the Inspector General
Evaluation and Inspections Division
       OIG data from FY 1997 through FY 2001 shows 34 BOP staff arrests
primarily for introduction or attempted introduction of drugs into BOP institutions.

       Although the number of drug cases involving BOP staff is less than cases
involving inmates and visitors, staff who smuggle drugs can do significant damage to
the safety and security of the institutions. At the institutions we visited staff told us
repeatedly that while the large majority of staff have high integrity, when staff
smuggle drugs into the institutions, the amounts are larger, they reach more
inmates, and more money is involved. Several examples of staff arrests in recent
years demonstrate the large quantities of drugs staff have introduced or attempted to
introduce into BOP institutions.

          •    In FY 2001, a food service foreman was arrested and pled guilty to bribery
               and one count of attempting to possess with intent to distribute more than
               five kilograms (11 pounds) of cocaine into FCI Miami, Florida.

          •    In FY 2000, a correctional officer attempted to deliver approximately 109
               grams of crack cocaine, 73 grams of black tar heroin, and 25 grams of
               white heroin into USP Beaumont, Texas. To illustrate the effect these
               large quantities of drugs have on an institution, the 109 grams of crack
               cocaine could be packaged into approximately 1,090 crack “rocks” and the
               73 grams of black tar heroin could be packaged into approximately 300
               separate “hits” or capsules of heroin for sale to inmates.18

          •    In FY 2000, a correctional officer attempted to introduce one-half kilo
               (1.1 pounds) of cocaine into FCI Low, Beaumont, Texas.

          •    In FY 2000, a cook supervisor attempted to introduce one pound of
               marijuana and one ounce of cocaine into FCI El Reno, Oklahoma.

          •    In FY 1999, a correctional officer at FCI Forrest City, Arkansas, confessed
               to smuggling two pounds of marijuana.

          •    In FY 1999, a correctional officer on two occasions walked one pound of
               marijuana into FCI Englewood, Colorado.




          18
          This information was provided by a special agent with the Drug Enforcement
Administration.
U.S. Department of Justice                                                               14
Office of the Inspector General
Evaluation and Inspections Division
     Cases investigated by the OIG in FY 2002 further illustrate that drug
smuggling by BOP staff remains a problem:

          •    On June 8, 2002, a correctional officer at USP Pollock, Louisiana, was
               arrested on charges of providing contraband to an inmate in this high
               security institution. The correctional officer possessed one pound of
               marijuana and $1,000 as payment for introducing the marijuana.

          •    On May 17, 2002, a correctional officer at Big Spring Correctional Center,
               Texas, was arrested on charges of introducing contraband, bribery, and
               possession with intent to distribute cocaine after accepting a controlled
               delivery of nine ounces of cocaine and $900 in bribe money from an
               undercover agent. The officer admitted that he brought cocaine,
               marijuana, and other prohibited items into the institution over a period of
               several months.

          •    On April 30, 2002, a BOP nurse was arrested on charges of possession
               with intent to distribute two ounces of cocaine to an inmate in FCI Pekin,
               Illinois.

          •    On April 8, 2002, a correctional officer was sentenced on bribery and drug
               charges involving delivery of four ounces of heroin to an inmate in FCI
               Three Rivers, Texas.

          •    On December 5, 2001, a UNICOR (Federal Prison Industries) supervisor
               at FCI Edgefield, South Carolina, was arrested on state charges of
               possession with intent to distribute six ounces of marijuana to an inmate.

Conclusion

         The BOP has a continuing problem with inmate drug use and drug smuggling
in almost every institution. The indicators of this problem – inmates’ positive drug
tests, drug misconduct charges, drug overdoses, drug finds, and drug cases – do
not show significant progress in the BOP’s efforts to prevent drugs from entering the
institutions. Based on the continued presence of drugs in BOP institutions, we
believe that additional interdiction activities are required.




U.S. Department of Justice                                                           15
Office of the Inspector General
Evaluation and Inspections Division
STOPPING DRUGS AT THE PRIMARY POINTS OF ENTRY
          BOP staff we interviewed identified visitors, staff, and mail as the
          three primary points of drug entry. While the BOP employs
          various interdiction activities to prevent drug smuggling in these
          three areas, we believe additional interdiction activities are
          needed to further limit the opportunities for smuggling.

        We examined the points of drug entry (see Table 1 on page 2) identified by
the BOP and assessed the effectiveness of the BOP’s interdiction activities to keep
drugs out of its institutions. The BOP staff we interviewed cited visitors as the main
source of drugs but were divided as to whether staff or mail constituted the second
greatest source.19 Regarding visitors and mail, we concluded that better technology
is needed to supplement manual inspections and searches for drugs by correctional
officers. We also concluded that more correctional officers are needed to observe
inmate activities or assist in searches. We found that the most notable gap in the
BOP’s interdiction activities is its own staff who are not screened or searched before
entering the institutions, and there are no restrictions on the size and content of
personal property they can bring into the institutions. Furthermore, BOP staff are not
randomly drug tested. These types of interdiction activities are common practices in
state correctional systems.

Inmate Visitors

         The BOP considers inmate visitors the predominant source of drugs entering
its institutions. While the BOP has policies to control visitors’ access to the
institutions and monitor activities during visits, visitors are still successful in
smuggling drugs into the institutions.20 At the institutions we visited, wardens,
department heads, intelligence staff, and correctional officers attributed visitors’
success in smuggling drugs into institutions to two primary causes: (1) the
availability of contact visits, and (2) insufficient cameras, monitors, and staff for
monitoring visits.

Contact Visits are a Main Conduit for Drug Smuggling

       Visitors hide drugs in clothing, on their person (including body cavities), in
baby diapers, and in a variety of other places. Although visitors are required to walk
through a metal detector and there are restrictions on personal property permitted
into the visiting room, visitors are not pat searched at any institution. Metal detectors
do not detect the presence of drugs and ion spectrometry technology, which detects
the presence of microscopic traces of illegal drugs on persons, clothing, and other

          19
          In comments to OIG managers on June 19, 2002, the BOP Director stated that she
believed visitors were the primary source of drugs smuggled into the institutions and staff was the
second greatest source.
          20
               See Appendix VII for information about visiting policies and procedures.
U.S. Department of Justice                                                                      16
Office of the Inspector General
Evaluation and Inspections Division
objects, is not available in all institutions. Therefore, contact visits enable visitors to
exchange drugs with an inmate by discreetly handing over the drugs, placing them in
a food package or beverage purchased from visiting room vending machines, or
exchanging the drugs by mouth when kissing.

       The BOP considers visitors an important part of an inmate’s rehabilitation and
encourages visits by family, friends, and community groups.21 Therefore, all inmates
receive contact visits, including those housed in disciplinary and administrative
segregation units.22 The exceptions are inmates charged or found guilty of
misconduct relating to visiting procedures or otherwise placed on visiting restriction
by the Disciplinary Hearing Officer. With contact visits, no physical barriers exist
between inmates and their visitors, unlike the image portrayed on television where
inmates are separated from their visitors by glass and speak through telephones. In
the visiting room, inmates sit next to or across from their visitors and are allowed
limited physical contact, such as handshaking, embracing, and kissing, at the
beginning and end of the visit.

        On a busy visiting day, an institution’s visiting room can be filled to capacity,
with some institutions receiving up to 150 visitors at one time. Many diversions are
created by the commotion and activity that occur, such as small children playing,
visitors walking back and forth to the vending machines, bathrooms, and correctional
officer’s desk, and inmates walking to and from the bathroom. These diversions
make it difficult for correctional officers to fully supervise each inmate visit and
prevent passage of contraband.

        Many of the institutions’ intelligence staff and correctional officers we
interviewed believed, at a minimum, contact visits should be replaced by non-contact
visits for inmates housed in high security level institutions because these institutions
had the highest rates of positive inmate drug tests and drug misconduct charges.
The BOP has demonstrated the success of non-contact visits as an effective drug
interdiction technique in high security level institutions. Both USP Marion, Illinois,
and ADX Florence, Colorado, prohibit contact visits and both institutions have fewer
positive inmate drug tests and drug misconduct charges.




          21
          Visiting is supported by the accreditation standards established by the American
Correctional Association (ACA). The ACA standards are the national benchmark for the effective
operation of correctional systems throughout the United States.
          22
            A few BOP institutions have built non-contact visiting booths for inmates in the segregation
unit. For example, USP Leavenworth, Kansas, a high security institution, has non-contact visiting
booths for their inmates in one newer segregation unit. USP Beaumont, Texas, a high security
institution, also has non-contact visiting booths.
U.S. Department of Justice                                                                       17
Office of the Inspector General
Evaluation and Inspections Division
       The institutions’ intelligence staff and correctional officers also suggested that
all inmates placed in disciplinary segregation for drug misconduct charges should be
prohibited from contact visits for the duration of their sentence or, at a minimum, for
an extended period of time.

        Correctional officers and intelligence officers stated that an additional
measure to stop drugs smuggled by visitors would be to remove vending machines
from the visiting rooms. They also suggested that ion spectrometry technology (or
other drug detection technology) should be used to screen visitors before they enter
institutions.

        Vending Machines Aid Drug Smuggling. Most correctional officers with
visiting room experience recommended that the BOP remove vending machines
from the visiting rooms because the exchange of food between the visitors and
inmates allows for drug smuggling. Each visiting room has multiple vending
machines containing candy, ice cream, drinks, sandwiches, and other items, for the
purpose of enabling the visitors, who may travel long distances and stay for many
hours, and inmates to share food together.

         The correctional officers also told us that some visitors buy items from a
grocery store identical to items in the institution’s vending machines, place drugs in
the package, then smuggle the food package into the institution. The visitor buys
the identical item from the institution’s vending machine, covertly switches the
smuggled item with the vending machine item, and gives the inmate the smuggled
item with the drugs inside. Such an incident, referred to as the “burrito caper,”
occurred at one BOP institution. In that incident, a female visitor purchased a
packaged burrito identical to ones offered in the institution’s visiting room vending
machine. She placed heroin-filled balloons inside the burrito and smuggled it into
the visiting room.23 She purchased a burrito from the vending machine but switched
it with the burrito she had smuggled and gave the drug-laden burrito to the inmate,
who ingested the burrito and the drugs.24 The warden at this institution responded to
these schemes by removing certain items from the institution’s vending machines.

      New Ion Spectrometry Technology Lacks Funding. Ion spectrometry
technology is designed to detect the presence of microscopic traces of illegal drugs



          23
           The case also is an example of shortcomings in the search procedures to detect drugs on
visitors before they enter the institutions.
          24
           This incident was detected through Special Investigative Supervisor (SIS) staff intelligence
gathering that included telephone monitoring. The inmate admitted ingesting the drugs received
during his visit, which later had to be surgically removed at an outside hospital after the inmate
complained of becoming ill from possible internal bursting of the balloons. The doctor surgically
removed approximately 23 balloons of heroin (five of which had burst) totaling approximately 63
grams.

U.S. Department of Justice                                                                      18
Office of the Inspector General
Evaluation and Inspections Division
on persons and their clothing.25 The use of ion spectrometry technology to randomly
scan visitors for drugs as they enter the BOP’s institutions began as a pilot program
in 1998 in 28 BOP institutions, funded by a $1.8 million grant from the Office of
National Drug Control Policy. The BOP’s pilot program tested the technology on
visitors to determine the effect on inmate drug use. The BOP concluded that the
visitor drug testing program was a significant factor in the decrease of drug use by
inmates in medium, low, and administrative institutions, but not in the high security
institutions.26 However, BOP could not determine specifically how much the ion
spectrometry technology contributed to the decrease in drug use in relation to the
BOP’s other drug interdiction activities. Approximately 40 BOP institutions currently
have the ion spectrometry technology.

        At the institutions we visited with ion spectrometry technology, the majority of
wardens and correctional officers involved in processing visitors and visiting room
monitoring believed ion spectrometry technology is an effective deterrent to drug
introduction. However, the cost of the machine is high ($30,000) and the
maintenance contract and supplies are also expensive ($3,000-$8,000 per year).
During the pilot program, which ended in September 2001, grant funds paid for all
purchase and maintenance costs. Now, institutions must fund the machines from
their existing budgets. Those institutions that did not receive the technology during
the pilot program are uncertain that they can afford to purchase it, and some
questioned whether the technology merits the cost when compared to the
institutions’ other funding needs.

        The BOP does not have a strategy to expand the number of ion spectrometry
machines. However, the BOP Director told the OIG that the current ion
spectrometry machines would be rotated among institutions. When machines are
rotated, visitors cannot readily predict institutions’ screening tactics, and other
institutions that cannot afford to purchase machines could receive a loaned machine
to use as part of visitor screening for a period of time.
          25
            At BOP institutions where the ion spectrometry exists, visitors are randomly selected for
drug testing and are informed that a hand-held device will be passed over their hands, clothing, and
property. If the ion spectrometry machine shows positive tests results for the presence of drugs, the
visitor may be subject to a pat search, may be subject to restricted visiting, or may be denied
visitation for 48 hours. Subsequent positive tests will result in denial of visitation for longer periods,
i.e, 30, 90, and 180 days.
          26
            In its May 2001 report on the Visitor Drug Testing Demonstration Project, the BOP cited
several reasons why drug use in high security institutions did not decrease during the demonstration
project: inmate drug testing rates at high security institutions for the 1-year comparison period (prior
to the project start date) were already quite low, making any later comparison difficult; high security
institutions experienced more difficulties with the ion spectrometry equipment, thus providing more
opportunities for visitors to avoid testing and potentially introduce drugs into the institutions; and high
security institutions have a greater concentration of drugs due to substantial prison gang involvement
in the importation and distribution of drugs. Another factor cited that affected the overall figures for
high security institutions was the emergence of USP Beaumont, Texas, from a new penitentiary that
was relatively drug-free to a penitentiary that demonstrated a very high rate of drug misconducts with
an increase of 70.3 percent in its drug misconduct rate.

U.S. Department of Justice                                                                          19
Office of the Inspector General
Evaluation and Inspections Division
Insufficient Cameras, Monitors, and Staff for Monitoring

        To detect drugs being passed to inmates during contact visits, BOP
institutions need a sufficient number of cameras in all areas of the visiting room, a
sufficient number of monitors to view the activities the cameras are recording, and a
sufficient number of staff to observe the monitors and roam the visiting room for drug
detection.27

        In several institutions we visited, we observed and correctional officers told us
they did not have enough cameras, monitors, and staff to thoroughly observe inmate
visiting. For example:

          •    Large pillars in one visiting room obstructed the view of correctional
               officers and the cameras, and the adjacent observation room with two-way
               glass was not used at all because of lack of staff.

          •    Camera monitors at another institution were available for viewing by one
               correctional officer. The monitors were stationed on a rolling cabinet in
               the hallway outside of the room where inmates are strip searched before
               their visits. The correctional officer responsible for viewing the monitors is
               the same officer who strip searches the inmates before and after visits,
               and escorts and observes the inmates during bathroom breaks. This
               correctional officer stated that he is so busy with searching and escorting
               that he views the monitors at most 25 percent of the time. The
               correctional officer’s desk located inside the visiting room does not have a
               monitor for viewing; thus, while cameras are recording visiting room
               activities, no correctional officers inside or outside the visiting room may
               be watching the monitors.

          •    At one institution that averages 150 visits each day, correctional officers
               rarely used the observation room with two-way glass and camera
               monitors. The officers assigned to view the monitors do not have time
               because they are required to perform other labor-intensive security duties,
               such as listening to inmates’ telephone calls, at different locations in the
               institution.

          •    At another institution that averages 100 visits each day, pillars blocked the
               view of rear areas of the visiting room from correctional officers and from
               the visiting room’s only two cameras.

       In addition to blind spots and lack of cameras and camera monitoring,
correctional officers at several institutions stated that not enough officers were

          27
           Video cameras with recording capabilities are placed on the ceilings or walls in all visiting
rooms. Monitors are placed either on the visiting room officer’s desk or in remote locations and
display live images of the visits. Some cameras have the ability to display split screens on the video
monitors, some have the ability to rotate, while others are stationary.
U.S. Department of Justice                                                                        20
Office of the Inspector General
Evaluation and Inspections Division
available to roam the visiting rooms on busy visiting days. Some institutions used
adjacent “overflow” rooms on these high-volume days, but did not always assign an
additional officer to help roam and observe visiting activities.

Conclusion

        The BOP officials we interviewed believed that visitors are the main source of
drugs entering institutions. The BOP attempts to control the introduction of drugs by
limiting visitor access and property, using available technology, providing direct
observation of visits in progress, and searching inmates before and after visits.
These procedures are important security precautions, but based on the incidences
of positive inmate drug tests and drug misconduct charges, enhancements to the
BOP’s interdiction activities for visitors are needed.

Recommendations

        1. The Director, BOP, should consider restricting contact visits for specific
inmates and replace contact visits with non-contact visits for certain inmates or
institutions based on an assessment of the individual institution’s drug smuggling
problem.

          2. The Director, BOP, should consider implementing pat searches of visitors.

       3. The Director, BOP, should invest in technology (such as cameras,
monitors, ion spectrometry, or other emerging drug detection technologies) to
provide institutions with a greater capability to screen and monitor visitors.
The BOP should also ensure that existing technologies, such as ion spectrometry,
cameras, monitors, and visitor monitoring rooms are used to their maximum
capacity. Specifically, when ion spectrometry machines break down, they should be
repaired in a timely manner. In addition, they should be used to detect drugs in
other areas of the institutions. Cameras should be positioned to eliminate any blind
spots in the visiting room. BOP should ensure that camera monitors and visitor
monitoring rooms are used to view visits in progress.

        4. The Director, BOP, should staff visiting rooms with enough correctional
officers so that sufficient direct observation and monitoring of each visit can occur.




U.S. Department of Justice                                                        21
Office of the Inspector General
Evaluation and Inspections Division
Staff
         While we believe the vast majority of BOP staff have high integrity, each year
the FBI and OIG investigate numerous cases of staff smuggling drugs into the
institutions.28 In addition, intelligence officers at the institutions we visited told us the
large amounts of drugs found in the institutions are too great to come through the
visiting rooms and inmate mail and the most likely source is BOP staff. In fact, the
BOP has stated in legal documents that “employees have substantially greater
opportunity to smuggle drugs than do the visitors,” because inmates and visitors are
searched, but staff are not.29 Yet, despite continued cases of staff smuggling drugs,
the BOP does not restrict the size or content of personal property staff bring into the
institution, does not perform routine searches of staff or their property, and does not
randomly drug test staff.30

       The BOP’s current drug interdiction activities directed at staff consist of
background investigations, annual integrity training, and selective drug testing.31
When asked why additional measures are not directed at potential staff drug
smuggling, the officials we interviewed at the BOP's Central Office stated that
additional staff drug interdiction activities would erode morale. However, at each of
the institutions visited, the majority of staff we interviewed at all levels –
management officials, correctional officers, intelligence officers, and unit
management staff – stated that additional interdiction activities are needed to reduce
the institutions’ drug problems.32


          28
            In an institution setting, the BOP staff have constant contact with inmates. Inmates, even
in high security institutions, are permitted controlled movement inside and outside of their housing
units. Inmates work at jobs throughout an institution, attend program-approved classes, receive
medical treatment, engage in recreational activities, and visit with family and friends. In every
situation, staff are present and interact with inmates with the goal of protecting the safety of inmates
and staff and the security of the institution. These interactions allow opportunities for inmates to
observe staff, learn about personal and institutional vulnerabilities, and prey upon these vulnerabilities
to corrupt staff. When inmates are successful, the staff corruption may involve the introduction of
drugs into the institution.
          29
           American Federation of Government Employees, Council 33 v. Roberts, 9 F.3d 1464 (9th
Cir. 1993); see also American Federation of Government Employees, Council 33 v. Reno, 1994 WL
22,4570 (N.D.Cal., May 16, 1994) (on remand).
          30
           The BOP prohibits objects such as firearms, destructive devices, narcotics, and alcohol, as
defined in §511.11(c). The BOP has the right to search employees when such a search is believed
necessary to ensure the security of the institution.
          31
         Background investigations are conducted prior to initial employment with the BOP and are
updated every five years. The BOP conducts drug tests for pre-employment, post-accident,
reasonable suspicion, and post-substance abuse treatment.
          32
           Unit management emphasizes decentralization and delegated authority to a
multidisciplinary unit team. A unit manager supervises the primary unit team members, including
case managers, correctional counselors, and unit secretaries. The team also includes the unit
correctional officers, an education advisor, and a psychologist. The unit manager directs the housing
U.S. Department of Justice                                                                        22
Office of the Inspector General
Evaluation and Inspections Division
Property is Unrestricted

         The BOP has no policy specifically addressing staff personal property
permitted inside institutions. Most institution staff noted the size and amount of
personal property brought into the institution by staff has increased over the years.
Correctional officers, many employed by the BOP for over a decade, stated that in
the past employees generally brought in only their lunch bags. Today, employees
bring in any item in any size container. One manager stated, “They bring in
backpacks larger than my grandson.” Unrestricted property presents a security
problem to the institution. Supervisory and management staff told us correctional
officers need only wear their uniforms when reporting for duty – anything else the
officers need to perform their duties is issued to them by the institution. At each
institution visited, we observed staff bringing in duffle bags, backpacks, briefcases,
satchels, and large and small coolers.

        Institution managers and intelligence staff expressed serious doubt about the
effectiveness of eliminating drugs from institutions when they have no control over
the property staff bring inside. Several wardens at institutions we visited said they
wanted to set guidelines for limiting employee personal property, but believed
without a national BOP policy local guidelines would be ineffective due to union
opposition. Union officials we interviewed, however, stated they do not oppose
placing restrictions on personal property that staff can bring into an institution.
(A summary of the union’s views is on page 28.)

       Restrictions on employee personal property are common in state correctional
systems. For example, in the Texas Department of Criminal Justice, Adult Prisons
Division, employees entering the state prisons are allowed only to possess items
issued by the institution to perform their duties or items that their supervisor has
permitted. The Pennsylvania State Department of Corrections provides lockers
outside the secure perimeters of institutions for correctional officers to store their
personal property. Similarly, the Connecticut Department of Corrections restricts the
amount and type of personal property staff can bring into the institutions and
provides lockers.

Searches are Rarely Conducted

       BOP institution staff told us that property restrictions alone on BOP staff
would not stop smuggling. If staff wanted to bring in drugs, they could hide the
drugs under their clothing when they come into the institutions. They stated that
property restrictions in combination with searches of staff and their property would
deter drug smuggling.




unit activities and is responsible for the unit’s operation and quality control of all correspondence and
programs.
U.S. Department of Justice                                                                        23
Office of the Inspector General
Evaluation and Inspections Division
       The BOP Program Statement 5510.09, Searching and Detaining or Arresting
Persons Other Than Inmates, allows for searches of staff for reasonable suspicion.
However, BOP intelligence officers told us these searches rarely occur. Wardens
and intelligence officers stated that unless they have irrefutable evidence an
employee possesses drugs, they fear charges of harassment or discrimination for
searching staff.33

         Many state correctional systems routinely search staff and their property. A
1992 report by the Bureau of Justice Statistics (BJS) states that staff in
approximately 50 percent of state correctional institutions were patted down when
reporting to work.34 For example, the Texas Department of Criminal Justice, Adult
Prisons Division, searches all hand-carried personal property possessed by staff
prior to their entering the institutions. The New Hampshire and North Carolina State
Departments of Correction also conduct random searches of their staff. The
Alabama Department of Corrections searches staff 2-3 times per year at each
institution and randomly searches the parking lots with canine units. In the
Pennsylvania State Department of Corrections, random pat searches and property
searches are conducted on staff upon entry to institutions. Pennsylvania also uses
the ion spectrometry scanning device as part of its staff searches. If the device
shows a positive reading for a staff member, that reading can be used as the basis
for requiring a urine drug test. The Florida and Kansas State Departments of
Correction also use ion spectrometry technology to screen staff. The Maryland
Department of Corrections uses canine drug interdiction teams to target staff as well
as inmates and visitors.

         The BJS report further shows a direct link between interdiction activities
focused on staff and reductions in drugs in prisons. The report found that institutions
that direct special interdiction efforts toward staff (such as questioning, pat searches,
and drug testing of staff) have a lower positive inmate drug test rate (1.0 percent
positive for cocaine and 0.9 percent for heroin and methamphetamines) than
institutions that made no special efforts to interdict drugs from staff (2.6 percent
positive for cocaine, 2.2 percent for heroin, 6.6 percent for methamphetamine).35

       At the BOP institutions we visited, several managers and correctional officers
previously employed with state correctional systems noted that their previous
employers searched staff and prohibited personal property in state institutions. The
FBI and OIG agents we interviewed who investigate BOP drug cases also

          33
           Management officials at the institutions also stated that, even though staff may not
intentionally bring contraband into the institutions, additional controls are needed to prevent entry of
personal items that could be used as weapons by inmates. The officials believed that sometimes
staff get complacent and “forget where they are.”
          34
         “Drug Enforcement and Treatment in Prisons, 1990,” BJS, U.S. Department of Justice,
Washington, D.C., July 1992.
          35
         “Drug Enforcement and Treatment in Prisons, 1990,” BJS, U.S. Department of Justice,
Washington, D.C., July 1992.
U.S. Department of Justice                                                                         24
Office of the Inspector General
Evaluation and Inspections Division
expressed concern that staff and their property are not searched when staff enter
institutions. The agents believed the lack of property and staff searches significantly
contributed to staff’s ability to smuggle drugs into BOP institutions.

Lack of Staff Drug Testing

       The BOP Program Statement 3735.04, Drug Free Workplace, June 30, 1997,
states that illegal drug use by staff is counter to the BOP’s law enforcement mission
and will not be tolerated. It also requires random drug testing annually on 5 percent
of the staff who are in test designated positions (TDP).36 However, the BOP does
not comply with its own policy and does not randomly test any of its staff.

        A previous attempt by the BOP to implement random drug testing met with
strong union opposition. The American Federation of Government Employees
(A.F.G.E.) brought an action in the U.S. District Court for the Northern District of
California and in the U.S. Court of Appeals, 9th Circuit, contesting this random drug
testing for BOP employees as unconstitutional. The BOP argued that staff drug use
and drug smuggling were connected because drug-using staff are: (1) blackmailed
by inmates; (2) in need of money to support their drug habit; and (3) indifferent to
drug use and dealing as criminal activities. The BOP also argued that staff drug use
causes loss of the public’s trust, which leads to the belief the BOP is corrupt or
inefficient. In 1993, the U.S. Court of Appeals ruled in favor of the BOP and held
that random drug testing and reasonable suspicion drug testing of BOP employees
were constitutional.37

        Yet, despite that court ruling, the BOP did not implement random drug testing
of staff. When we interviewed the BOP Director, other Central Office officials (Drug
Free Workplace Office; Human Resource Management Division, Labor Management
Relations; and General Counsel’s Office), and union officials, they could not provide
specific reasons why the BOP has never implemented random drug testing.

        At the institutions we visited, the large majority of more than 100 managers,
supervisors, correctional officers, unit managers, and drug treatment specialists we
interviewed supported random drug testing of staff. They also noted that the BOP’s
law enforcement mission and the detrimental effects of drugs on the safety and
security of the institution warranted random drug testing. A view expressed by many

          36
           The BOP defines test designated positions (TDP) as those positions in which an
employee’s use of illegal drugs would pose a significant threat to national security, public safety,
patient care, or fellow employees. Employees having a secret or higher security clearance also are
subject to selection for random drug testing. Wardens, associate wardens, correctional officers, unit
managers, human resource managers, and cook supervisors are examples of some positions that
should be subject to random drug testing according to the policy.
          37
           American Federation of Government Employees, Council 33 v. Roberts, 9 F.3d 1464 (9th
Cir. 1993); see also American Federation of Government Employees, Council 33 v. Reno, 1994 WL
22,4570 (N.D.Cal., May 16, 1994) (on remand).

U.S. Department of Justice                                                                     25
Office of the Inspector General
Evaluation and Inspections Division
officers is that they do not want to rely on a drug-using officer as back-up in
emergency situations.38 Emergencies usually involve a fight or assault between
inmates. In these volatile and dangerous situations, officers want assurance that
fellow officers are drug free and can respond quickly and appropriately to an
emergency.

       Random drug testing of staff is a common practice in state correctional
systems and in federal agencies. According to a survey conducted in 2000 by the
ACA, 23 of the 44 states that responded conduct random drug testing of their
corrections staff.39 The Bureau of Justice Statistics (BJS), in a May 2000 article,
reported that approximately 49 percent of jail jurisdictions drug test staff, and of
these jurisdictions, 63 percent test staff randomly.40 Additionally, other DOJ
components with law enforcement missions such as the FBI, OIG, Drug
Enforcement Administration, the U.S. Marshals Service, and the Immigration and
Naturalization Service conduct random drug testing of staff.41

Conclusion

        The BOP’s limited interdiction activities directed toward its staff are not fully
effective. Staff continue to smuggle drugs, sometimes in large quantities, into
federal institutions. The BOP does not restrict staff property and searches staff
infrequently for reasonable suspicion. Consequently, staff can exploit this lax policy
to introduce drugs and other contraband into the institution.

        The BOP developed but never implemented a drug testing program for staff
that included random drug testing of 5 percent of its staff in TDP. The BOP
successfully defended a court challenge to its random testing policy in 1993, but has
yet to implement the policy.




          38
            Emergencies can occur frequently in an institution setting. For example, at five of the nine
institutions we visited, while we interviewed staff, officers’ personal body alarms sounded somewhere
in the institutions, indicating that the officers needed assistance.
          39
               Corrections Compendium, September 2000.
          40
            “Drug Use, Testing, and Treatment in Jails,” BJS, May 2000. The article further stated, “Jail
jurisdictions were similar to other employers with regard to testing staff for illegal drug use. In
general, employers nationwide have implemented workplace drug testing programs to comply with
federal regulations or insurance requirements, to protect the organization from safety problems and
costs associated with illegal drug use on the job, or for a variety of other reasons.”
          41
           This testing is a result of the 1986 Executive Order 12564, in which the President directed
each agency in the Executive Branch to establish a program to test employees in sensitive positions
for the use of illegal drugs.
U.S. Department of Justice                                                                        26
Office of the Inspector General
Evaluation and Inspections Division
Recommendations

      5. The Director, BOP, should implement a policy that restricts the size and
content of property staff bring into BOP institutions.

      6. The Director, BOP, should implement a policy requiring searches of staff
and their property when entering institutions. In addition to manual searches, the
BOP should consider using ion spectrometry and all other available technology
when searching staff.

          7. The Director, BOP, should implement random drug testing for staff.




U.S. Department of Justice                                                        27
Office of the Inspector General
Evaluation and Inspections Division
                                            Union Views

We interviewed two union representatives, a national regional vice-president and a local BOP
institution president representing the national union, Council of Prison Locals 33, American
Federation of Government Employees, American Federation of Labor-Congress of Industrial
Organizations (A.F.G.E., AFL-CIO), about the BOP’s drug interdiction activities. The representatives
believed contact visits are the number one source of drug introduction. They also believed packages
coming through the rear gate (via delivery from the warehouse) present vulnerabilities for the
institutions. Due to the high volume of packages, the one officer assigned to the rear gate can only
randomly search packages for contraband. The union representatives also stated that at some
institutions, staff are permitted to pick up small packages from the warehouse and walk them into the
institution without being searched.

According to the union representatives, the BOP’s background investigations of staff and annual
integrity training are insufficient drug interdiction activities. They stated that more aggressive
prosecution of staff involved in drug activities represents the best deterrent. According to the
representatives, compromised staff are sometimes permitted to resign in lieu of administrative
sanctions and prosecution. As a result, the misconduct is undocumented and the number of drug
cases involving staff are underreported.

Regarding additional drug interdiction activities needed, the representatives suggested that BOP
canine units should be posted at the front entrance and rear gate of every institution. At the front
gate, they can search staff as well as visitors, and at the rear gate they can search all packages for
drugs. The representatives stated drug dogs are a strong deterrent but they must be present on a
daily basis. When drug dogs from outside law enforcement are used, inmates often become aware of
these plans in advance and the searches are ineffective. The representatives also support drug
testing for staff and are unsure why the BOP Drug Free Workplace policy was never implemented
[after the 1993 court ruling].

The union representatives also stated they are not opposed to placing limited restrictions on staff
personal property entering institutions, recognizing that staff still need to bring their lunches.
However, the representatives are opposed to random searches of staff or their property because they
are concerned about potential disparate treatment of staff during searches, how staff would be
selected for searching, and the impact on staff morale. The representatives would prefer to see
additional interdiction activities directed toward inmates and visitors before searching staff and their
property. The union representatives did not oppose the use of advanced technology, such as trace
drug detection and imaging technology (walk-through and hands-free) that would be applied equally,
not randomly, to all persons entering institutions.

The union representatives recognized that inmates compromise some BOP staff, resulting in the
introduction of contraband into the institutions. They stated that staff do not wake up one day and
say, “I’m going to bring drugs in today.” Some staff get inappropriately involved with an inmate such
as granting an inmate a favor or bringing in soft contraband, then they are “hooked.” The inmate
threatens to report the staff member for the less serious misconduct unless the staff member does
what the inmate wants.

The representatives do not believe the BOP views drugs as a top priority. Additional points made by
the representatives were: (1) the SIS lieutenant position should be permanent, with an independent
reporting structure outside of the institution; (2) more frequent shakedowns of institutions are needed,
and (3) more specialized training for staff to update drug interdiction skills is needed.




U.S. Department of Justice                                                                       28
Office of the Inspector General
Evaluation and Inspections Division
Inmate Mail
         Officials from the BOP’s Central Office and institution staff told us that
inmates and their outside contacts also use the mail to smuggle drugs into the
institutions. Most staff interviewed during our visits reported concern about inmate
abuse of mail. However, they reported that inspecting thousands of mail items each
day per institution for illegal drugs typically results in only a few drug finds BOP-wide
each year. The BOP’s automated evidence records contain only 24 drug finds
attributed to inmate mail from FY 2000 through FY 2001. Given the continued
smuggling of illegal drugs in the BOP’s institutions, institution staff stated BOP could
reduce the mail’s vulnerability to drug smuggling by (1) limiting the receipt of certain
publications, (2) training staff on drug detection, and (3) screening mail with drug
detection technology.

Volume of Incoming Inmate Mail Challenges Interdiction Activities

        At the institutions we visited, Inmate Systems Management Officers (ISOs),
who are responsible for the mailroom function, stated that they do not detect all
attempts to smuggle drugs through the mail. The daily volume of mail, especially the
increasing volume of unsolicited catalogues and other publications, is too great for
thorough manual inspection. The ISOs often do not have drug detection technology
to aid their inspections of the mail.42 BOP mailrooms process up to 3,000 pieces of
mail each weekday, depending on the size and security level of the institution and
the day of the week.43 Because the institution’s mail is not delivered on weekends,
the volume of all mail received on a Monday could represent an increase in volume
of up to double the volume received on a typical Tuesday through Friday. The
volume of mail doubles during holiday periods.




          42
           ISOs inspect inmate mail for contraband (i.e., drugs, weapons, and other prohibited items)
and deliver inmate mail to the housing units for distribution to inmates by unit management staff. In
addition to the mail function, other officers assigned to an institution’s Inmate Systems Management
department also are responsible for receiving and discharge (R&D) of inmates. The ISOs generally
rotate between assignments in an institution’s mailroom or R&D functions for a fixed time period. The
duties of the R&D area include processing inmate admissions and releases, including identification
(photography and fingerprints) and data entry, and processing incoming and outgoing inmate property
with attention to the interdiction of contraband. See Appendix VIII for information about mail policies
and procedures.
          43
           The volume of mail increases as BOP’s inmate population increases. The annual
estimated population increase is 7,000 to 11,000 inmates as reported by Kathleen Hawk Sawyer,
Director, BOP, before the Subcommittee on the Departments of Commerce, Justice, and State, the
Judiciary, and Related Agencies, Committee on Appropriations, United States House of
Representatives, April 18, 2002.
U.S. Department of Justice                                                                     29
Office of the Inspector General
Evaluation and Inspections Division
          More Controls are Needed Over Incoming Publications

       Inmates have used incoming publications sent from families and friends as a
means for smuggling drugs into institutions. In 1999, to minimize opportunities for
smuggling, the BOP implemented a policy that allowed inmates to receive hardcover
books and newspapers only from a publisher, book club, or bookstore.44 However,
softcover books and magazines still can be sent by families and friends and still are
used to smuggle drugs. The BOP recognizes this security vulnerability and is
seeking approval from the Office of Management and Budget for a new policy to
prohibit inmates’ receipt of softcover publications from inmates’ families and
friends.45

         The implementation of restrictions on both hard and softcover publications will
reduce but not eliminate inmates’ use of the mail to smuggle drugs into BOP
institutions. The ISOs told us that inmates continue to receive mail disguised by
inmates’ outside contacts to appear as if it were sent directly from approved sources.
For example, Figure 2 below and on the next page shows newspapers containing
drugs that were sent to inmates at a high security institution.

               Figure 2. Newspapers with Marijuana Disguised as Publisher-Sent




                Source: BOP

      The inmates’ outside contacts affixed counterfeit mailing labels to the newspapers to
make them appear as having been sent directly by authentic publishers.




          44
         Reflected in BOP Program Statement 5266.09, Incoming Publications, dated July 29, 1999,
and 28 CFR 540.71.
          45
          The policy was not approved for implementation by the Office of Management and Budget
as of October 2002.
U.S. Department of Justice                                                               30
Office of the Inspector General
Evaluation and Inspections Division
Source: BOP

             Packets of marijuana hidden between glued together newspaper pages.


       In another scheme, an inmate at an institution we visited arranged for an
incoming hardcover publication to be disguised as official institution mail sent directly
from an approved supplier to the institution’s Facilities Department. The inmate’s
outside contact created fictitious supplier mailing labels (the address details were
provided by the inmate who worked in the Facilities Department) based on previous
legitimate mail items sent by the supplier and regularly received by the department.
Figure 3 below and on the next page shows the hardcover book that was hollowed
out and filled with drugs.

                Figure 3. Hardcover Textbook with One-Half Pound of Marijuana




Source: BOP




U.S. Department of Justice                                                         31
Office of the Inspector General
Evaluation and Inspections Division
Source: BOP



       The ISOs at the institution where this drug introduction occurred did not
detect the presence of the drugs when the book was initially received and
x-ray scanned.46 Institution staff within the Facilities Department inspected the
textbook and discovered the drugs.

         Unsolicited Mail Adds to Security Problems. At the institutions we visited,
ISOs stated that policies are needed to limit the growing volume of unsolicited mail,
such as catalogs, brochures, and fliers, received by inmates. This type of mail can
comprise 10 percent or more of all daily mail received by an institution. The
continued need for ISOs to process and inspect large quantities of unsolicited mail,
in addition to thousands of other general and legal mail items received daily,
challenges an institution’s ability to interdict drugs. The ISOs told us drugs enter
institutions through the mail because inmates are sophisticated in hiding drugs, and
staff hand searching each page of every publication is not feasible given the volume
of mail. Some state correctional systems, such as Connecticut, Illinois, and
Oklahoma, prohibit inmates from receiving unsolicited advertisements or
publications.

Special Handling Requirements for Legal Mail Complicate Drug Interdiction
Activities

       Legal mail, consisting of congressional, judicial, and attorney mail, requires
special handling.47 BOP Program Statement 5265.11, Correspondence, limits the
authority institutions have to inspect incoming inmate legal mail:

          46
           ISOs reported that official institution mail addressed to a specific staff member or
department is often not opened or subjected to thorough inspection after routine x-ray scanning and
staff addressee verification.
          47
            Legal mail is separated from all other general inmate mail items, and is afforded first
priority in processing and delivery in recognition of time deadlines associated with court or other legal
proceedings. The volume of legal mail received by individual institutions varies by the day of the
week and by the size of the institution. Based on estimates obtained during our site visits, large
institutions, such as USPs, may receive, process, and deliver up to 60 pieces of legal mail on high-
U.S. Department of Justice                                                                        32
Office of the Inspector General
Evaluation and Inspections Division
                    The Warden shall open special [legal] mail only in the
                    presence of the inmate for inspection for physical
                    contraband and the qualification of any enclosures as
                    special mail. The correspondence may not be read or
                    copied if the sender is adequately identified on the
                    envelope, and the front of the envelope is marked “Special
                    Mail – Open only in the presence of the inmate.”

       As a result of these requirements, the authorized limited inspection of inbound
legal mail for contraband does not occur until the item is opened by staff in the
presence of the inmate.48 Typically the ISOs transport the legal mail to the individual
housing units where the unit management staff open and inspect the legal mail in
the presence of the appropriate inmates, and give the mail to the inmates after they
sign for its receipt. At some institutions, inmates receive legal mail at a designated
time in the mailroom where ISOs or intelligence officers open, inspect, and turn over
the legal mail to the inmates.

         The ISOs at the institutions we visited and one Inmate Systems Management
official at the BOP’s Central Office described inmate legal mail as the weakest link in
the ISOs’ ability to detect drug contraband. The ISOs expressed concern about the
consistency, quality, and thoroughness of inspections performed on legal mail at
BOP institutions, in particular once the legal mail is forwarded to the inmate housing
units where inspection for contraband and delivery to inmates takes place. These
inspections may consist of only a brief hand and visual review for obvious
contraband. Often the legal documents are thick and bound together in a way that
makes inspection difficult. These ISOs also stated that some newer and less
experienced unit management staff may perform a less rigorous inspection. They
further stated that the unit managements’ competing tasks and the distractions that
occur on a daily basis within a housing unit may interfere with the thorough
inspection of legal mail. These concerns are heightened because of the BOP’s
inmate population growth and corresponding complement of newer staff.

         The ISOs also stated that verifying the authenticity of incoming legal mail is
difficult. Regular mail has been disguised as legal mail with fictitious legal names
and addresses, which may go undetected because the ISOs do not know the
legitimate legal representatives for individual inmates. Figure 4 on the next page
shows an attempt to smuggle heroin into a USP using a document disguised as
legal mail that was detected during inspection by mailroom staff.

volume Mondays and only 10 pieces of legal mail a day for the remainder of the week. Smaller
institutions may handle approximately 5 to 10 pieces of legal mail per day, as compared to 15 pieces
on a Monday. The BOP Program Statement 5800.10, Mail Management Manual, requires that
institutions apply every reasonable effort to ensure delivery of legal mail within 24 hours of receipt.
The BOP’s mail procedures typically result in the same day delivery of legal mail.
          48
          Drug contraband finds in legal mail do occur outside the presence of the inmates. The
ISOs may discover contraband when legal mail is first received, x-rayed, and reviewed for proper
legal markings on the envelopes.
U.S. Department of Justice                                                                       33
Office of the Inspector General
Evaluation and Inspections Division
                          Figure 4. Heroin Hidden Within the Binding of
                              a Document Disguised as Legal Mail




Source: BOP



Figure 5 on the next page shows an attempt by an outside gang member (also a
former inmate) to introduce 11 grams of methamphetamine into a high security
institution using a document disguised as legal mail and sent to an inmate. He
concealed the drugs in a hollowed portion of the glued-together binding of the
document. The BOP detected and prevented delivery through intelligence gathered
from monitoring the inmate’s telephone calls.




U.S. Department of Justice                                                34
Office of the Inspector General
Evaluation and Inspections Division
               Figure 5. Methamphetamines Hidden Within Glued Binding of
                            Document Disguised as Legal Mail




Source: BOP



       The ISOs also expressed concern about outgoing legal mail, which can be
used to facilitate the introduction of drugs. For example, in a criminal case
investigated by the OIG, the U.S. Postal Inspection Service, and the BOP, a
cooperating defendant provided investigators with inmate correspondence disguised
as outgoing legal mail, which detailed a drug introduction scheme and had been
successfully mailed by an inmate from a high security level institution. The
fraudulent legal mail was addressed to an actual attorney, but the postal address
was not the attorney’s address. Instead, the postal address was that of the inmate’s
outside contact. The inmate’s correspondence contained five handwritten pages of
instructions on how to use legal mail to hide 16 grams of heroin in balloons in the
binding of a legal document.

       BOP staff authority for outgoing legal mail is even more restricted than for
incoming legal mail, because outgoing legal mail may be sealed by the inmate and is
not subject to inspection.49 The ISOs are required to stamp outgoing legal mail with
the statement:

                    The enclosed letter was processed for forwarding to you.
                    The letter has neither been opened nor inspected. If the
                    writer raises a question or problem over which this facility
                    has jurisdiction, you may wish to return the material for
                    further information or clarification. If the writer encloses
                    correspondence for forwarding to another addressee,
                    please return the enclosure to the above address.
          49
          The only exception to the policy of not subjecting outgoing legal mail to inspection is for
inmates placed on restricted mail status by the warden, which requires the concurrence of Regional
Counsel, after a determination that an inmate has previously abused legal mail privileges. In such
cases, the outgoing mail is inspected for contraband in the presence of the inmate, similar to
procedures used with incoming legal mail.
U.S. Department of Justice                                                                      35
Office of the Inspector General
Evaluation and Inspections Division
       Staff stated that their limited authority over outgoing (and incoming)
legal mail impedes their ability to detect and deter criminal activity. Inmates
are aware of this limited authority and therefore use legal mail as a means of
introducing drugs and other contraband into BOP institutions.

Staff Training on Drug Detection is Limited

       The ISOs and unit management staff stated they need, as do all staff,
standardized and more rigorous drug interdiction training to better inspect inmate
mail for drug contraband. Staff said they need more familiarity with different types
and forms of drugs, and the methods used by inmates to bring drugs into institutions.
In many cases, staff reported their first exposure to recognizing and detecting certain
categories of drugs, such as black-tar heroin, came only after a successful detection
by another officer. At one high security institution we visited, an intelligence officer
created a picture storyboard using actual drug finds within the institution to help
educate other staff. The storyboards are used in local new officer training and
annual refresher training for all institution staff.

Technology in Use is not Suited for Detecting Drugs

         We found that drugs may go undetected through all stages of mail inspection
because of inadequate technology or human error. At each institution visited, ISOs
stated new technology is needed that will more readily identify drugs concealed in
the mail. The BOP Program Statement 5800.10, Mail Management Manual,
encourages its institutions to supplement mail inspection activities with modern
technology. The BOP Office of Security Technology (OST), which is responsible for
identifying new security technologies and evaluating their potential use in the BOP’s
institutions, describes the use of x-ray devices as “our first defense in the mail drug
interdiction effort.” In practice, while x-raying mail may produce suspicious images
leading to closer staff scrutiny and subsequent drug finds, x-ray scan devices are
primarily designed to help the ISOs better detect metal weapons and explosive
devices. Even at those sites we visited with more recent generations or upgrades of
the x-ray scan technology, many experienced ISOs cautioned against high
expectations for this technology for detecting drugs. They said few drug contraband
finds actually occur during the x-ray inspection. If drugs are detected, it usually
occurs during the subsequent labor-intensive manual inspections performed by
ISOs.

      The OST evaluated the following drug detection technologies and stated they
possessed promise for mailroom application:

•    Chemical Trace Detection Wipe and Spray Drug Detection Field Kits.
     Procedures require wiping a target surface (e.g., inmate mail items) with a test
     paper and then spraying the test paper with a chemical spray. A chemical
     reaction occurs changing the color of the test paper when drugs are present.
     The wipe and spray test, however, requires a separate test paper and use of a

U.S. Department of Justice                                                        36
Office of the Inspector General
Evaluation and Inspections Division
     separate spray for each drug test type (i.e., marijuana, cocaine, heroin, and
     methamphetamine). The OST reports one test kit (80-100 individual tests) would
     allow testing for the four basic drug types, at a cost of $500, or $5-$6.25 per test.
     Another form of this technology from a competing vendor is reported to cost $8-
     $10 per test. While identified as a low-cost technology in limited or targeted
     applications (e.g., mail for inmates identified by staff as suspect), the OST
     determined its use on all mail would be expensive and cause significant delays in
     mail processing.

•    Ion Spectrometry Technology. The OST reports ion spectrometry technology is
     well suited for mail that already has been identified as suspicious through other
     search techniques. While the OST reports many BOP institutions have used
     existing ion spectrometry machines (purchased originally to scan visitors) to test
     selected suspicious mail items, the institutions we visited that had ion
     spectrometry machines did not use the machines on any mail. Purchase costs
     for an ion spectrometry machine for mailroom applications range from $20,000 to
     $70,000 per unit.

         According to the OST, the BOP does not have immediate plans to implement
or test mailroom drug detection technologies. The BOP has not deployed additional
technologies to its institutions because of concerns over cost and reliability. During
our interviews, the absence of centralized funding for these technologies was cited
as the main deterrent to pilot testing or BOP-wide implementation. Officials at the
institutions we visited stated that local funding of drug-screening technology is not
always possible because of budget constraints and competing priorities.

Conclusion

       BOP staff consider the institution’s mail system to be a significant point of
entry for drugs. The daily volume of inmate mail, special handling procedures for
legal mail, limited staff training, and inadequate technology present specific
challenges for effective detection of drugs in the mail. The BOP manually inspects
inmate mail to detect drugs, but ISOs believe these inspections cannot detect all
drugs.

Recommendations

          8. The Director, BOP, should implement a policy that eliminates unsolicited
mail.
      9. The Director, BOP, should require additional training for BOP staff to
search mail and detect drugs.

          10. The Director, BOP, should test mailroom drug detection technologies.




U.S. Department of Justice                                                          37
Office of the Inspector General
Evaluation and Inspections Division
REDUCING THE INMATES’ DEMAND FOR DRUGS THROUGH
DRUG ABUSE TREATMENT

          Demand reduction for drugs through drug abuse treatment for
          inmates is the second component of the BOP’s drug interdiction
          strategy. However, an insufficient number of BOP inmates
          receive drug abuse treatment because the BOP underestimates
          the number of inmates that need treatment and inadequately
          tracks inmates referred for treatment.          Furthermore, non-
          residential treatment is not always available at the institutions
          due to insufficient staffing and lack of policy guidance. Also we
          found a lack of incentives for inmates to seek non-residential
          treatment.

        Drug abuse treatment programs for inmates are a significant part of the
BOP’s strategy to reduce drugs from its institutions.50 However, the BOP does not
treat all inmates who have drug problems because not all inmates’ diagnoses and
drug treatment recommendations are recorded in SENTRY. The inmates’ treatment
needs are therefore inadequately tracked throughout their incarceration. As a result,
the BOP is not allocating sufficient resources to meet the recommended treatment
needs of all inmates. Moreover, the BOP only treats a portion of the inmates it
estimates need treatment. The BOP focuses on drug abuse education (classroom
instruction) and the residential (in-patient) drug abuse program (RDAP).51 The BOP
does not ensure inmates have access to BOP non-residential (out-patient) treatment
after completion of drug abuse education classes or before admittance to the
RDAP.52 Even if an inmate meets the eligibility criteria for the RDAP, the waiting
time for placement can be years.




          50
               Appendix I contains a description of the BOP’s drug treatment programs.
          51
          The Drug Abuse Education course is a 30-40 hour course required for inmates who meet
certain sentencing criteria. The BOP does not consider the education course as treatment but rather
motivation to seek treatment. The RDAP is a 9-month, 500-hour residential program in which
inmates are housed in a separate unit of the institution or satellite camp reserved exclusively for this
program. For a more complete description of all components of the drug treatment program, see
Appendix I.
          52
          Non-residential drug treatment requires a minimum of one hour of individual or group
contact each month.
U.S. Department of Justice                                                                       38
Office of the Inspector General
Evaluation and Inspections Division
The BOP Underestimates the Drug Abuse Treatment Needs of Inmates

      In its FY 2001 Report to Congress on Substance Abuse Treatment Programs,
the BOP states that 34 percent of its inmates have a substance abuse disorder.53
This 34 percent figure is low compared to other federal, state, and local corrections
data. For example:

          •     In August 2001, the Centers for Disease Control and Prevention and the
                Substance Abuse and Mental Health Services Administration reported that
                about 80 percent of inmates in correctional facilities have substance
                abuse problems; 83 percent of state and 73 percent of federal inmates
                said that they used drugs in the past, and about 50 percent of both state
                and federal inmates said that they used drugs in the month before their
                arrest.54

          •     In May 2000, the BJS reported that over half of jail (55 percent) and state
                inmates (57 percent) said that they used drugs in the month before their
                arrest. Two-thirds of convicted jail inmates (67 percent) said that they
                used drugs regularly before reporting to jail (i.e., at least once a week for
                at least one month).55

          •     In January 1999, the BJS reported that 58.1 percent of all male federal
                inmates used drugs regularly at the time of their offense. State
                corrections officials estimated that between 70 to 85 percent of state
                inmates need drug abuse treatment.56

          •     Drug Abuse Treatment Specialists (DATS) and unit managers at the
                institutions we visited estimated that between 50 to 80 percent of their
                inmate population had a substance abuse problem. Everyone interviewed
                thought that the BOP’s figure of 34 percent did not represent all inmates in
                need of drug abuse treatment.




          53
           “Substance Abuse Treatment Programs in the Federal Bureau of Prisons Fiscal Year 2001
Report to Congress,” BOP, January 2002. A substance abuse disorder refers to those persons with
drug or alcohol abuse or dependency. The BOP’s drug abuse treatment programs provide treatment
to inmates with a substance abuse (drug or alcohol) or dependency problem.
          54
         “Substance Abuse Treatment for Drug Users in the Criminal Justice System,” Centers for
Disease Control and Prevention and Substance Abuse and Mental Health Services Administration
Fact Sheet, August 2001.
          55
          “Drug Use, Testing, and Treatment in Jails,” BJS, U.S. Department of Justice, Washington,
D.C., May 2000.
          56
               “Substance Abuse and Treatment, State and Federal Prisoners, 1997,” BJS, January 1999.
U.S. Department of Justice                                                                    39
Office of the Inspector General
Evaluation and Inspections Division
        To arrive at the 34 percent figure, the BOP administered a Substance Abuse
Needs Assessment in the summer of 1991 during a 3-month period. Every inmate
entering the BOP completed an Inventory of Substance Abuse Patterns. From these
inventory responses, the BOP determined that 30.5 percent of the inmates met the
criteria for drug dependence as defined by the DSM-IIIR.57 In 1997, this figure was
updated using the “Survey of Inmates in Federal Correctional Facilities,” conducted
by the U.S. Bureau of Census, the BJS, and the BOP. Using the DSM-IV criteria
published in 1994, the BOP extrapolated drug symptomology data from this survey
for drug dependence (most serious drug use) and abuse (recurrent use but less than
dependence) and the percentage of inmates it estimated had substance abuse
disorders increased to 34 percent.58

      The BOP is relying on outdated, estimated data to determine the number of
inmates with drug abuse treatment needs. We believe the BOP should rely instead
on diagnoses made at BOP institutions by psychologists and DATS.59

Tracking Inmates with Drug Abuse Treatment Needs is Insufficient

       The BOP’s Central Office (Psychology Services Branch) could not provide us
with BOP-wide data (generated from the automated SENTRY database) describing
the treatment needs of inmates, referrals for treatment, and actual treatment of
inmates. Consequently, without capturing this information in SENTRY, the BOP
cannot identify, track, or monitor inmates with diagnosed drug problems to
encourage treatment. Nor can the BOP allocate sufficient staff resources to provide
the treatment programs. Without the BOP-wide data, the BOP is unable to
determine the actual number of inmates in need of drug treatment.

        In each institution, a psychologist conducts a psychological assessment
within four weeks of an inmate’s admission to the BOP. A drug abuse screen is part
of that assessment.60 If drug treatment is indicated, the psychologist sends a paper
copy of the recommendation to the inmate’s unit manager, but that recommendation
is not always recorded in SENTRY. An institution only documents an inmate’s drug
treatment needs in SENTRY when:


          57
            The DSM-IIIR refers to the third edition of the Diagnostic and Statistical Manual for Mental
Disorders, compiled and published in 1987 (since updated) by the American Psychiatric Association.
It is used by psychiatrists for diagnoses and is widely used by other treatment professionals.
          58
               The DSM-IV refers to the fourth edition of the DSM, updated and published in 1994.
          59
           Each institution has one DATS to provide drug abuse education classes and non-
residential drug treatment. The DATS reports to the Drug Abuse Treatment Coordinator, who is a
licensed psychologist. The Coordinator does not provide any direct drug treatment to the inmates.
Both positions are under the institution’s Psychology Services department.
          60
         The drug abuse screen consists of a set of questions designed to identify if the inmate has
used drugs, if that use is indicative of the need for drug treatment, and what level of treatment is
needed.
U.S. Department of Justice                                                                          40
Office of the Inspector General
Evaluation and Inspections Division
          •    Unit management staff determine that the inmate meets the requirement
               for mandatory drug abuse education;

          •    The institution’s psychologist refers the inmate for the RDAP and the
               inmate volunteers to participate, meets the program’s other eligibility
               criteria, and is placed on the waiting list; and

          •    An inmate referred for non-residential treatment, volunteers for and
               actually begins treatment.

An institution excludes from SENTRY:

          •    All referrals for the RDAP for which inmates do not volunteer for treatment,
               and

          •    All referrals for non-residential treatment – even when the inmates
               volunteer for treatment and are on the waiting list.

By not including every diagnosed and recommended drug treatment need in
SENTRY, the BOP does not know the accurate number of inmates with drug
problems and treatment referrals.

Non-Residential Drug Abuse Treatment is Not Always Available

         Even though many inmates would benefit from non-residential drug treatment,
it is not always available at BOP institutions because of insufficient drug treatment
staff, lack of policy guidance, and lack of incentives for inmates to seek drug
treatment. Non-residential treatment is out-patient treatment and includes individual
and group therapy for inmates in the general population. At the institutions we
visited, the BOP emphasized drug abuse education and the RDAP, but placed
minimal emphasis on non-residential drug treatment. As a result, only a limited
number of general population inmates receive non-residential treatment.

       According to the drug treatment staff at the institutions we visited, drug abuse
education classes usually were offered continuously and the RDAP was encouraged
for those inmates who met the criteria. However, drug abuse education is not
treatment but rather a series of classes designed to provide information about the
detrimental consequences of drug use through literature and videos. Further, the
RDAP is not offered at all institutions (none of the institutions we visited offered the
RDAP), and where it is offered, inmates are not eligible for participation until the last
36 months of their sentence.61 The average BOP inmate sentence length is ten
years. Consequently, an inmate could wait seven years or more before receiving

          61
           The RDAP was available at three of the satellite camps we visited. However, the inmates
inside the main institutions do not have access to the satellite camps or the programs within the
camps. In FY 2001 the BOP had established 52 RDAP units in 50 institutions.

U.S. Department of Justice                                                                  41
Office of the Inspector General
Evaluation and Inspections Division
residential drug treatment. In the interim, inmates are dependent on non-residential
drug treatment to meet their immediate treatment needs because it is the only drug
treatment available in the institution for the general inmate population before
admittance to the RDAP. Yet, non-residential drug treatment programs were not
offered at all institutions we visited. Even at most institutions where it was offered, it
was offered irregularly.62

       The BOP’s internal program reviews have reported ongoing deficiencies in
providing non-residential drug treatment.63 Selected Program Summary Reports
containing cumulative findings from individual program reviews conducted from
FY 1998 through FY 2001 state the following deficiencies:

          •    FY 2001: “Non-residential treatment continues to lack a strong presence
               in several institutions. Greater participation and opportunity for access
               should exist.”

          •    FY 2000: “In most instances few inmates seek out programming and non-
               residential programs are underutilized as a result.”

          •    FY 1999: Psychology Services “must remain cognizant of the appropriate
               use of drug program funds and drug staff work assignments. It is
               important to maintain the integrity of money allotted to drug programming.
               Staff assigned to drug programs cannot perform their responsibilities to
               the fullest if they are utilized for activities unrelated to drug programming.”

          •    FY 1998: “Inadequate inmate participation in the non-residential drug
               treatment program…remains an area of weakness. Concerted effort at
               enlisting inmate participation should alleviate this weakness.” Additionally,
               one quarterly summary report showed that non-residential drug abuse
               programs had the highest number of deficiencies in that quarter.
               Specifically, “Individualized treatment plans for inmates participating in
               non-residential drug abuse programs were absent or inadequate. Another
               area of concern was the failure to conduct monthly group or individual
               sessions for non-residential drug abuse programs.”

        Associate wardens and unit managers at several institutions we visited
acknowledged there were insufficient drug treatment programs for inmates at their
institutions. Drug treatment staff at five of the institutions visited stated their program
emphasized residential treatment and not non-residential treatment. The drug

          62
          The exceptions were the USP Lewisburg (and its camp) and the FCI Miami where the
DATS recognized the inmates’ drug treatment needs and developed several ongoing non-residential
drug treatment programs.

          63
          The Central Office’s Program Review Division conducts reviews for all BOP programs.
These reviews examine compliance with laws, regulations, and policy, and analyze program
performance trends and other data.
U.S. Department of Justice                                                                 42
Office of the Inspector General
Evaluation and Inspections Division
treatment staff stated while drug treatment may be a priority at minimum and low
security level institutions, security, not treatment, is the priority at the medium and
higher security level institutions.

       Of particular note are the low drug treatment rates at institutions with high
drug use rates and drug misconduct charges, such as three of the four USPs and
one of the two FCIs we visited. For example:

          •    At the USP Beaumont, Texas, the last non-residential group had only five
               inmates participating due to limited interest. According to the institution,
               only seven inmates completed non-residential drug treatment in two years
               from FY 2000 through FY 2001. For FY 2001, USP Beaumont had a
               positive drug test rate of 7.84 percent and a drug misconduct rate of 23.25
               percent, both of which are the highest rates in the BOP.

          •    At the USP Lompoc, California, the DATS did not offer non-residential
               treatment programs, but only taught drug abuse education classes on a
               full-time basis. Prior to our visit, only 13 inmates had completed non-
               residential treatment during FY 2000 and FY 2001. For FY 2001, USP
               Lompoc had a positive drug test rate of 6.09 percent and a drug
               misconduct rate of 15.77 percent.

          •    At the USP Leavenworth, Kansas, a total of 32 inmates completed three
               non-residential group drug treatment programs in FY 2000 and FY 2001.
               At the time of our visit, the institution was not conducting any non-
               residential drug treatment for inmates. For FY 2001, USP Leavenworth
               had a positive drug test rate of 2.65 percent and a drug misconduct rate of
               12.69 percent.

          •    At FCI Memphis, Tennessee, and its satellite camp, the one DATS
               consistently taught drug abuse education classes. The DATS offered only
               one non-residential drug treatment program to inmates who completed the
               RDAP and were required to have transitional counseling prior to release.
               For FY 2001, FCI Memphis had a positive drug test rate of 2.89 percent
               and a drug misconduct rate of 8.79 percent.

         According to the BOP’s Program Statement 5330.10, Drug Abuse Programs
Manual, self-help programs such as Narcotics Anonymous or Alcoholics Anonymous
are often associated with non-residential treatment and may be offered as part of an
institution’s non-residential drug treatment program. Although not considered
treatment, the BOP recognizes that these self-help groups can be an important
intervention in an inmate’s recovery. However, even these self-help groups did not
exist in all the institutions we visited. Some institutions had not requested
assistance from Narcotics Anonymous or other volunteers in the community. Other



U.S. Department of Justice                                                           43
Office of the Inspector General
Evaluation and Inspections Division
institutions stated the criminal backgrounds of some Narcotics Anonymous
volunteers, who are often former drug addicts, preclude their presence in the
institutions.

        The cumulative effect of limited non-residential treatment, few self-help
groups, and the restrictive timeframe (36 months prior to release) for RDAP eligibility
is that not enough inmates receive drug abuse treatment. According to the BOP, in
FY 2001 26,268 inmates received drug abuse treatment either through residential
treatment (15,441) or non-residential treatment (10,827).64 The BOP’s outdated and
low estimate is that 34 percent of its population needs drug abuse treatment.
Therefore using BOP’s estimate of 34 percent, in FY 2001, based on an average
daily inmate population of 133,642, approximately 45,438 inmates needed
treatment. As we discussed above, the actual number who need treatment is likely
much higher. Yet, only 26,268 inmates, or 57.8 percent of those inmates with
estimated treatment needs, received residential or non-residential drug treatment.
The other 19,170 inmates (42.2 percent) did not receive any treatment. This low
treatment rate is a significant deficiency in the BOP’s demand reduction strategy.

          Limited Drug Treatment Staffing Restricts Comprehensive Drug
          Treatment Programs

         The BOP’s staffing guidelines suggest each institution needs one DATS per
1-500 inmates, which would equate to two to four DATS for each institution we
visited. The FY 2001 average daily population for the institutions we visited ranged
from 1,322 to 2,012 inmates.65 However, at these institutions, only one DATS per
institution was employed to provide drug treatment programs to inmates. The DATS
stated they were overwhelmed at times with their duties and the number of inmates
who need help. They believed providing drug abuse education several times per
week to many groups of inmates at different sites, with all the related paperwork,
was a full-time endeavor. The DATS further believed developing and leading non-
residential group or individual counseling, especially if inmate participation increased
through incentives, was not feasible without additional drug treatment staff.

        The qualifications of a DATS may also affect the availability of non-residential
drug treatment because the DATS may not be clinically trained to facilitate a group
or individual counseling session. At one USP with a high drug use rate, the DATS
had no counseling background or related qualifications and training skills needed to

          64
          “Substance Abuse Treatment Programs in the Federal Bureau of Prisons Fiscal Year 2001
Report to Congress,” Federal Bureau of Prisons, January 2002. It is unknown how many of these
inmates successfully completed the program versus those who participated without completion. It is
also unknown how many of the 10,827 inmates who participated in non-residential treatment were
RDAP graduates in transitional services as an RDAP requirement versus inmates from general
population who participated in a separate non-residential drug treatment program. A portion of these
inmates may be RDAP graduates and therefore may have been double-counted.
          65
         The average daily population includes satellite camps, which have a population of about
300 inmates, and for which the DATS are also responsible for providing drug treatment.
U.S. Department of Justice                                                                   44
Office of the Inspector General
Evaluation and Inspections Division
provide individual or group treatment.66 With only one DATS per institution (and also
serving a satellite camp), having someone with the appropriate counseling
qualifications is imperative for providing drug treatment to inmates, not just drug
abuse education.67

          Policy Lacks Clarity for Non-Residential Drug Abuse Treatment

        The BOP’s Program Statement 5330.10, Drug Abuse Programs Manual,
states non-residential treatment services shall include a minimum of one hour of
individual or group contacts each month as indicated by a treatment plan. It also
states that transitional services, a component of non-residential drug treatment, are
required one hour per month for RDAP graduates. At some of the institutions
visited, the treatment staff believed that the mandatory transitional services offered
to RDAP graduates fulfill the institution’s requirement to provide the monthly one
hour of non-residential drug treatment. However, transitional services focus on
relapse prevention and aftercare, which may not be appropriate for inmates who
have never had any prior drug treatment. The program statement does not provide
clear direction that, besides transitional services, other non-residential drug
treatment must be provided for inmates who have not completed the RDAP.

        The program statement also does not provide a curriculum or outline for non-
residential drug treatment groups, and does not suggest a minimum duration for
effective treatment. Yet, for drug abuse education and the RDAP, specific
standardized written curricula and timeframes are provided. Without clear policy
direction for non-residential treatment, DATS have focused their efforts on drug
abuse education and the RDAP. This limited focus leaves many inmates without
drug treatment during most of their incarceration.

      Policy Lacks Incentives for Participation in Non-Residential Drug Abuse
Treatment

         Drug abuse education classes and the RDAP reward inmates for completing
the program and impose sanctions for non-completion. Non-residential drug
treatment does not reward or sanction the inmates. For example, drug abuse
education, a 30-40 hour course, is mandatory within the first 12 months for all
inmates who meet the criteria (see Appendix I). Inmates who refuse to participate or
fail to complete the drug abuse education classes are held at the lowest pay grade
($5.25 per month) and are ineligible to participate in community programs. Inmates
eligible for RDAP have even stronger incentives for participation and completion of
the program. The incentives include but are not limited to: (1) up to 12 months early

          66
          This DATS’ employment background had primarily been in a business function such as
contracting.
          67
          One institution drug treatment coordinator stated that his Regional Drug Treatment
Coordinator personally reviews all DATS to be assigned in the Region to ensure that they have the
proper qualifications and background to provide treatment.
U.S. Department of Justice                                                                   45
Office of the Inspector General
Evaluation and Inspections Division
release from prison, (2) limited financial rewards – up to $180, and (3) local
institution incentives such as preferred living quarters. Conversely, inmates who fail
to complete the RDAP are no longer eligible for these incentives.

        Because there are no incentives or sanctions for non-residential drug
treatment, staff stated that inmates do not readily volunteer to participate in that
treatment. At the USPs we visited, drug treatment staff stated that many inmates
are “long term convicts and long time addicts” with many years of incarceration to
serve and minimal interest in treatment. Therefore, to motivate these and other
inmates to participate in drug treatment, unit management and drug treatment staff
believe that the BOP must “use the carrot and stick approach” by developing
incentives. Conversely, if an inmate is referred for non-residential drug treatment
but does not volunteer or successfully complete the treatment, staff believe the
inmate should face loss of privileges. Suggestions for incentives included preferred
living quarters, additional points for visits, and permission to order a special food
item through the institution’s commissary. However, these staff did not favor the
incentive of reducing an inmate’s sentence because they believe the motivation for
treatment would be insincere. Inmates entering the BOP’s institutions often tell the
drug treatment staff, “I want the time-off program,” referring to the RDAP where
inmates can receive up to 12 months off their sentence for successful completion of
residential treatment.

        Unit managers and drug treatment staff also strongly believed that inmates
referred for drug treatment should be rated on their participation through a separate
category on the annual Security Designation and Custody Classification Review
form.68 If an inmate fails to complete recommended drug treatment, then the inmate
should receive a score of “zero,” which would preclude the inmate from receiving a
lower security level designation, being recommended for community programs, or
receiving pay above the lowest pay grade. Under the current review procedures,
drug treatment participation is combined with many other factors. These other
factors include interaction with staff and other inmates, misconduct reports,
participation in other recommended activities, work reports, and paying court related
fines. Combining drug treatment participation with these other factors minimizes the
weight given to whether or not inmates participated in and completed the drug
treatment. Thus the BOP’s emphasis on drug treatment becomes diminished when

          68
           The Security Designation and Custody Classification Review is a two-part process used by
the BOP to identify the confinement needs of inmates in its custody. The initial assessment is
completed based upon the evaluation of certain factors such as the inmate’s history, behavior,
present needs, offense severity, and length of sentence. Through this process, inmates are
“screened” so that they are appropriately matched (designated) and housed at institutions with other
inmates that possess similar characteristics. After the inmate has been housed at an institution for a
specific amount of time, a reclassification is performed which augments the initial classification and
takes into account the inmate’s adjustment to incarceration, conduct, and programmatic involvement.
This reclassification continues periodically throughout the inmate’s confinement and is used to modify
the inmate’s confinement status. The entire classification and designation process promotes the
orderly operations of a correctional facility by separating inmates that could pose potential operational
and security risks.
U.S. Department of Justice                                                                       46
Office of the Inspector General
Evaluation and Inspections Division
mixed with other unrelated factors. Unit managers stated that they only can score
an inmate “zero” on their annual Security Designation and Custody Classification
Review if the inmate fails to fulfill the requirements of the Inmate Financial
Responsibility Program, (i.e., paying court related fines, penalties, and restitution).
They believe the same should apply to successful completion of drug treatment
programs.

Conclusion

        Reducing inmates’ demand for drugs through drug treatment programs is a
significant part of the BOP’s strategy to eliminate drugs from its institutions.
However, this part of the BOP’s strategy has not been fully effective. The BOP’s
estimate that 34 percent of inmates need drug treatment is low, according to drug
treatment staff at the institutions visited and outside organizations that have
gathered data on inmate drug use. These staff and organizations have stated that
the percent of federal inmates with drug problems ranges from at least 50 to 80
percent. Substantially more BOP inmates may need treatment than recognized by
the BOP’s 34 percent figure and its associated insufficient drug treatment resources.

       Drug treatment and unit management staff at the institutions we visited also
stated that the BOP emphasizes and directs resources towards drug abuse
education and the RDAP. But without non-residential drug treatment, inmates must
wait until the last 36 months of their sentence for possible admission into the
RDAP – a potential waiting time of years. Thus, a void in drug treatment exists
between drug abuse education and the RDAP. The result is not enough inmates
receive drug treatment, even when the BOP’s low estimate of 34 percent is used as
the baseline of inmates’ treatment needs.

Recommendations

       11. The Director, BOP, should maintain data, via improved SENTRY
tracking, on the number of inmates who are diagnosed with a drug abuse problem
and are referred for drug treatment, the number of inmates who participate in drug
treatment, and the number who successfully complete drug treatment.

      12. The Director, BOP, should sufficiently staff non-residential drug treatment
programs based on a combination of the DATS staffing guidelines and the number
of inmates at each institution who have been identified in SENTRY as needing drug
treatment.

       13. The Director, BOP, should revise Program Statement 5330.10, Drug
Abuse Programs Manual, to require that non-residential drug treatment is provided
to inmates in the general population, in addition to transitional services for the RDAP
graduates. The program statement should include a curriculum for non-residential
drug treatment and guidance regarding the minimum number of sessions and the
minimum number of weeks’ duration for the groups. The Director, BOP, should also

U.S. Department of Justice                                                         47
Office of the Inspector General
Evaluation and Inspections Division
increase emphasis on self-help groups to enhance the overall drug treatment
program and the inmates’ recovery and rehabilitation.

       14. The Director, BOP, should develop incentives for participation in non-
residential drug treatment and consequences for non-completion, with the objective
of increasing the number of inmate volunteers for drug treatment. As part of the
incentives and consequences, the Director, BOP, should consider adding a separate
score for drug treatment participation in the inmate’s annual Security Designation
and Custody Classification Review.




U.S. Department of Justice                                                    48
Office of the Inspector General
Evaluation and Inspections Division
OTHER OPPORTUNITIES TO IMPROVE DRUG INTERDICTION
        We reviewed other potential points of entry for drugs – the receiving and
discharge area, the warehouse, the rear gate, volunteers, and contractors – that
BOP staff stated were less vulnerable to drug smuggling. Regarding the receiving
and discharge area, the warehouse, and the rear gate, we concluded better
technology could supplement manual searches for drugs by correctional officers.
For volunteers and contractors, we concluded that shared information about their
backgrounds could assist institutions in their selection decisions. We also reviewed
the role of institutions’ intelligence staff in drug interdiction activities and concluded
that rotation of the SIS lieutenant is too frequent, and timely investigative and drug
training is needed. Lastly, we reviewed the BOP’s only canine unit located at USP
Lewisburg, Pennsylvania, and concluded canine units may be a useful drug
interdiction technique for other institutions.

Receiving and Discharge
         Although the receiving and discharge (R&D) area is not a primary point of
entry for illegal drugs, inmates sometimes attempt to introduce drugs as well as
other contraband upon initial commitment, during transfers between BOP
institutions, or upon return from external temporary releases, such as emergency
medical care or court appearances.70 The primary objective of R&D is to ensure
inmates are committed and discharged appropriately and all inmate property is
processed without introducing contraband.71

       The ISOs at the institutions we visited cited examples of inmate schemes to
conceal contraband inside personal commissary items when transferring from one
BOP institution to another. Inmates are permitted to take unopened commissary
items with them when transferring to another institution. Some inmates take
advantage of this privilege by opening their commissary items, hiding contraband,
then resealing and disguising the commissary item to make it appear new. Figure 6
on the next page shows one attempt by an inmate to conceal bomb-making
substances in a commissary item.




          70
          At one detention center we visited, ISOs who perform R&D duties cited an example of a
female inmate who was searched when transported to the detention center by outside law
enforcement officers and again searched upon admission to the center. The ISOs found the heel of
the inmate’s shoe filled with cocaine.
          71
          The R&D area, guided by BOP Program Statement 5800.12, Receiving and Discharge
Manual, includes processing inmate admissions and releases, and processing incoming and outgoing
inmate property. The receiving and discharge of inmates is performed by ISOs.
U.S. Department of Justice                                                                 49
Office of the Inspector General
Evaluation and Inspections Division
                 Figure 6. Ingredients for Explosive Device Found Hidden
                     Among an Inmate’s Personal Commissary Items.




                    Source: BOP



      While the ISOs stated that most smuggling attempts are discovered during
R&D inmate property inspections, they also stated that inmates’ demand for drugs
and their ingenuity in concealing contraband in commissary items increases the
probability that contraband goes undetected.

        Thorough R&D inspections for contraband are critical to maintaining the
safety and security of each institution. R&D inspections generally consist of pat and
visual or strip searches of inmates, including the use of hand-held metal detectors
and x-ray body cavity searches (if technology is available at the institution), as well
as manual, visual and x-ray inspections of all inmate property.72 The x-ray scan
technology for body cavity searches and property inspections recognizes metal
objects but not drugs. Figure 7 on the next page demonstrates the effective use of
the body cavity x-ray scan technology for detecting metal contraband and the value
of integrating technology with traditional manual interdiction activities. Figure 7 also
illustrates the ingenuity of and risks taken by inmates to introduce contraband.




          72
           The pat search is an inspection of an inmate's clothing and personal effects that does not
require the inmate to remove clothing. The visual search or strip search is a visual inspection of all
body surfaces and cavities and screening with a hand-held metal detector, and is conducted in all but
minimum security institutions.
U.S. Department of Justice                                                                     50
Office of the Inspector General
Evaluation and Inspections Division
              Figure 7. Photographs Showing Metal Contraband Detected
                         Using Body Cavity X-Ray Technology




Source: BOP

          The body cavity x-ray image on the left shows a hacksaw blade and paper clip.
          The body cavity x-ray image on the right shows handcuff keys.


       BOP encourages the use of x-ray scan devices in R&D to supplement manual
and visual inspections of personal property. All institutions do not have x-ray
scanners in the R&D areas, but instead could use the scanners located in the
warehouse or at the institution’s front entrance. However, this arrangement does not
encourage scanning of inmates’ suspicious property because the x-ray scanners
available to R&D are inconveniently located outside the institutions’ secure perimeter
fencing while the R&D area is located within the secure perimeter fencing.

Institution Deliveries: The Warehouse and Rear Gate
         The institutions we visited use various visual and manual search procedures
along with x-ray technology to inspect daily deliveries entering through the
institutions’ warehouses (dry and cold storage, and UNICOR) and rear gate.

        Interdiction activities for incoming deliveries are labor intensive and usually
target hard contraband, primarily weapons and explosive devices. As deliveries
arrive at a warehouse receiving dock (usually located just outside an institution’s
perimeter fence), a standard inspection for the correct quantity and acceptable
quality of the delivered items is conducted followed by an inspection for contraband.
To perform the contraband inspection, warehouse staff conduct a complete or
random visual and manual inspection of shipments. While some deliveries consist
of individual parcels or packages, most deliveries consist of shrink-wrapped pallets




U.S. Department of Justice                                                            51
Office of the Inspector General
Evaluation and Inspections Division
containing bulk deliveries of perishable and non-perishable food products and other
supplies necessary to support the institution’s needs.73

        Supplemental use of imaging and detection technology to enhance
contraband interdiction activities varies by institution. For example, at one USP we
visited, inspection of daily deliveries consists primarily of manual and visual
inspections and use of a hand-held wand metal detector because the warehouse did
not have its own x-ray scan device. The only available x-ray scan device (for small
packages) was located in the mailroom in an adjacent building. Both the location of
the device and its limited capacity size deterred the use of x-ray technology by
warehouse staff.

         In contrast, another USP we visited used additional inspection procedures for
all of its deliveries. Inbound deliveries at the warehouse receiving dock were subject
to visual and manual inspections for contraband. Upon leaving the warehouse, all
deliveries were inspected using x-ray technology located in a stand-alone x-ray
building positioned midway between the warehouse facility and the rear gate of the
USP. This is the only institution we visited equipped with x-ray technology capable
of handling pallets or skids weighing up to 500 pounds. The technology allows
scanning of the pallets or skids from four sides rather than from only a top view
provided by typical x-ray scan devices used in most institutions. The bulk imaging
device is equipped with two monitors, which provide enhanced imaging to better
identify and distinguish between non-organic materials (weapons) and organic
materials (drugs and explosives). While staff reported increased confidence in the
improved x-ray scan device, they also emphasized the importance of assigning staff
specifically trained and experienced in all methods of contraband detection given the
volume of deliveries entering the institution’s secure perimeter each day.

       At all institutions, after inspecting deliveries at the warehouse, rear gate staff
conduct another complete or random inspection for contraband before admitting the
shipment within the institutions’ secure perimeter fencing. The rear gate inspection
is visual and manual; sometimes a hand-held wand metal detector is used to scan
the contents of boxes and packages. The delivery vehicles also are searched for
hidden contraband.

Conclusion

       BOP inmates transferring to other institutions through the R&D area may
attempt to hide contraband in commissary items disguised as new and unopened.
Under the BOP’s current policy, these items are not easily detected. Institutions also
receive a high volume of deliveries through their warehouse and rear gate areas
each day. Inspection of these deliveries is labor intensive and often conducted
without the benefit of technology designed for bulky items and large pallets. The
limited x-ray devices available do not readily detect the presence of drugs. The R&D

           The type of search – complete or random – depends on whether the deliveries are
          73

individual packages or parcels versus multiple palleted bulk items.
U.S. Department of Justice                                                                   52
Office of the Inspector General
Evaluation and Inspections Division
area, the warehouse, and the rear gate operations could benefit from advanced
imaging and detection technology to supplement current search techniques.

Volunteers and Contractors
        Volunteers and contractors supplement the programs and services BOP
provides to inmates. Because of the extended contact volunteers and contractors
have with inmates – contact that is not always under direct observation by the BOP
staff – volunteers and contractors have the opportunity to develop inappropriate
relationships with inmates, which may lead to attempts to smuggle contraband.

       According to the BOP, in FY 2001 31,879 volunteers made 152,015 visits to
BOP institutions nationwide.74 During the first two quarters of FY 2002, 24,672
volunteers made 78,018 visits to its institutions. Given the number of volunteers that
enter the institutions on a yearly basis, significant opportunities exist for their
smuggling drugs into the institutions. Data provided to us by the Volunteer
Management Branch at the BOP’s Correctional Programs Division showed
dismissals of volunteers for drug-related charges are rare.75 According to the data,
which contains dismissal information from 1994 to 2001, only 5 of the 55 volunteer
dismissals were related to the introduction of contraband, and only 1 of these 5
dismissals was for smuggling drugs. Inappropriate relationships or contact with
inmates, previously undisclosed criminal histories, or previously undisclosed family
or personal relationships with inmates prior to volunteering are the reasons for most
volunteer dismissals.

       The BOP also employs contractors to provide services to its institutions.76
Similar to volunteers, contractors also have a low rate of substantiated misconduct

          74
          Volunteers are private citizens who provide a variety of uncompensated services to the
BOP. Examples of volunteer services include education, substance abuse prevention (e.g.,
Alcoholics Anonymous and Narcotics Anonymous), recreation, life-skills counseling, victim-assistance
programs, crafts, religious services, and occupational services. Each institution employs a volunteer
coordinator responsible for implementing the Volunteers and Citizen Participation Program and
managing the recruitment, background investigation, and training of volunteers. See Appendix IX for
a more detailed description of the requirements for volunteers and contractors.
          75
            The Chief, Volunteer Management Branch, could not verify that all dismissals were
captured in the database she maintained. The database relies on information manually reported by
the institutions and reporting may not be complete.
          76
           Contractors can range from health care staff (nurses, doctors, technicians) and food
service staff, who report daily to the institution as their duty station, to construction workers or
vendors who enter the institution periodically to perform a specialized or one-time function.
Responsibility for oversight of contractors varies by institution. Some institutions assign this
responsibility to the business office, others to the department under whom the service falls, while
others assign portions of contractor oversight to the institution’s volunteer coordinator. The number of
contract employees currently employed BOP-wide is not available because the BOP does not
centrally collect and track data reflecting each institution’s solicitation and use of contractors. See
Appendix IX for a more detailed description of the requirements for volunteers and contractors.

U.S. Department of Justice                                                                      53
Office of the Inspector General
Evaluation and Inspections Division
charges. According to the BOP’s Office of Internal Affairs Report for FY 2001, the
BOP initiated 13 investigative cases as a result of misconduct allegations involving
contract staff. At the close of the fiscal year, eight investigation cases were
completed and three of these cases sustained misconduct by contract employees.
The three sustained cases did not involve smuggling drugs into the institutions. In
FY 2000, the Office of Internal Affairs reported two sustained cases of drug
smuggling involving contractors.

       Regardless of the low numbers of misconduct charges involving volunteers
and contractors, the BOP staff at the institutions we visited and at the BOP Central
Office stated that both volunteers and contract employees can be susceptible to
compromise by inmates and as a result represent a potential point of entry for
contraband into BOP institutions.

      Shared Information Can Assist Management of Volunteers and
Contractors

        The BOP does not have a national automated capability to access and query
information about volunteers, such as application, background, or training records,
identify volunteers performing multi-institutional programs and services, and access
volunteer dismissal or non-renewal records. Rather, we found that volunteer records
are maintained in paper format at each institution.

       The BOP also relies on a paper-driven process for documenting and tracking
volunteer dismissals. Each institution’s volunteer coordinator provides a
memorandum indicating the volunteer’s name and reason(s) for dismissal to the
Regional Volunteer Administrator, with a copy of the memorandum forwarded to the
Chief, Volunteer Management Branch at the BOP’s Central Office.77 The branch
chief enters this dismissal information in a database, but the institution staff do not
have access to the database. We believe that a searchable central database
containing volunteer background, investigation records, and volunteer dismissals or
non-renewals would help BOP staff better detect unscrupulous volunteers and
prevent their approval to enter BOP institutions.

       BOP also does not have a searchable database that provides timely and up-
to-date access to contractor data. For example, in 2000 the intelligence staff at a
high security institution we visited, aided by the FBI, successfully detected a scheme
by inmates to introduce drugs into institutions through a compensated religious
services contractor. The institution’s intelligence staff noticed that inmates’ positive
drug tests increased following each of the contractor’s three previous visits. Based
on intelligence gathered from targeted monitoring of inmate telephone calls and



          77
             The Regional Volunteer Administrator provides guidance for volunteer programs and
initiatives, such as data collection, networking, recruitment, strategic planning, technical assistance,
and training, to the volunteer coordinator in each institution.
U.S. Department of Justice                                                                         54
Office of the Inspector General
Evaluation and Inspections Division
subsequent inmate interviews, the religious services contractor was arrested inside
the institution and prevented from introducing nearly three-quarters of a pound of
marijuana.

        While this investigation was successful, improved and timely sharing of
contractor information may have led to earlier detection of the contractor’s prior
successful drug introductions during visits to several BOP institutions. For example,
the investigation revealed that the same religious services contractor had visited,
planned to visit, or was found listed on the approved telephone lists for inmates in at
least six other BOP institutions. In addition, at the time of arrest the contractor
possessed the names and register numbers for six inmates in custody at three other
high security institutions, indicating a previously undetected pattern of security
breaches.78

Conclusion

         The BOP has controls in place, as described in Appendix IX, to help ensure
that volunteers and contractors are not security threats to the institutions. However,
some volunteers and contractors engage in improper conduct. One improvement
that could help in the management of volunteers and contractors is development of
an automated database containing volunteer and contractor information, accessible
to all institutions, to aid BOP staff in background reviews and approval decisions.

Institution Intelligence Operations
         Intelligence gathering about planned and ongoing criminal activity inside an
institution is an important tool to help detect and prevent drug introductions. The
BOP SIS office in each institution is responsible for gathering intelligence and
investigating misconduct or crimes committed by inmates and staff.79 The SIS staff
at the institutions we visited told us that greater continuity of personnel in the SIS

          78
           We found that the type of contractual agreement used at each institution for this particular
religious services contractor did not help identify the contractor as unscrupulous and prevent his
hiring. Although the religious services contractor was providing services to several BOP institutions
on a recurring basis, each institution procured religious services from this individual contractor
through a short-term contract via purchase order prior to each compensated visit rather than through
an individual contractual agreement used for the delivery of services requiring more frequent and
unsupervised contact with inmates. The BOP has fewer requirements for reviewing the background
of potential short-term contractors than for the longer-term individual contractors. See Appendix IX
for the BOP’s requirements for authorizing contractors.
          79
           The SIS office’s most common intelligence activities include telephone monitoring of
inmates’ calls, inmate drug testing, gang monitoring, and maintaining current databases and data files
on problem inmates. The SIS office also serves as a liaison to other law enforcement organizations,
such as the OIG and FBI. The SIS office is supervised by either a permanent Special Investigative
Agent (SIA), or a correctional supervisor assigned as an SIS lieutenant for an 18-month rotation. An
SIS office may also be staffed with less senior temporary or permanent SIS technicians and
intelligence officers. The Special Investigative Technician is the one employee permanently assigned
to an SIS office position at all the institutions we visited.
U.S. Department of Justice                                                                       55
Office of the Inspector General
Evaluation and Inspections Division
lieutenant position and timely training of newly assigned personnel would enhance
the performance of intelligence gathering and investigations. In addition,
correctional officers highlighted the need to receive drug training from the SIS office
to enhance drug interdiction activities throughout the institution.

Too Frequent Rotation of the SIS Lieutenant

         Although the BOP rotates most corrections officers within an institution so that
they can learn the duties of different positions, the majority of wardens, SIS office
staff, and FBI agents at the institutions we visited disagreed with the 18-month
scheduled rotation of the SIS lieutenant. They stated that frequent rotation disrupts
the continuity of the intelligence operation and hinders the lieutenant’s ability to
develop expertise for optimal performance. SIS lieutenants told us that just as they
become competent in their duties, they are rotated to a different position. They also
told us that drug interdiction activities are hurt because the information received from
confidential informants, investigative skills acquired in working drug cases, and the
ability to manage the information received from inmates’ telephone calls, mail, and
drug tests are lost with frequent rotation. Additionally, SIS staff informed us that it
takes time to develop good working relationships with law enforcement
organizations, such as the OIG and FBI, to help with the investigative needs of the
institution. Although a warden has the discretion to extend the duration of a SIS
lieutenant’s assignment, the wardens we interviewed preferred permanent SIS
lieutenant positions.

Improved Training Needed for SIS Lieutenants

        Wardens, Special Investigative Agents (SIA), SIS lieutenants, and FBI agents
at the institutions we visited told us newly appointed SIS lieutenants need timely, in-
depth criminal investigative training. The SIS lieutenant must quickly develop
investigative knowledge to conduct investigations involving a variety of misconduct
cases regarding staff and inmates.

         According to the BOP Central Office, the Denver BOP Office of Internal
Affairs (OIA) provides investigative technique training to SIS office staff. By policy,
new SIS lieutenants are required to attend a two-week SIS training course within the
first six months of their assignment. The training is usually held several times per
year depending on the need. In recognition of the frequent rotation of SIS
lieutenants, OIA finalized a standard training curriculum in May 2002. The
curriculum includes approximately ten hours of investigative training and two hours
of training on narcotics testing. However, some SIS lieutenants told us that they
needed the training sooner and would prefer to receive criminal investigative training
from the local FBI office or joint training from the FBI and OIG offices.




U.S. Department of Justice                                                        56
Office of the Inspector General
Evaluation and Inspections Division
Other Staff can Benefit from Drug Training

        An institution’s SIS office can contribute to the BOP’s drug interdiction
activities by training other staff about drugs. Because SIS office staff investigate all
drug finds in the institution, they have information on the latest drug names, types,
forms, packaging, methods of introduction, and hiding places. Other institution staff,
regardless of their assignment, can benefit from this information.80 For example,
one lieutenant assigned to the Special Housing Unit in a USP told us black tar
heroin, which was found smeared on a cell’s windowsill and under the frame of an
inmate’s bed, looks like glue and was not easily recognizable as a drug. Similarly,
an ISO told us that inmate letters may be soaked with methamphetamine and staff
may not recognize the paper stain as a drug.

        Most institutions we visited made some efforts to share drug-related
information with staff. Some institutions write information in a logbook and make the
book available to staff as they enter the institution. However, obstacles to
widespread dissemination exist. In the past, roll call prior to each shift was one
method of disseminating information to staff but the BOP eliminated mandatory roll
call in 1996 because it incurred overtime costs. Drug-related intelligence is sent to
staff via some institutions’ intranets but not all staff, including some corrections
officers, have access to a computer at their duty posts. Consequently, the staff we
interviewed suggested that periodic training about drugs, in addition to annual
refresher training, should be provided by the SIS office.

Conclusion

         The SIS lieutenant is a critical position in the SIS office. We found that
frequent rotation of corrections officers assigned to SIS lieutenant positions may
interfere with SIS intelligence gathering and investigative activities. Without
continuity of intelligence operations and well-developed functional expertise, the
institution loses an important aspect of its security capability. Therefore, we believe
the BOP should consider designating SIS lieutenant positions as permanent or
extending the rotation time beyond 18 months. The BOP also should provide timely
and in-depth training for SIS office staff, especially SIS lieutenants, on how to
conduct criminal investigations.

       The SIS staff gain first-hand knowledge of drugs through their investigations.
Other institution staff also need such information to perform their duties, but may not
acquire this knowledge without periodic formal training. We believe the SIS staff is
an appropriate source for such training.




          80
         All institution staff are responsible for observing inmate behavior, pat searching inmates,
and searching cells and common areas for contraband (to include drugs).
U.S. Department of Justice                                                                      57
Office of the Inspector General
Evaluation and Inspections Division
Canines for Drug Detection

        Some state correctional systems and other law enforcement agencies have
had success using canines for detecting drugs. The BOP has only one canine unit
in the country located at the USP Lewisburg. At every institution we visited, the
majority of staff viewed canine drug detection units as an effective drug interdiction
technique and wanted periodic institution searches by drug dogs.81 Most institutions
we visited had made arrangements with other law enforcement agencies to conduct
periodic searches of the institutions using the outside agencies’ canine narcotic
detection units. The SIS office staff expressed concern about this arrangement
because of the limited availability of outside canine units and the training of narcotics
dogs by outside law enforcement differs from corrections trained dogs.

        We interviewed several BOP Central Office officials about the value of canine
units as part of the BOP’s overall drug interdiction activities. One official stated that
a general perception exists that the training and costs of a canine unit do not match
the results. However, the official supported increased use of canines because he
believed that they increased the likelihood of finding drugs through other interdiction
activities, such as inmates who are drug tested because the canines detected the
recent presence of drugs in or around the inmates’ property. Another official stated
that canines could be used along with other interdiction activities, although he stated
that drug finds using outside law enforcement canines have been low. A third official
raised some disadvantages to using drug dogs, such as the requirement that
inmates be removed from the area searched and the dogs’ loss of detection skills if
not used or trained on a regular basis.82 However, he said the drug dogs have a
deterrent effect on drug use and drug introductions. By contrast, the BOP Director
and the Assistant Director of the Correctional Programs Division told us they
believed that canines were of minimal overall value.

        In FY 1990, BOP initiated a pilot project to permit USP Lompoc to evaluate
the use of trained dogs for institutional drug searches and pursuit of escapees. The
program was expanded to USP Terre Haute and USP Lewisburg. While we did not
visit USP Terre Haute, we did visit USP Lompoc and interviewed staff about the
institution’s pilot canine program. Several correctional officers employed at USP
Lompoc at the time of the pilot program cited two reasons for the unit’s failure. First,
the officer who was assigned as the canine handler was regularly pulled from his
position to work other assignments. As a result, neither the dog nor the handler
maintained the required training and consequently became less effective. Second,

          81
          According to the BOP Program Statement 5500.08, Canine Units, “The use of canines by
the Bureau and other law enforcement agencies has proven to be an effective method for narcotics
detection and for tracking escaped inmates. The presence of a canine unit not only aids in locating
drugs, drug paraphernalia and escapees, but also serves as a deterrent.”
          82
         While other correctional systems conduct canine drug searches with the inmates present,
the BOP removes inmates from an area prior to a canine search.

U.S. Department of Justice                                                                    58
Office of the Inspector General
Evaluation and Inspections Division
the supervision of the canine program was insufficient. Responsibility for the pilot
program was assigned to a supervisory correctional officer who did not receive any
training or guidance on how to implement and manage the program.

         Currently, the one BOP canine unit, USP Lewisburg’s canine unit, consists of
two dogs and one Canine Enforcement Officer, who is supervised by the USP’s
SIA.83 Both dogs are dual-purpose dogs trained in criminal apprehension and
handler protection, with one dog specially trained in drug detection and the second
dog specially trained in explosives detection. The Canine Enforcement Officer uses
the narcotics dog in a variety of ways to detect and deter the presence of drugs. At
both the USP Lewisburg and Lewisburg Camp, the dog is used to search the
housing units, common areas, mail, warehouse, work details, parking lot, fence
perimeter, and other areas.84 The officer and the dogs also assist other BOP
institutions throughout the Northeast Region, as well as other outside law
enforcement agencies. Because of the frequent number of requests from other BOP
institutions, we were told by the Canine Enforcement Officer that one canine unit for
the Northeast Region is insufficient to meet the demand.

        While at the USP Lewisburg, we observed the canine unit at the warehouse
searching the mail for both drugs and explosives and walking through the
warehouse aisles searching for drugs in large boxes and packages that had been
delivered from outside vendors.85 The ISOs responsible for the mail and correctional
officers assigned to the warehouse believed the drug dog provides an extra level of
security for the institution and has a deterrent effect on inmates. When we
interviewed other institution staff at both the USP Lewisburg and Lewisburg Camp
about the success of the dog, all staff believed that the dog has been effective in
locating drugs and serving as a strong deterrent to drug use and smuggling.

     The USP Lewisburg’s Canine Enforcement Officer told us that it is difficult to
measure the true success of a drug detection dog in isolation from all other drug

          83
           The USP Lewisburg’s total FY 2001 operational cost for its two dogs was $2,640.33. This
cost included canine re-certification tuition for one handler and an alternate; travel, meals, and
lodging for a handler and an alternate; and dog food and veterinary expenses for two dogs. One-time
purchase of a dog is approximately $7,500 and includes hip and spine certification, obedience
training, handler protection, and three weeks of handler schooling. Institutions also must consider the
cost to construct a suitable kennel to house the dogs and any annual maintenance costs for the
kennel. This cost did not include the Canine Enforcement Officer’s salary.
          84
            The Canine Enforcement Officer told us that a dog cannot work all day and must be rested
after a period of time. However, the handler also can be assigned other security duties in the
institution after ensuring the dog’s daily training (searching) and exercise needs are completed.
          85
           The mail is delivered to the institution’s warehouse to pass through an x-ray scanner and,
at USP Lewisburg, to get searched periodically by the drug dog prior to delivery to the institution’s
inside mailroom for further processing. Deliveries from outside vendors are also delivered to the
warehouse for inspection and scanning, and at USP Lewisburg, for searching periodically by the drug
dog, prior to transport via institution vehicle inside the institution’s secure perimeter.

U.S. Department of Justice                                                                      59
Office of the Inspector General
Evaluation and Inspections Division
interdiction activities, such as inmate drug testing, cell searches, telephone
monitoring, mail inspection, and visitor ion spectrometry screening. The success of
a drug detection dog also cannot be measured only in terms of actual drug finds,
because inmates often flush their drugs down the toilet when they know a search will
be conducted.86 In this scenario, however, the dog can detect the recent presence
of drugs in a cell and officers can then drug test the inmates who reside in the cell.
What can be measured as performance indicators are the USP Lewisburg’s drug-
related misconduct charges and rates for positive drug tests, which are among the
lowest of the high security level institutions for FY 2001. While staff at the USP
Lewisburg credit the intelligence gathering and investigative efforts of their SIS office
overall for the lower number of drug misconduct charges and lower positive drug test
rates, most staff also stated the presence of the drug dog was a significant factor.

        Canine units are frequently used by other state corrections systems as part of
their overall drug interdiction strategies. Drug dogs are used throughout state
institutions to search in a variety of ways, including searching visitor and staff
parking lots, mail and housing areas, and vendors and their deliveries. Examples of
states that have canine units include: Maryland (31 handlers, 56 dogs), Florida (10
canine units), Arizona (41 dual-purpose dogs), Illinois (8 canine units), Connecticut
(currently 6 dogs but training more in 2002), Pennsylvania (21 handlers, 23 dogs,
and a canine training academy), Alabama, Texas, California, South Carolina, New
York, New Jersey, Kansas, and West Virginia.87 Of the states we surveyed, the
value of the canine units was not measured solely by the number of drug finds. For
example, the Texas Department of Criminal Justice, which operates canine units out
of several Regional Directors’ offices, measures the units’ success by the low levels
of drug use in Texas prisons (via inmate drug tests).88 The Maryland Department of
Corrections cites the decline in drug finds by the canine unit as an indication of drug
interdiction effectiveness.89 The Connecticut Department of Corrections measures
success by the dogs’ detection of the recent presence of drugs, which can then be
confirmed by drug testing the inmates. The Illinois Department of Corrections states

          86
          The Canine Enforcement Officer provided us with a list of the narcotics detected using his
canine unit over the last three years: 375.68 grams of marijuana, 3.82 grams of heroin, 0.2 grams of
cocaine, and 0.4 grams of morphine.
          87
            In a 3-year project titled the Drug-Free Prison Zone Project, ending in January 2002,
Alabama, Arizona, California, Florida, Kansas, Maryland, New Jersey, and New York were each
awarded $500,000 as part of a cooperative agreement between the National Institute of Corrections,
the BOP, and state prison systems to facilitate the development or enhancement of drug interdiction
strategies in adult prison facilities. All eight states chose to use this money to acquire new narcotic
detecting canine units or enhance existing narcotic detecting canine units as part of their overall drug
interdiction activities.
          88
         Texas Department of Criminal Justice reports a 1.3 percent positive drug test rate for
inmates. This includes random, targeted, and reasonable suspicion testing.
          89
          “National Institute of Corrections Drug-Free Prison Zone Project,” Alexander M. Holsinger,
Ph.D., University of Missouri – Kansas City, Department of Sociology/Criminal Justice & Criminology,
May 25, 2002.
U.S. Department of Justice                                                                       60
Office of the Inspector General
Evaluation and Inspections Division
that, while every drug find is considered a success, the presence of the canine unit
serves as a deterrent to anyone who may be in the possession of narcotics or other
contraband. The South Carolina Department of Corrections, which recently
launched a zero tolerance campaign for drugs and other contraband, uses canine
drug teams as part of a network of intelligence gathering.

Conclusion

         The USP Lewisburg, many state correctional systems, and other law
enforcement agencies use canine units successfully as part of their drug interdiction
activities. The USP Lewisburg’s canine unit demonstrates potential benefits of
canines as a drug interdiction activity for use throughout the institution. Other
institutional technology used to search inmates and their property, mail, or
warehouse deliveries, such as x-ray scanners or metal detectors, are not capable of
detecting drugs. Therefore, drug dogs could be used to enhance interdiction
activities in areas throughout the institutions such as in the mailroom, the R&D area,
the warehouse, and the rear gate. We believe there is ample evidence to support
expanding canine units within the BOP, which could help reduce drugs in the
institutions.

Recommendation

        15. The Director, BOP, should consider the other opportunities to improve
drug interdiction activities for the R&D and warehouse areas, the rear gate,
volunteers, contractors, and institution intelligence operations. The BOP also should
consider another pilot test of canines as a drug detection technique for its
institutions.




U.S. Department of Justice                                                      61
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX I: BOP’S DRUG ABUSE TREATMENT PROGRAMS


      The BOP’s drug abuse treatment programs consist of drug abuse education,
non-residential treatment, and residential treatment.

          •    Drug Abuse Education. Drug abuse education is a series of classes
               totaling approximately 30 to 40 hours designed to provide information
               about the detrimental consequences of drug use through literature and
               videos. The classes, which follow a standardized course curriculum, are
               not considered treatment by BOP, but a means to motivate inmates to
               seek treatment. During the classes, inmates are encouraged to seek
               treatment through the BOP’s other drug program components. The BOP
               Program Statement 5330.10, Drug Abuse Programs Manual, requires
               inmates to take drug abuse education if: (1) there is evidence in inmates’
               Pre-Sentence Investigation report that alcohol or other drug abuse
               contributed to their crime, (2) if inmates received a judicial
               recommendation to participate in a drug treatment program, (3) inmates
               violated their community supervision as a result of substance abuse, or
               (4) inmates have a history of abusing alcohol or drugs. The inmates must
               complete this course within the first 12 months of their incarceration. If an
               inmate refuses to participate in the drug abuse education course, the
               inmate is not recommended for community programs and will be
               compensated at the lowest pay grade ($5.25 per month) for any work they
               perform in the institution.

          •    Non-Residential Drug Treatment. BOP Program Statement 5330.10
               requires institutions to provide non-residential drug treatment, which can
               include individual and group therapy. Non-residential drug treatment
               within the institution should consist of at least one hour of individual or
               group counseling each month, following a curriculum developed
               individually by each institution’s DATS. The program statement does not
               provide a standardized curriculum for non-residential drug treatment.
               Inmates must meet all of the following criteria to be eligible for non-
               residential drug treatment: (1) have a verifiable, documented drug abuse
               problem, (2) have no serious mental impairment that would substantially
               interfere with or preclude full participation in the program, and (3) sign an
               agreement acknowledging their responsibility under the program.
               Inmates’ participation in non-residential drug treatment is voluntary.
               Inmates receive no incentives to participate and face no consequences if
               they choose not to participate or fail to complete treatment.




U.S. Department of Justice
Office of the Inspector General                                                        62
Evaluation and Inspections Division
               A component of non-residential treatment is transitional or aftercare
               counseling, which is required for inmates who have completed the
               residential drug abuse program and are returned to the general population
               awaiting their release date. This can include group or individual
               counseling and is required for one hour a month for one year or until the
               inmate’s release date, whichever is first.

          •    Residential Drug Abuse Program (RDAP). The RDAP is typically a 9-
               month, 500-hour program in which participating inmates are housed
               together in a separate unit reserved for drug treatment at a BOP
               institution. The inmates participate in a minimum of three hours of drug
               treatment per day. In FY 2001, the BOP had established 52 RDAP units
               in 50 of its 100 institutions. Five additional units are scheduled to open in
               FY 2002.90 RDAP has a standardized drug treatment curriculum. An
               inmate must meet the following eligibility criteria to be admitted into RDAP:
               (1) sentenced to BOP custody, (2) determined by the BOP to have a
               substance abuse disorder, (3) sign BOP’s “Agreement to Participate in the
               Bureau’s Residential Drug Abuse Program,” (4) reside in a BOP
               institution, (5) serving a sentence with enough time to fully participate in a
               residential drug abuse program, and (6) willing to participate in a
               residential drug abuse treatment program. Upon successful completion of
               RDAP, an inmate can receive a sentence reduction of up to 12 months,
               limited financial rewards, and additional privileges within the institution. If
               inmates fail to complete the program, they are ineligible to receive these
               incentives. Inmates are ineligible for the sentence reduction if their current
               or past criminal history includes a serious violent offense.

       Other Residential Programs. According to the FY 2000 State of the Bureau,
the BOP offers a variety of other residential programs, which focus on “inmates
emotional and behavioral responses to difficult situations and emphasize life skills
and the development of pro-social values, respect for self and others, responsibility
for personal actions, and tolerance.” These specialized programs borrow the
cognitive restructuring approach of the RDAP and encourage inmates to become
alcohol and drug free, but the programs are not drug treatment programs. Inmates
may be diagnosed as needing drug treatment and may participate in drug treatment,
but treatment is separate from the usual curriculum of the specialized programs.
Also, participation in drug treatment is not a prerequisite for participation in these
specialized programs. However, inmates who use or possess alcohol or drugs will
be expelled from the programs.




          90
          “Substance Abuse Treatment Programs in the Federal Bureau of Prisons Fiscal Year 2001
Report to Congress,” Federal Bureau of Prisons, January 2002. This report is required annually.

U.S. Department of Justice
Office of the Inspector General                                                          63
Evaluation and Inspections Division
                      APPENDIX II: CONTACTS AND SITE VISITS


BOP Central Office Interviews Conducted

Correctional Programs Division
      Correctional Services Branch
      Inmate Systems Management Branch
      Psychology Services Branch
Executive Office
      Internal Affairs
Health Services Division
      Drug-Free Workplace
Human Resource Management Division
      Labor Management Relations and Security
General Counsel and Review
Program Review Division
Information, Policy and Public Affairs Division
      Security Technology
Community Corrections and Detention Division
      Citizen Participation
      Contract Services
Administration Division
      Trust Fund Operations


Institutions Visited
                                                                Security Level
U.S. Penitentiary Beaumont, Texas                               High
U.S. Penitentiary Leavenworth, Kansas                           High
U.S. Penitentiary Lompoc, California                            High
U.S. Penitentiary Lewisburg, Pennsylvania                       High
Federal Correctional Institution Memphis, Tennessee             Medium
Federal Correctional Institution Miami, Florida                 Medium
Federal Detention Center Miami, Florida                         Administrative
Low Security Correctional Institution Allenwood, Pennsylvania   Low
Federal Prison Camp Lewisburg, Pennsylvania                     Minimum




U.S. Department of Justice
Office of the Inspector General                                                  64
Evaluation and Inspections Division
Institution Staff Interviewed
Wardens
Associate Wardens
Captains
Intelligence Staff
Unit Managers
Disciplinary Hearing Officers
ISOs for Mail and Receiving and Discharge
Rear Gate Officers
Drug Treatment Staff
Visiting Room Officers
Canine Enforcement Officer
Commissary Supervisors
Human Resources Staff
Volunteer Coordinators
Business Office Managers
Warehouse Supervisors


Institution Operational Areas Reviewed
Front Gate Entry
Visitor Processing
Visiting Room Monitoring
Mail Processing
Warehouse Receiving
Rear Gate Processing
Inmate Receiving and Discharge
Commissary Operations
Disciplinary Hearings
Unit Management
Drug Abuse Treatment Programs
Intelligence Gathering
• Drug Testing
• Phone Monitoring
• Canine Unit
Volunteer and Contractor Processing
Human Resources
Business Office
• Inmate Accounts




U.S. Department of Justice
Office of the Inspector General             65
Evaluation and Inspections Division
           APPENDIX III: CATEGORIES OF INMATE DRUG TESTS


        BOP Program Statement 6060.08, Urine Surveillance and Narcotic
Identification, authorizes the following inmate drug tests:

          •    Random. Each institution is required to perform a specific percentage of
               random inmate drug tests each month. The required percentage varies
               according to the security level of the institution. Effective November 1999,
               each high security level institution is required to randomly test 10 percent
               (up from 7 percent) of its total inmate population. Each medium, low, and
               administrative security level institution is required to perform random
               testing on 5 percent of its total population. Each minimum security level
               institution is required to perform random testing on 3 percent (down from 5
               percent) of its total population. The Administrative Maximum Security
               Penitentiary Florence, Colorado, and the USP Marion, Illinois, are required
               to conduct 5 percent random testing monthly of the total population.

          •    Prior Act – Inmates sanctioned administratively for specific drug-related
               charges are tested monthly for 24 continuous months.

          •    Suspected – Inmates identified through intelligence (e.g., telephone
               monitoring, mail monitoring, or following a specific incident or act of
               violence) can be required to submit to monthly testing over consecutive
               months, usually a minimum of three consecutive months. If an inmate
               tests positive, the inmate is placed on the Prior Act list for 24 months of
               consecutive testing. If an inmate on the Suspected test list does not test
               positive during the initial three consecutive month testing period, the
               inmate is typically removed from the list. However, an institution may
               continue testing an inmate until BOP determines that the inmate no longer
               represents a threat to the institution.

          •    Disruptive Groups – Inmates identified and monitored because of gang
               affiliations are tested. Specifically, inmates identified as members of one
               of five monitored gangs are assigned “Disruptive Group” status. Every
               disruptive group member undergoes monthly testing indefinitely. In
               addition, inmates with known affiliations to other identified gangs are
               assigned “Security Threat Group” status and are tested monthly.

          •    Saturation – The warden and staff may target specific large groups of
               inmates for testing, such as an inmate work group or selected housing
               units.




U.S. Department of Justice
Office of the Inspector General                                                      66
Evaluation and Inspections Division
          •    Community Activities – At least 50 percent of inmates involved in
               community activities are tested, including all inmates with a history of drug
               use.




U.S. Department of Justice
Office of the Inspector General                                                       67
Evaluation and Inspections Division
               APPENDIX IV: POSITIVE DRUG TEST RATES BY
                     INSTITUTION SECURITY LEVEL

       Table 7. Positive Drug Test Rates for Individual High Security Level
                                   Institutions


     Institution             FY 1997            FY 1998           FY 1999           FY 2000           FY 2001

USP Allenwood                         4.55             7.30              2.94              2.32                 1.82
USP Atlanta                           4.01             3.09              4.12              3.67                 1.74
USP Beaumont                          N/A              2.86              3.03              5.70                 7.84
FCI Edgefield                         N/A               N/A               N/A              1.48                 1.01
USP Florence                          4.11             3.93              5.21              1.80                 1.07
USP Leavenworth                       3.30             2.44              3.48              3.95                 2.65
USP Lewisburg                         4.84             3.30              3.09              1.30                 1.41
USP Lompoc                            4.39             8.01              9.88              6.61                 6.09

USP Terre Haute                       2.37             2.08              2.67              1.72                 1.66
Source: BOP
Data for two high security level institutions, USP Marion and ADX Florence, which have non-contact visits and
little or no inmate movement, were excluded.
N/A: Not activated for an entire year during the reporting period.




U.S. Department of Justice                                                                              68
Office of the Inspector General
Evaluation and Inspections Division
    Table 8. Positive Drug Test Rates for Medium Security Level Institutions
        Institution                  FY 1997   FY 1998   FY 1999 FY 2000 FY 2001
Allenwood Medium FCI                      1.89      1.27      0.51    2.32    0.95
Beaumont Medium FCI                       N/A       N/A        N/A    5.72    3.05
Beckley FCI                               0.93      2.92      3.51    3.56    2.18
Butner Medium FCI                         1.75      0.94      3.92    2.03    0.95
Coleman Medium FCI                        1.32      3.13      1.58    0.77    1.42
Cumberland FCI                            0.91      0.65      1.26    2.52    1.16
El Reno FCI                               3.30      1.62      4.54    1.29    0.69
Englewood FCI                             2.06      1.74      0.73    2.57    0.76
Estill FCI                                2.47      1.37      0.77    0.46    1.07
Fairton FCI                               1.92      1.12      0.61    1.15    0.92
Florence FCI                              0.81      1.45      3.28    1.67    1.57
Greenville FCI                            3.41      2.28      3.24    2.48    2.74
Jesup FCI                                 2.58      2.07      1.12    1.28    0.70
Manchester FCI                            1.17      2.20      1.08    1.99    0.82
Marianna FCI                              0.13      0.99      0.88    1.67    0.96
McKean FCI                                1.14      1.03      0.99    0.89    0.92
Memphis FCI                               2.41      6.47      6.25    3.05    2.89
Miami FCI                                 1.67      1.69      1.05    0.48    1.22
Oakdale FCI                               1.75      0.58      1.15    0.93    0.95
Otisville FCI                             3.29      2.68      2.46    1.08    1.34
Oxford FCI                                0.74      0.99      1.39    0.32    0.64
Pekin FCI                                 2.15      1.78      1.01    1.78    2.77
Phoenix FCI                               1.85      4.73      3.17    7.22    4.10
Ray Brook FCI                             4.30      4.20      1.42    1.84    0.97
Schuylkill FCI                            5.16      2.12      0.54    0.50    0.46
Sheridan FCI                              6.14      2.91      2.38    4.39    2.45
Talladega FCI                             0.56      0.91      0.34    0.43    1.03
Terminal Island FCI                       5.81      7.84      7.97    4.74    1.97
Three Rivers FCI                          4.67      3.26      1.39    0.68    2.20
Tucson FCI                                9.87      6.88      2.96    2.76    4.45
Victorville FCI                           N/A       N/A       N/A      N/A    5.52
Source: BOP
Data for each fiscal year excludes institutions that did not have test results for the entire year.
N/A: Not activated for an entire year during the reporting period.




U.S. Department of Justice                                                                            69
Office of the Inspector General
Evaluation and Inspections Division
         Table 9. Positive Drug Test Rates for Low Security Level Institutions

     Institution              FY 1997           FY 1998           FY 1999          FY 2000            FY 2001
Allenwood Low FCI                     0.78              0.55              0.36             0.14           0.24
Ashland FCI                           2.46              0.33              0.79             0.74           0.71
Bastrop FCI                           1.60              2.28              1.00             1.12           0.76
Beaumont Low FCI                      0.60              0.83              2.74             1.28           2.69
Big Spring FCI                        2.21              5.83              2.56             0.95           1.64
Butner Low FCI                        0.64              0.74              1.35             0.71           1.20
Coleman Low FCI                       1.26              0.00              0.14             0.32           0.54
Danbury FCI                           0.00              0.82              2.07             1.97           0.21
Dublin FCI                            1.66              2.40              1.76             0.69           2.16
Elkton FCI                             N/A              1.85              1.36             0.80           1.04
Elkton FSL                             N/A               N/A               N/A              N/A            N/A
Forrest City FCI                       N/A              1.86              1.77             2.29           1.78
Fort Dix FCI                          1.37              0.98              0.73             1.18           0.37
Jesup FSL                              N/A               N/A               N/A              N/A            N/A
La Tuna FCI                           2.46              4.88              1.43             0.26           1.25
La Tuna FSL                            N/A               N/A               N/A              N/A            N/A
Lompoc FCI                            0.87              1.24              0.64             1.01           0.29
Loretto FCI                           0.72              0.55              0.56             0.48           0.40
Milan FCI                             3.08              2.79              3.30             3.05           1.96
Petersburg FCI                        0.34              0.47              0.12             1.98           1.73
Safford FCI                           0.63              1.70              0.09             0.00           0.00
Sandstone FCI                         0.14              0.14              0.54             0.49           0.66
Seagoville FCI                        1.16              1.78              1.85             1.83           1.99
Taft CI                               N/A               N/A               5.68             3.89           5.94
Tallahassee FCI                       0.54              0.97              0.29             1.69           1.21
Texarkana FCI                         1.55              1.42              0.89             0.49           1.04
Waseca FCI                            0.42              0.00              0.72             0.08           0.35
Yazoo City FCI                         N/A              0.90              0.35             0.82           0.58
Source: BOP
Data for each fiscal year excludes institutions that did not have test results for the entire year.
N/A: Not activated for an entire year during the reporting period.




 U.S. Department of Justice                                                                                     70
 Office of the Inspector General
 Evaluation and Inspections Division
Table 10. Positive Drug Test Rates for Minimum Security Level Institutions

        Institution              FY 1997        FY 1998     FY 1999     FY 2000     FY 2001
Alderson FPC                             0.85        0.85        1.25        1.00         0.42
Allenwood FPC                            0.35        0.11        0.90        1.97         0.28
Ashland FCI Camp                         0.92        1.92        2.85        2.46         1.30
Atlanta USP Camp                         1.51        1.71        1.68        2.33         0.00
Atwater USP Camp                         N/A         N/A         N/A         N/A          N/A
Bastrop FCI Camp                         0.50        0.00        2.19        3.24         0.00
Beaumont USP/FCC
                                         N/A         N/A         5.26        0.00     No Data
Camp
Beckley FCI Camp                         0.33        0.00        0.00        2.90         1.84
Big Spring FCI Camp                      1.37        1.03        0.73        0.89         0.80
Boron FPC                                 .08         .37        0.00        N/A          N/A
Bryan FPC                                0.09        0.42        0.68        0.62         0.73
Bryan FPC ICC                            0.15        0.00        0.13        0.00         0.63
Butner Medium FCI
                                         1.12        1.26        0.63        0.71         0.59
Camp
Carswell FMC Camp                     No Data     No Data        0.27        0.29         0.00
Coleman Medium FCI
                                      No Data        0.00        0.99        0.70         0.88
Camp
Cumberland FCI Camp                      0.00        0.00        0.00        1.19         0.37
Danbury FCI Camp                         0.00        0.00        0.96        0.00         0.00
Devens FMC Camp                          N/A         N/A         N/A      No Data     No Data
Dublin FCI Camp Unit                     0.39        0.00        1.30        0.85         0.00
Duluth FPC                               0.26        0.16        0.60        0.22         0.39
Edgefield FCI Camp                       N/A         3.51        0.85        1.39         1.32
Eglin FPC                                1.10        0.13        0.25        0.36         0.51
Elkton FCI Camp                          N/A      No Data        1.09     No Data         N/A
El Paso FPC                              0.76        0.44        0.17        0.50         N/A
El Reno FCI Camp                         1.41        0.68        1.75        0.00         3.45
Englewood FCI Camp                       0.73        0.00        1.65        0.50         1.28
Estill FCI Camp                          0.36        0.00        0.66        0.00         2.19
Fairton FCI Camp                         0.00        0.00        1.12        0.00         0.00
Florence FCI Camp                        0.49        2.54     No Data     No Data         2.88
Forrest City FCI Camp                    N/A         N/A         N/A      No Data     No Data
Fort Dix FCI Camp                     No Data     No Data     No Data     No Data     No Data


U.S. Department of Justice                                                           71
Office of the Inspector General
Evaluation and Inspections Division
     Institution              FY 1997        FY 1998     FY 1999     FY 2000     FY 2001
Greenville FCI Camp                   0.40        0.42        1.75        2.62         N/A
Jesup FCI Camp                        0.33        0.53        0.33        0.59         1.23
La Tuna FCI Camp                      1.26        0.98        0.00        0.93         0.52
Leavenworth USP
                                      0.00        0.00        1.59        1.85         3.38
Camp
Lee USP Camp                          N/A         N/A         N/A         N/A          N/A
Lewisburg USP
                                      0.46        0.00        2.28        0.00         0.74
Camp
Lewisburg USP ICC                     8.88        5.49       12.30       12.68         6.40
Lexington FMC
                                 No Data          0.64        0.50        0.00         0.87
Camp
Lompoc FCI ICC                        N/A      No Data     No Data     No Data     No Data
Lompoc USP Camp                       1.69        0.60        3.63        0.58         0.85
Loretto FCI Camp                      0.50        0.00        0.00        0.00         0.00
Manchester FCI
                                      1.50        0.51        1.17        0.31         1.12
Camp
Marianna FCI Camp                     0.59        0.00     No Data        0.00         0.55
Marion USP Camp                       1.29        1.08        0.56        0.65         1.75
McKean FCI Camp                       0.31        0.80        0.26        1.36         1.10
Memphis FCI Camp                 No Data          1.33        7.79        0.00     No Data
Miami FCI Camp                        1.30        0.34        0.00     No Data    No Data
Montgomery FPC                        0.39        1.35        1.82        1.68         1.98
Morgantown FCI                        0.71        1.20        0.50        1.61         0.41
Nellis FPC                            0.83        1.15        0.94        1.51         0.58
Oakdale FDC Camp                      0.00        0.52        0.00        3.12         1.16
Otisville FCI Camp                    1.56        0.00        3.72     No Data    No Data
Oxford FCI Camp                       2.68        2.68        3.05        3.27         1.97
Pekin FCI Camp                        1.01        0.61        0.96        0.52         1.38
Pensacola FPC                         0.46        0.34        0.49        1.43         0.64
Petersburg FCI
                                      1.02        1.11        0.79        0.27         0.71
Camp
Phoenix FCI Camp                      1.09        2.22        3.85        1.72         6.41
Pollock USP Camp                      N/A         N/A         N/A         N/A     No Data
Schuylkill FCI Camp                   1.56        0.00        0.52    No Data     No Data


U.S. Department of Justice                                                        72
Office of the Inspector General
Evaluation and Inspections Division
       Institution             FY 1997           FY 1998           FY 1999          FY 2000         FY 2001
 Seymour Johnson
                                       0.70              1.18              0.57             0.20              0.57
 FPC
 Sheridan FCI Camp                     0.50              0.58              0.95             1.55              0.34
 Taft CI Camp                           N/A               N/A         No Data           No Data          No Data
 Talladega FCI Camp                    0.45              0.31              1.10         No Data          No Data
 Terre Haute USP
                                       2.22              0.70              0.81             1.65              1.72
 Camp
 Texarkana FCI
                                       0.00              0.50              0.32             0.49              0.39
 Camp
 Three Rivers FCI
                                       1.83              3.10              1.86             2.07              1.34
 Camp
 Victorville FCI Camp                   N/A               N/A              N/A               N/A         No Data
 Yankton FPC                           0.43              0.00              0.17             0.90              1.23
 Yazoo City FCI
                                        N/A               N/A              N/A               N/A               N/A
 Camp
Source: BOP
Data for each fiscal year excludes institutions that did not have test results for the entire year.
N/A: Not activated for an entire year during the reporting period.
No Data: No information was recorded for that fiscal year in the database received from the BOP.
The high drug rates at the USP Lewisburg Intensive Confinement Center (ICC), which is a Boot Camp, is attributed
to the past practice of drug testing inmates upon admission. This practice has ceased.




 U.S. Department of Justice                                                                             73
 Office of the Inspector General
 Evaluation and Inspections Division
             Table 11. Positive Drug Test Rates for Administrative Institutions

      Institution              FY 1997          FY 1998          FY 1999          FY 2000         FY 2001

Brooklyn MDC                           5.77             2.40             2.08            1.72            1.08

Butner FMC                               N/A             N/A              N/A             N/A            0.98

Carswell FMC                           2.91             4.23             2.79            2.20            2.40

Chicago MCC                            1.44             0.72             1.76            1.00            1.65

Devens FMC                               N/A             N/A              N/A            1.17            1.57

Fort Worth FMC                         4.64             5.13             2.00            4.29            3.80

Guaynabo MDC                           3.78             2.44             1.86            2.24            2.30

Honolulu FDC                             N/A             N/A              N/A             N/A         No Data

Houston FDC                              N/A             N/A              N/A            0.41            0.79
Lexington FMC                          1.28             1.94             1.01            2.71            2.18

Los Angeles MDC                        8.33             4.60             5.66            3.95            4.19

Miami FDC                              0.39             0.68             0.71            0.48            0.38

New York MCC                           1.17             1.43             1.13            0.99            0.96

Oakdale FDC                                0                0            0.16            0.16            0.14

Oklahoma City FTC                      0.65             1.38             0.83            0.45            0.54

Philadelphia FDC                         N/A             N/A              N/A             N/A            0.59

Rochester FMC                          1.66             4.36             3.54            5.85            7.61

San Diego MCC                          3.44             2.56             1.42            1.49            1.07

SeaTac FDC                               N/A            1.16             2.58            0.83            1.25

Springfield USMCFP                     5.02             5.13             9.48           10.04            6.27
Source: BOP
Data for each fiscal year excludes institutions that did not have test results for the entire year.
N/A: Not activated for an entire year during the reporting period.
No Data: No information was recorded for that fiscal year in the database received from the BOP.




   U.S. Department of Justice                                                                               74
   Office of the Inspector General
   Evaluation and Inspections Division
        APPENDIX V: DEFINITIONS OF 100-LEVEL MISCONDUCT
                            CHARGES



Code                                  Prohibited Acts

100                                   Killing;

101                                   Assaulting any person (includes
                                      sexual assault) or an armed assault on
                                      the institution's secure perimeter (a
                                      charge for assaulting any person at this
                                      level is to be used only when serious
                                      physical injury has been attempted or
                                      carried out by an inmate);

102                                   Escape from escort; escape from a secure
                                      institution (low, medium, and high
                                      security level, and administrative
                                      institutions); or escape from a minimum
                                      institution with violence;

103                                   Setting a fire (charged with this act in
                                      this category only when found to pose a
                                      threat to life or a threat of serious
                                      bodily harm or in furtherance of a
                                      prohibited act of Greatest Severity,
                                      e.g. in furtherance of a riot or escape;

104                                   Possession, manufacture, or introduction
                                      of a gun, firearm, weapon, sharpened
                                      instrument, knife, dangerous chemical,
                                      explosive or any ammunition;

105                                   Rioting;

106                                   Encouraging others to riot;

107                                   Taking hostage(s);




U.S. Department of Justice                                                       75
Office of the Inspector General
Evaluation and Inspections Division
108                                   Possession, manufacture, or introduction
                                      of a hazardous tool (tools most likely
                                      to be used in an escape or escape
                                      attempt or to serve as weapons capable
                                      of doing serious bodily harm to others;
                                      or those hazardous to institutional
                                      security or personal safety, e.g.,
                                      hack-saw blade);

109                                   (Not to be used)

110                                   Refusing to provide a urine sample or to
                                      take part in other drug abuse testing;

111                                   Introduction of any narcotics,
                                      marijuana, drugs, or related
                                      paraphernalia not prescribed for the
                                      individual by the medical staff;

112                                   Use of any narcotics, marijuana, drugs,
                                      or related paraphernalia not prescribed
                                      for the individual by the medical staff;

113                                   Possession of any narcotics, marijuana,
                                      drugs, or related paraphernalia not
                                      prescribed for the individual by the
                                      medical staff;

197                                   Use of the telephone to further
                                      criminal activity;

198                                   Interfering with a staff member in the
                                      performance of duties (conduct must be
                                      of the Greatest Severity nature.) This
                                      charge is to be used only when another
                                      charge of greatest severity is not
                                      applicable;

199                                   Conduct which disrupts or interferes
                                      with the security or orderly running of
                                      the institution or the BOP (conduct must be of the
                                      Greatest Severity nature.) This charge
                                      is to be used only when another charge
                                      of Greatest Severity is not applicable.



U.S. Department of Justice                                                                 76
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX VI: RATE AND NUMBER OF DRUG MISCONDUCT
         CHARGES BY INSTITUTION SECURITY LEVEL



               Table 12. Rate and Number of Drug Misconduct Charges
                          for High Security Level Institutions

        Institution                    FY 1999             FY 2000                   FY 2001
                                                # of             # of                       # of
                              Rate (%)                Rate (%)         Rate (%)
                                              Charges          Charges                    Charges
  USP Allenwood                       11.55        117   12.07           122       6.33              68

  USP Atlanta                         10.91        229     9.96          191       5.76           108

  USP Beaumont                         8.39        123   13.75           202      23.25           319

  FCI Edgefield                        N/A         N/A     4.35           63       3.74              57

  USP Florence                        16.35        166     9.36           92       5.26              50

  USP Leavenworth                      7.28        131   15.34           258      12.69           213

  USP Lewisburg                       10.79        117     6.42           67       3.89              46

  USP Lompoc                          24.59        392   17.56           281     15.77            238

  USP Terre Haute                      7.38         81     4.69           60       4.24              55

  Total                                          1,356                 1,336                    1,154
 Source: BOP
 Data for each fiscal year excludes institutions that did not have misconduct data for the entire year.
 Data for two high security level institutions, USP Marion and ADX Florence, which have non-contact
 visits and little or no inmate movement, were excluded.




U.S. Department of Justice                                                                      77
Office of the Inspector General
Evaluation and Inspections Division
               Table 13. Rate and Number of Drug Misconduct Charges
                        for Medium Security Level Institutions



         Institution                     FY 1999                FY 2000           FY 2001
                                      Rate       # of        Rate      # of             # of
                                                                             Rate (%)
                                      (%)      Charges       (%)     Charges          Charges
Allenwood Medium FCI                    1.05         12       3.51         42    1.37            18

Beaumont Medium FCI                     N/A         N/A       7.89        125    5.54            88

Beckley FCI                             6.69        103       5.89         96    5.14            83

Butner Medium FCI                       4.89         37       2.68         22    1.45            11

Coleman Medium FCI                      2.87         46       2.15         36     2.2            37

Cumberland FCI                          1.82         21       5.45         62    3.76            42

El Reno FCI                            10.25        121       3.86         49    1.10            16

Englewood FCI                           2.33         21       3.54         32    2.25            20

Estill FCI                              1.23         12       1.53         18    1.12            13

Fairton FCI                             0.51             6    2.26         27    1.44            19

Florence FCI                            9.12        109       5.81         71    6.17            74

Greenville FCI                          7.96         91       6.05         72    5.08            60

Jesup FCI                               1.56         16       1.03         11    0.94            13

Manchester FCI                          2.97         33       4.64         53    2.27            26

Marianna FCI                            1.35         15       1.02         12    0.89            11

McKean FCI                              2.93         32       2.38         26    2.47            27

Memphis FCI                            16.85        151       8.82         83     8.8            96

Miami FCI                               1.60         14       1.19         11    1.83            19




U.S. Department of Justice                                                                  78
Office of the Inspector General
Evaluation and Inspections Division
      Institution                     FY 1999                      FY 2000                      FY 2001

                            Rate (%) # of Charges Rate (%) # of Charges Rate (%) # of Charges

Oakdale FCI                       1.71                21        1.87                23        1.93              25

Otisville FCI                     4.14                43        1.71                17        1.64              16

Oxford FCI                        2.05                22        0.30                  3       0.60               6

Pekin FCI                         2.47                29        2.83                34        6.05              74

Phoenix FCI                       9.06               105      20.13               253       11.38              142

Ray Brook FCI                     3.13                34        3.39                37        2.34              27

Schuylkill FCI                    0.64                  7       0.76                  8       0.53               6

Sheridan FCI                      5.05                68        3.61                49        2.12              29

Talladega FCI                     0.53                  5       0.60                  6       1.62              17

Terminal Island FCI              11.87               120        7.84                79        3.69              37

Three Rivers FCI                  5.72                61        3.28                33        7.66              80

Tucson FCI                        5.78                45        6.20                47        9.22              70

Victorville FCI                    N/A               N/A         N/A              N/A       10.37              156

Total                                             1,400                         1,437                     1,358
Source: BOP
Data for each fiscal year excludes institutions that did not have misconduct data for the entire year.
N/A: Not activated for an entire year during the reporting period.




U.S. Department of Justice                                                                                79
Office of the Inspector General
Evaluation and Inspections Division
                    Table 14. Rate and Number of Drug Misconduct Charges
                               for Low Security Level Institutions

      Institution                     FY 1999                      FY 2000                       FY 2001
                             Rate (%) # of Charges Rate (%) # of Charges Rate (%) # of Charges
Allenwood Low FCI                  0.54                 7       0.54                  7       0.53              7
Ashland FCI                            0                0       1.76                 19       1.29             14
Bastrop FCI                        1.19                13       0.95                 11       1.12             14
Beaumont Low FCI                   2.66                45         1.5                29       3.07             59
Big Spring FCI                     3.57                34       1.19                 13       2.12             18
Butner Low FCI                     1.72                13         1.1                 9       2.63             20
Coleman Low FCI                    0.47                 8       0.52                 10       0.64             13
Danbury FCI                            0                0       0.59                  6       0.38              4
Dublin FCI                         2.76                31       1.27                 14       1.66             18
Elkton FCI                         2.23                39       0.65                 12         .79            18
Elkton FSL                          N/A              N/A         N/A               N/A         N/A            N/A
Forrest City FCI                   2.51                43           3                56       3.36             61
Fort Dix FCI                       1.19                41       1.05                 39       0.37             14
Jesup FSL                           N/A              N/A         N/A               N/A         N/A            N/A
La Tuna FCI                           1.6              18         .09                 1         .44             5
La Tuna FSL                         N/A              N/A         N/A               N/A         N/A            N/A
Lompoc FCI                         1.32                10       0.79                  7       0.41              4
Loretto FCI                        1.34                10       1.56                 12       0.47              5
Milan FCI                          4.89                67       4.21                 62       2.74             43
Petersburg FCI                     0.27                 3       2.76                 33       1.62             20
Safford FCI                        0.26                 2           0                 0           0             0
Sandstone FCI                      0.61                 5       0.71                  6       0.82              7
Seagoville FCI                     3.51                42       3.85                 49       2.31             26
Taft CI                            5.32                93       6.81               126        9.24            172
Tallahassee FCI                    0.20                 2       0.51                  6       0.17              2
Texarkana FCI                      1.37                18       0.45                  6       1.47             20
Waseca FCI                         0.84                 7       0.56                  6       0.47              5
Yazoo City FCI                     0.85                14       0.74                 14       0.59             11
Totals                                               565                           553                        580
Source: BOP
Data for each fiscal year excludes institutions that did not have misconduct data for the entire year.
N/A: Not activated for an entire year during the reporting period.



U.S. Department of Justice                                                                               80
Office of the Inspector General
Evaluation and Inspections Division
               Table 15. Rate and Number of Drug Misconduct Charges
                        for Minimum Security Level Institutions


           Institution                     FY 1999                  FY 2000                  FY 2001
                                                   # of                     # of                     # of
                                      Rate (%)                 Rate (%)                 Rate (%)
                                                 Charges                  Charges                  Charges
Alderson FPC                              0.35             3       0.10             1       0.26             2
Allenwood FPC                             1.27             9       2.06         15          0.42             3
Ashland FCI Camp                          2.94             8       1.45             4       0.39             1
Atlanta USP Camp                          2.05             9       3.88         19          0.20             1
Atwater USP Camp                          N/A         N/A          N/A         N/A          N/A            N/A
Bastrop FCI Camp                             0             0       3.70             6          0             0
Beaumont USP/FCC Camp                     1.78             6       3.65         14             0             0
Beckley FCI Camp                             0             0       3.97         11          1.85             5
Big Spring FCI Camp                       0.60             1       0.60             1       0.74             1
Boron FPC                                 0.32             1       N/A         N/A           N/A           N/A
Bryan FPC                                 0.48             4       0.24             2       0.12             1
Bryan FPC ICC                         No Data     No Data No Data          No Data No Data              No Data

Butner Medium FCI Camp                    1.08             3       2.29             7       0.98             3
Carswell FMC Camp                            0             0          0             0       0.46             1
Coleman Med FCI Camp                        0              0          0             0          0             0

Cumberland FCI Camp                       0.72             1       1.46             2       4.48             6

Danbury FCI Camp                             0             0          0             0          0             0
Devens FMC Camp                           N/A         N/A             0             0       1.10             1
Dublin FCI Camp                           0.82             2          0             0          0             0

Duluth FPC                                0.36             2       0.72             4       1.60             9

Edgefield FCI Camp                        1.09             3       2.19             6       1.69             6

Eglin FPC                                 0.62             5       0.47             4       0.99             9
Elkton FCI Camp                           1.14             3       1.04             4       N/A            N/A




U.S. Department of Justice                                                                         81
Office of the Inspector General
Evaluation and Inspections Division
           Institution                     FY 1999           FY 2000              FY 2001
                                                # of                 # of      Rate    # of
                                      Rate (%)          Rate (%)
                                              Charges              Charges     (%)   Charges
El Paso FPC                                 0         0     1.83             4   N/A        N/A
El Reno FCI Camp                            0         0     1.63             4   2.26         5
Englewood FCI Camp                        1.14        0       0              0   1.57         2
Estill FCI Camp                           1.75        4     0.37             1   2.09         6
Fairton FCI Camp                          1.23        1       0              0      0         0
Florence FCI Camp                         1.76        6     0.26             1   0.77         3
Forrest City FCI Camp                     N/A        N/A    0.46             1   0.88         2
Fort Dix FCI Camp                     No Data    No Data      0              0   0.27         1
Greenville FCI Camp                       1.64        4     2.17             6    N/A        N/A
Jesup FCI Camp                            0.43        2     2.43         12      0.68         1
La Tuna FCI Camp                            0         0     1.90             4      0         0
Leavenworth USP Camp                      2.66        9     5.30         19       3.0        10
Lee USP Camp                              N/A        N/A    N/A         N/A      N/A         N/A
Lewisburg USP Camp                        0.37        1       0              0   0.38         1
Lewisburg USP ICC                           0         0       0              0      0         0
Lexington FMC Camp                        0.47        1     0.43             1   1.36         3
Lompoc FCI ICC                              0         0     0.69             1      0         0
Lompoc USP Camp                           0.73        2       0              0   1.34         4
Loretto FCI Camp                            0         0     0.93             1      0         0
Manchester FCI Camp                       0.84        3     0.42             2   2.07        10
Marianna FCI Camp                           0         0       0              0   0.36         1
Marion USP Camp                           0.37        1       0              0   2.31         8
McKean FCI Camp                           2.40        6     1.69             4   2.09         4
Memphis FCI Camp                          1.04        3     2.19             6   2.61         8




U.S. Department of Justice                                                              82
Office of the Inspector General
Evaluation and Inspections Division
           Institution                       FY 1999                      FY 2000                        FY 2001
                                                      # of                         # of             # of
                                      Rate (%)                      Rate (%)             Rate (%)
                                                    Charges                      Charges          Charges
Miami FCI Camp                                  0               0            0              0        1.05             3

Montgomery FPC                              0.95                7        1.20               9        0.36             3

Morgantown FCI                              0.22                2        1.65             16         0.19             2
Nellis FPC                                  1.84                8        1.30               7        0.17             1
Oakdale FDC Camp                                0               0            0              0        0.78             1
Otisville FCI Camp                          0.97                1            0              0        0.88             1

Oxford FCI Camp                                 0               0        1.12               2        1.24             2

Pekin FCI Camp                                  0               0            0              0        1.26             3

Pensacola FPC                               0.67                3        1.47               7        1.05             6

Petersburg FCI Camp                         0.70                2        0.65               2        1.29             4

Phoenix FCI Camp                            0.37                1            0              0        1.89             3

Pollock USP Camp                             N/A             N/A          N/A            N/A         1.37             1

Schuylkill FCI Camp                         0.35                1        0.75               2        0.36             1

Seymour Johnson FPC                         1.02                5        0.37               2        1.45             8

Sheridan FCI Camp                           0.65                2        0.30               1        0.60             2

Taft CI Camp                                0.62                3        0.38               2             0           0

Talladega FCI Camp                          0.43                1        0.75               2        0.93             2

Terre Haute USP Camp                        0.66                2        1.15               4        2.40            10

Texarkana FCI Camp                              0               0        0.40               1        0.37             1

Three Rivers FCI Camp                       3.11                9        1.58               5        0.28             1

Victorville FCI Camp                         N/A             N/A          N/A            N/A              0           0

Yankton FPC                                     0               0        0.66               4        0.94             6

Yazoo City FCI Camp                          N/A             N/A          N/A            N/A             N/A        N/A
Totals                                                       150                         233                        179
Source: BOP
Data for each fiscal year excludes institutions that did not have misconduct data for the entire year.
N/A: Not activated for an entire year during the reporting period.
No Data: No information was recorded for that fiscal year in the database received from BOP.




U.S. Department of Justice                                                                                     83
Office of the Inspector General
Evaluation and Inspections Division
              Table 16. Rate and Number of Drug Misconduct Charges for
                               Administrative Institutions


        Institution                      FY 1999                        FY 2000                         FY 2001
                                Rate (%) # of Charges Rate (%) # of Charges Rate (%) # of Charges
Brooklyn MDC                          3.71                 37       2.55                 30           0.91        11
Butner FMC                             N/A               N/A         N/A               N/A            0.25          1
Carswell FMC                          0.58                   5      1.02                 11           0.54         6
Chicago MCC                           0.82                   6      1.36                 10           1.72        13
Devens FMC                                0              N/A        0.69                   5          0.96        10
Fort Worth FMC                        3.13                 46       7.14               107            5.28        83
Guaynabo MDC                          1.51                 15       1.57                 18           1.70        21
Honolulu FDC                           N/A               N/A         N/A               N/A              0           0
Houston FDC                            N/A               N/A        0.69                   4          0.21         2
Lexington FMC                           .38                  6      1.61                 28           2.36        45
Los Angeles MDC                       7.50                 76       3.25                 32           3.67        30
Miami FDC                             0.59                   9      0.52                   8          0.18         3
New York MCC                          1.60                 14       0.23                   2          0.68         6
Oakdale FDC                           0.33                   3      0.41                   4          0.10         1
Oklahoma City FTC                     0.21                   3      0.07                   1          0.08         1
Philadelphia FDC                       N/A               N/A         N/A               N/A            0.41          4
Rochester FMC                         0.62                   5      0.98                   8          2.03        16
San Diego MCC                         3.08                 28       3.17                 29           1.81        14
SeaTac FDC                            6.40                 44       1.26                   9          1.79        13
Springfield USMCFP                    1.18                 14       1.35                 16           1.51        18
Totals                                                   311                           322                        298
Source: BOP
Data for each fiscal year excludes institutions that did not have test results for the entire year.
N/A: Not activated for an entire year during the reporting period.




U.S. Department of Justice                                                                                   84
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX VII: VISITING POLICY AND PROCEDURES


         BOP Program Statement 5267.06, Visiting Regulations, requires wardens to
establish a visiting schedule for their institution. Visiting schedules among
institutions may vary depending on factors such as the security level of the
institution, the size of the inmate population, the capacity of an institution’s visiting
room, and the number of visitors. For example, most institutions we visited
scheduled visiting days during some weekdays and on weekends, while some
institutions scheduled visits seven days a week, day and evening hours. All inmates
receive contact visits, unless an inmate has been charged with or found guilty of a
prohibited act related to visiting procedures or otherwise has had visits restricted by
the Disciplinary Hearing Officer.91 If the visiting room is not overcrowded, an inmate
may visit the entire day, approximately six hours, or until visiting hours are over. If a
large number of visitors are waiting, inmates may be asked to end their visits to give
other inmates the opportunity to visit. At the institutions we visited, inmates operated
on a point system where each inmate receives 30 visiting points per month to be
used toward visits. Each point is equal to one hour of visiting. On weekends or
holidays, each hour is worth two points.

       Each inmate has a list of approved visitors, which includes immediate family
members and other relatives (numbers are unrestricted), and up to ten friends and
associates, but the warden may make an exception to this number.92 The inmate
must submit a list of proposed visitors to the designated BOP staff member who will
conduct a background check on all visitors who are not immediate family. Generally,
the investigation consists of a NCIC criminal background check on all non-family
members. Once visitors are approved, the names are added to an automated list.
Correctional officers who process visitors into the institution and visiting room use
the automated list to verify the visitor’s identity. For each approved visitor, the
inmate is provided with a copy of visiting guidelines, which the inmate must send to
each visitor.

         There are restrictions on the items that visitors are permitted to bring into the
institution. The visiting guidelines include notification to the visitor that, “a penalty of
imprisonment for not more than 20 years, a fine, or both, can be imposed for
providing or attempting to provide any item(s) to an inmate without the knowledge
and consent of the warden.” Warnings against attempts to smuggle contraband are
also posted in the lobby area and visitors must sign a form that they understand the
conditions of their visit. Some institutions have posted news articles and pictures in

        91
             ADX Florence and USP Marion do not allow contact visits.
        92
           Immediate family members include: mother, father, step-parents, foster parents, bothers,
sisters, spouse, and children. Other relatives include: grandparents, uncles, aunts, cousins, and in-
laws.


U.S. Department of Justice                                                                      85
Office of the Inspector General
Evaluation and Inspections Division
plain view of incoming visitors depicting other visitors’ arrests and convictions for
smuggling drugs. Although visitors are not searched, a correctional officer at the
front lobby visually checks the personal property of visitors. All visitors must walk
through a metal detector. As part of a pilot project, some institutions use ion
spectrometry technology that can detect trace amounts of drugs. At these
institutions, visitors are randomly screened by this device as part of the visitor in-
processing procedures.

        On visiting days, an institution has several officers assigned to perform
visiting functions. In general, officers are assigned to:

        •    Process the visitors into the institution;

        •    Escort the visitors to the visiting room;

        •    Pat search or strip search each inmate prior to entering the visiting room,
             later escort the inmate to the bathroom, as needed, and strip search the
             inmate upon exiting the visiting room;

        •    Sit at the visiting room desk to check-in each visitor’s name against an
             automated visiting list; and

        •    Roam throughout the visiting room to observe the visits.

      Video cameras inside the visiting rooms mounted on the walls or ceilings
enhance the observation of visits. Video monitoring from these cameras is
conducted by the correctional officers assigned to the visiting room or conducted
remotely by officers located in other areas of the institution such as in the Control
Center or the Intelligence office. Some visiting rooms have two-way glass, which
enables officers to covertly observe visiting room activities.

       All institutions make available a variety of food items that can be purchased
by the inmates’ visitors from several vending machines located inside the visiting
rooms. Inmates are not permitted to handle any cash inside the institution. Only the
inmates’ visitors are permitted to handle and place money in the vending machines,
although visitors can purchase food items for the inmate and themselves.

       The visiting room area has separate bathrooms for visitors and inmates.
Visitors use their bathrooms unescorted. Inmates must be escorted by a
correctional officer and personally observed while using the facilities.

        Once the visit is concluded, each inmate is escorted to a processing area and
strip searched to ensure no contraband is introduced into the institution.




U.S. Department of Justice                                                          86
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX VIII: MAIL POLICY AND PROCEDURES


         The BOP Program Statements 5266.09, Incoming Publications; 5265.11,
Correspondence; and 5800.10, Mail Management Manual, provide guidance to
institutions for screening mail for contraband, to include drugs. The BOP
encourages correspondence that is directed towards socially useful goals and
permits inmates to subscribe to or receive publications without prior approval. As
a result, inmates enjoy access to a wide-range of mail privileges, including first-
class mail, packages, books, magazines, newspapers, and unsolicited mail.

       The ISOs inspect inmate mail for contraband (e.g., drugs and weapons)
and deliver inmate mail to the housing units for distribution to inmates by unit
management staff. Delivery of inmate mail ordinarily is to be accomplished
within 24 hours of receipt. 93 Generally, high security level mailrooms are staffed
with at least three ISOs, while medium security level mailrooms are generally
staffed with two ISOs.

         When the mail initially arrives at the institution, the ISO(s) first x-ray the
trays or bins containing inmate mail. This x-ray inspection occurs outside the
institution’s perimeter fence, typically in an institution’s warehouse facility or at an
institution’s front entrance. The primary objective of this x-ray inspection is to
detect weapons and explosive devices. Attempts to introduce drug contraband
concealed within mail may be detected during this initial inspection if an x-ray
scan produces a suspicious image triggering a further visual and manual
inspection. However, most x-ray scanning technologies in use at the BOP’s
institutions are better suited to detect weapons and explosive devices rather than
drugs.

       Inside the institution’s mailroom, the ISOs first compare each individually
addressed mail item to a current SENTRY inmate roster to both confirm the
inmate name and to ensure that they only open and inspect mail for inmates who
are presently housed at that institution. The ISOs are required to open all
incoming mail (except legal mail, which must be opened in the presence of the
inmate), newspapers, magazines, books, and packages and inspect the material
for contraband prior to distribution. Drug contraband finds typically occur during
these visual and manual inspections. For example, Figure 8 on the next page
shows an attempt by an inmate’s outside contact to introduce black tar heroin




        93
           According to the BOP Program Statement 5800.10, Mail Management Manual,
“Delivery of letters may not be delayed and shall ordinarily be accomplished within 24 hours of
receipt.”


U.S. Department of Justice                                                                        87
Office of the Inspector General
Evaluation and Inspections Division
into an institution by hiding the drug inside a greeting card mailed to the inmate.
This attempted drug introduction was detected by the institution’s mailroom staff.

            Figure 8. Black Tar Heroin Hidden Inside a Greeting Card




Source: BOP



       In addition, Figure 9 shows an attempt (also successfully detected by
mailroom staff) by an outside contact to introduce morphine into an institution by
hiding the drug underneath a postage stamp affixed to a letter addressed to an
inmate. Both Figure 8 and Figure 9 illustrate the need for thorough mail
inspection procedures to detect drug introductions into BOP institutions.

                     Figure 9. Morphine Hidden Beneath Postage Stamp




Source: BOP




U.S. Department of Justice                                                       88
Office of the Inspector General
Evaluation and Inspections Division
Source: BOP



        After each mail item is inspected, all mail items are subject to random
reading by the ISOs (except legal mail), or held for reading by intelligence
officers if the inmate is flagged in SENTRY. The primary objective of an
inspection is to detect contraband, while the objective of random reading is to
gather intelligence information about inmates’ criminal activities and other
security concerns within an institution.

         Outgoing mail from inmates from low and minimum security level
institutions may be sealed by the inmates. Outgoing mail, except legal mail, from
inmates in a medium or high security level institution must be left unsealed by the
inmates and is subject to inspection and random reading. However, inmates’
outgoing mail regardless of the institution’s security level may be inspected and
read upon approval of the warden, if there is evidence to suggest that criminal
activity is occurring or there is a threat to the orderly running of the institution.




U.S. Department of Justice                                                        89
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX IX: REQUIREMENTS FOR AUTHORIZING
                  VOLUNTEERS AND CONTRACTORS


VOLUNTEERS

       According to BOP Program Statement 5300.20, Volunteers and Citizen
Participation Programs, the BOP has two classifications of volunteers:

       Level l Volunteers are authorized to perform a service four times or less
a year for an institution, community correction center, contract detention center,
or administrative office. Ordinarily, a Level I volunteer is an adult 18 years or
older (except at high security and administrative institutions where volunteers
must be at least 21 years of age).

       According to BOP policy, Level I volunteers are normally exempt (at the
warden's discretion) from the background requirements discussed below for
Level II volunteers. As a result, the institutions must make appropriate staff
arrangements to provide adequate program supervision to these volunteers.

        Training for Level I volunteers consists of receipt and completion of a
“Notification to Visitors” form, as well as a brief oral orientation provided by a
department program manager prior to the visit to provide the volunteer program
or service.

      Level I volunteers are ordinarily not granted permanent photo identification
badges. Level I volunteers require staff escort to and from the appropriate
program department and require constant supervision while inside the institution.

       Level ll Volunteers are authorized to perform service more than four
times per year for an institution, administrative office or community corrections or
contract detention center. Ordinarily, a Level I volunteer is an adult 18 years or
older (except at high security and administrative institutions where volunteers
must be at least 21 years of age).

      The following steps must be completed before the volunteer is permitted
to engage in the volunteer activity:

        •    NCIC database check,
        •    Fingerprint Check. Policy sets a time frame of 45 work days for
             completion of background investigation items for volunteer applicants.
             However, fingerprint check results do not need to be received prior to
             allowing volunteers to serve an institution if all other background
             investigation requirements are successfully completed.
        •    Application for Volunteer Service,

U.S. Department of Justice                                                        90
Office of the Inspector General
Evaluation and Inspections Division
        •     Volunteer Interview Summary,
        •     Letters of Endorsement,
        •     Volunteer Agreement Training Certification Form,
        •     Signature, Certification and Release of Information Form,
        •     Certification of Receipt for Standards of Employee Conduct, and
        •     Current documentation of credentials or license for those volunteering
              to provide professional services.

       Level II volunteers are required to complete a total of four hours of
program area and orientation training, as well as two hours of annual refresher
training each successive year.

        Level II volunteers can be issued either an “escorted” or “unescorted”
(approved by the warden) institution volunteer photo identification badge. Level
II volunteers classified as “escorted” require staff escorts to and from the
appropriate program department. Staff are required to make frequent, irregular
visual checks while escorted Level II volunteers conduct their programs. The
BOP states that the majority of Level II volunteers are assigned “escorted” status.
Level II volunteers receiving “unescorted” status are less frequent and only
issued to those volunteers with a proven record. This status requires approval by
the warden. These “unescorted” volunteers are able to report directly to their
program area following front entrance processing.

       Ex-Offenders. Institutions also may allow ex-offenders to volunteer. In
addition to completion of training and background investigations, the following
items must be completed:

        •     Documented period of at least three years of crime-free conduct after
              release, or a favorable report upon completion of probation or parole,
        •     Documentation of current employment or academic status,
        •     Fully completed application for federal employment or resume, and
        •     Check to ensure the ex-offender has no separatees within the
              institution.94

CONTRACTORS

         The BOP has identified the following three types of contracts that its
institutions may initiate: individual, construction and maintenance, and total or
partial program services.

      Individual Contracts include all contracts with individuals delivering
compensated services to an institution where delivery of these services requires
frequent and unsupervised contact with inmates.
        94
             Separatees are inmates who are on separation status from each other for security
reasons.

U.S. Department of Justice                                                                      91
Office of the Inspector General
Evaluation and Inspections Division
       The following background investigative procedures and forms are required
to be completed prior to authorizing an individual contractor permission to enter
an institution:

        •    NCIC database check,
        •    Name check,
        •    Fingerprint check,
        •    Law enforcement agency checks,
        •    Vouchering of employers over past five years,
        •    Completed application for federal employment,
        •    Completed contractor pre-employment form,
        •    Release information, and
        •    Urinalysis test for the detection of drug use.

      Short-term contracts for individual services that will last less than 30 days
and contractors who will be escorted at all times while inside the institution, or will
be outside the institution, are subject only to the following requirements:

        •    NCIC database check, and
        •    Completed contractor pre-employment form.

        BOP policy allows wardens to exercise discretion in granting exemptions
to the required investigative procedures for long-term individual contractors
(three or more years), and for consulting physicians who enter an institution on
an infrequent basis.

       Construction and Maintenance Contracts include all contracts involving
construction/maintenance projects of institutional facilities, which are advertised
and granted competitively through appropriate federal government and
contracting regulations. These contracts typically involve major projects where
construction and maintenance crews have little or no inmate contact, and are
subject to close BOP supervision and monitoring.

       The following background investigative procedures and forms are required
to be completed for all contractors’ crew members prior to authorizing permission
to enter an institution:

        •    NCIC database check,
        •    Name check,
        •    Fingerprint check,
        •    Completed application for federal employment,
        •    Completed contractor pre-employment form, and
        •    Release information.



U.S. Department of Justice                                                          92
Office of the Inspector General
Evaluation and Inspections Division
       A urinalysis test for the detection of drug use is not required for
construction/maintenance contractors and crew members.

        BOP policy allows wardens to exercise discretion in granting exemptions
to the required investigative procedures for contractors who do not enter the
secure perimeters of an institution and do not have inmate contact.

       Total or Partial Program Services Contracts include the contracting of
food and medical services for the delivery of program services (e.g., preparing
food for inmates) that require frequent and unsupervised contact between the
contractor’s employees and inmates.

         The following background investigative procedures and forms are required
to be completed prior to authorizing individuals involved in the delivery of
contracted food and medical services within an institution permission to enter an
institution:

        •    NCIC database check,
        •    Name check,
        •    Fingerprint check,
        •    Law enforcement agency checks,
        •    Vouchering of employers over past five years,
        •    Completed application for federal employment,
        •    Release information, and
        •    Urinalysis test for the detection of drug use.

        BOP policy allows wardens to exercise discretion in granting exemptions
to the required investigative procedures for long-term individual contractors
(three or more years), and for consulting physicians who enter an institution on
an infrequent basis.




U.S. Department of Justice                                                     93
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX X: GLOSSARY OF ACRONYMS


ACA              American Correctional Association
ADX              Administrative Maximum
A.F.G.E.         American Federation of Government Employees
BJS              Bureau of Justice Statistics
BOP              Federal Bureau of Prisons
CI               Correctional Institution
DATS             Drug Abuse Treatment Specialist
DOJ              Department of Justice
DSM-IIIR         Diagnostic and Statistical Manual for Mental Disorders (3rd Edition)
DSM-IV           Diagnostic and Statistical Manual for Mental Disorders (4th Edition)
FBI              Federal Bureau of Investigation
FMC              Federal Medical Center
FCI              Federal Correctional Institution
FDC              Federal Detention Center
FPC              Federal Prison Camp
FTC              Federal Transportation Center
FY               Fiscal Year
ISO              Inmate Systems Management Officer
LSCI             Low Security Correctional Institution
MCC              Metropolitan Correctional Center
MDC              Metropolitan Detention Center
NCIC             National Crime Information Center
OIA              Office of Internal Affairs
OIG              Office of the Inspector General
OST              Office of Security Technology
R&D              Receiving and Discharge
RDAP             Residential Drug Abuse Program
SIA              Supervisory Investigative Agent
SIS              Special Investigative Supervisor
TDP              Test Designated Position
USMCFP           United States Medical Center for Federal Prisoners
USP              United States Penitentiary




 U.S. Department of Justice                                                         94
 Office of the Inspector General
 Evaluation and Inspections Division
          APPENDIX XI: BOP’S RESPONSE TO THE DRAFT REPORT


                                                   U.S. Department of Justice

                                                   Federal Bureau of Prisons


Office of the Director                             Washington, DC 20534

                                                   December 6, 2002




MEMORANDUM FOR PAUL A. PRICE
               ASSISTANT INSPECTOR GENERAL FOR EVALUATION AND
               INSPECTIONS

FROM:                    (original signed)
                          Kathleen Hawk Sawyer, Director
                          Federal Bureau of Prisons

SUBJECT:                  Response to the Office of Inspector General's
                         (OIG) Draft Report: The Bureau of Prisons' Drug
                          Interdiction Activities

The Bureau of Prisons has reviewed your draft report entitled,
The Bureau of Prisons' Drug Interdiction Activities. Although
the report contains some good recommendations, we are unable to
agree with several for reasons which will be more fully explained
within this response. As always, we wish to work with the OIG in
resolving these issues and look forward to closing this review to
the mutual satisfaction of both our offices.

We were somewhat surprised with the methodology used to conduct
this review. We fully appreciate the benefit of staff
interviews/opinions in our own research but believe the report
relies too heavily on staff interviews/opinions as primary
evidence in supporting the recommendations. Our experience with
internal review has shown staff interviews/opinions are not the
best form of evidence and should be used to augment more
statistically sound sources. Staff opinions naturally reflect a
very parochial view, and though this view is often essential to a
complete understanding of the issue at hand; we consider it ill-
advised to use such testimony as a basis for national policy
making.




                                                                                95
There is also an absence of statistical support for many of the
recommendations which was disturbing considering the magnitude of
changes recommended. Non-contact visitation, and pat searching
visitors and staff, involve changes to Bureau culture, practices,
and an impact on resources we do not feel are necessary. The
report provides no evidence these tactics deter the introduction
of drugs in other correctional systems and no testimony is
presented by state officials regarding the negative or positive
aspects of these approaches on their systems. The absence of
statistical support is most striking in the comparisons between
selected state systems and the Bureau. Drug testing procedures,
and test result reporting, pat search procedures and results, and
the uses of such data vary greatly between systems. Without
access to the data and sources used to support these
recommendations, we cannot verify how similar systems/situations
are being compared.

The limited scope of this review and subsequent recommendations
provide us with the opportunity to highlight the significant
progress we are making in our efforts against drug possession,
use and introduction. The Bureau is constantly seeking new and
reliable technologies to deploy in this effort, as well as better
ways to educate staff and inmates on the dangers drugs pose for
their lives and the work place. Although we agree there is room
for improvement, we do not believe our efforts are inadequate or
illustrate a lack of progress in this area.

Recommendation #1: The Director, BOP, should consider restricting
contact visits for specific inmates and replace contact visits
with non-contact visits for certain inmates or institutions based
on an assessment of the individual institution's drug smuggling
problem.

Response: The Bureau agrees with this recommendation and will
consider restricting contact visits for specific inmates. The
Bureau currently employs non-contact visitation for specific
inmates and institutions; however, further restrictions involving
non-contact visits could require the Bureau to incur significant
costs with regard to staffing and construction. The benefits of
this recommendation are considered minimal as inmates found
guilty of drug use or introduction of drugs would most likely not
be permitted visitation as a result of our imposed progressive
loss of visiting sanctions. Additionally, instituting non-
contact visiting for those institutions with a higher drug usage
rate unfairly subjects the entire inmate population to a sanction
applicable to only a small percentage of offenders. The limited
scope of this review and the subsequent recommendation fails to
recognize the adverse impact non-contact visiting would have for

                                2




                                                                96
an entire population not sanctioned with a charge associated with
the use, possession or introduction of drugs. Therefore, the
Bureau of Prisons does not believe expanding our current policy
would provide an acceptable solution for resolving drug smuggling
problems without causing significant concerns in other areas of
prison management.

The Bureau has consistently sought to encourage family ties by
placing inmates as close to home as possible and otherwise
facilitating contact with their families and communities through
visitation. Additionally, family members, as a natural support
group for offenders have a tremendous potential for assisting in
the reintegration of offenders to community life. Visitation is
considered important for maintaining social and family ties,
which are in turn important for inmates' success within and
outside of correctional facilities.

Recommendation #2: The Director, BOP, should consider implementing
pat searches of visitors.

Response: The Bureau agrees with this recommendation, and will
consider pat searching visitors. The review identified visitors
as a primary source of drug introduction. The Bureau concurs
with this observation. However, the report appears to lack
supportive documentation indicating pat searches of visitors
would be a successful drug interdiction method. As we make our
determination in consideration of this recommendation, we will
analyze the following information in our attempt to make the best
decision: additional technologies available to detect drugs;
increased staff requirements necessary to implement; and use of
more aggressive and proactive investigations, urine surveillance
testing, and progressive administrative/legal actions.

Recommendation #3: The Director, BOP, should invest in
technology (such as cameras, monitors, ion spectrometry, or other
emerging drug detection technologies) to provide institutions
with a greater capability to screen and monitor visitors. The
BOP should also ensure that existing technologies, such as ion
spectrometry, cameras, monitors, and visitor monitoring rooms are
used to their maximum capacity. Specifically, when ion
spectrometry machines break down, they should be repaired in a
timely manner. In addition, they should be used to detect drugs
in other areas of the institutions. Cameras should be positioned
to eliminate any blind spots in the visiting room. BOP should
ensure that camera monitors and visitor monitoring rooms are used
to view visits in progress.

                                3




                                                                   97
Response: The Bureau agrees with this recommendation. The
Bureau's Office of Security and Technology identifies and tests
new technologies which may provide reliable and effective
resources in our effort to eliminate the introduction of drugs.
Each of the technologies identified in the review are currently
approved for use throughout the Bureau. Timely repairs of
malfunctioning equipment will continue to be a priority.
Purchase options for drug detection equipment which is low-
maintenance, easily transported, and easily operated will be
explored to greater enhance narcotics prevention throughout
institutions. The use of observational cameras with recording
capabilities has been extremely valuable to visiting room staff,
allowing them clandestine zoom/pan observation of suspicious
activities. Although blind areas may be present in visiting
rooms, staff are authorized to arrange seating assignments of
visitors and inmates to meet the agency's security concerns. The
Bureau supports and continues to pursue each of these initiatives
but is restricted from broad and universal application of
technological enhancements by the funding allocated to the
agency.

Recommendation #4: The Director, BOP, should staff visiting
rooms with enough correctional officers so that sufficient direct
observation and monitoring of each visit can occur.


Response: The Bureau agrees with this recommendation.
Institutions are provided the local discretion to determine the
appropriate staffing level of visiting rooms based on use,
available intelligence, and should ensure proper monitoring.

Recommendation #5: The Director, BOP, should implement a policy
that restricts the size and content of property staff bring into
BOP institutions.

Response: The Bureau agrees with this recommendation. The
agency will develop and negotiate policy with the Union
restricting the size and content of staff property allowed inside
the institution. The Bureau anticipates completion of this
requirement by December 2004.

Recommendation #6: The Director, BOP, should implement a policy
requiring searches of staff and their property when entering
institutions. In addition to manual searches, the BOP should
consider using ion spectrometry and all other available
technology when searching staff.

Response: The BOP does not agree with this recommendation,
however, as noted in #5, we agree with restricting the size and

                                4



                                                                   98
content of property staff bring into the institution.
Implementing staff pat searches requires us to consider the
overall impact to the agency. Prior to considering such a major
policy change for the agency, the Bureau would request OIG
provide formal evaluation data from states who currently have
such policies in effect to include pre/post studies of drug
urinalysis rates prior to and after implementation of a staff
search policy. Without this type of detailed information on
which to base a decision, the Bureau strongly opposes this
recommendation. This recommendation appears to be based on a
limited number of interviews and surveys without considering the
impact this would have on the agency or whether it would be a
successful solution for the “small” number of drug introductions
by staff. Overall, staff morale will suffer thereby creating
unwarranted concerns in areas other than drug detection.
Additionally, gender specific issues, the intrusive nature of
such a search (comparable to those mentioned when discussing pat
searching visitors), as well as issues regarding the impact such
searches have in the overall reduction of drug introduction, are
raised. Based on these concerns, the Bureau believes a more
effective and productive means to deter staff introduction of
drugs would be through the reduction of staff property entering
the institution coupled with the processes currently in place,
such as background investigations, integrity training, and other
investigative procedures.

Recommendation #7: The Director, BOP, should implement random
drug testing for staff.
Response: The Bureau agrees with this recommendation. On
November 7, 2002, correspondence was issued to all institution
Chief Executive Officers regarding the impending implementation
of the Drug Free Workplace Program. The approximate
implementation date of this program is January 2003.

Recommendation #8: The Director, BOP, should implement a policy
that eliminates unsolicited mail.

Response: The Bureau agrees with this recommendation, and is
currently determining what the agency can do legally to limit
such mail. We will pursue the necessary regulatory and policy
changes to effect such limits as appropriate. Based upon
research, legal issues, and the implementation of policy to
include union review, we expect an implementation date of
December 2005.

Recommendation #9: The Director, BOP, should require additional
training for BOP staff to search mail and detect drugs.

                                5



                                                                   99
Response: The Bureau agrees with this recommendation, and has
taken steps to ensure training classes for inmate systems
officers include additional training. The Bureau implemented
this requirement in November 2002.

Recommendation #10: The Director, BOP, should test mail room
drug detection technologies.

Response: The Bureau agrees with this recommendation. The
Inmate Systems Management Branch will work with the Office of
Security and Technology to conduct research on mail room drug
detection technology, conduct tests at appropriate locations,
determine if technology is applicable Bureauwide, and present
their findings to Bureau's Executive Staff. The Bureau
anticipates a completion date of December 2005.

Recommendation #11: The Director, BOP, should maintain data, via
improved SENTRY tracking, on the number of inmates who are
diagnosed with a drug abuse problem and are referred for drug
treatment, the number of inmates who participate in drug
treatment, and the number who successfully complete drug
treatment.

Response: The Bureau agrees with this recommendation. The
Bureau currently has plans in place that comply with the intent
of this recommendation, though through different procedures than
are specified in the recommendation. The Bureau tracks, via
SENTRY, the number of inmates who participate and complete all
drug abuse education and treatment components. In addition, the
Psychological Data System (PDS) is used by clinical staff to
document a clinical diagnosis for inmates seeking and
participating in Bureau psychological services.

Two policy changes are currently under review that will improve
the tracking of inmates entering the Bureau with substance use
disorders:

First, the Bureau has drafted a proposed regulation that would
expand the group of inmates who must participate in the drug
education course. The current categories include: (1) referral
by the sentencing judge; (2) a violation of supervised release
due to drug use; and (3) evidence that drugs or alcohol
contributed to the instant offense. The proposed regulation
includes one additional category for inmates with a history of
substance use.

                                6




                                                                100
Second, drug abuse program policy has been revised and submitted
for approval to improve the sequence of identification,
screening, assessment and referral of inmates with drug use
disorders. This sequence will occur prior to an identified
inmate's completion of the drug education course.

With the expansion of the drug education categories, the Bureau
will create a PDS database to track inmates with a substance
abuse problem, or who receive a diagnosis for a substance abuse
disorder, and are referred to the appropriate course of
treatment.

The final rule to allow the additional drug education category
was forwarded to DOJ on October 26, 2001. These policy revisions
will take between 1 to 3 years to implement. The Bureau
anticipates completion of this requirement by December 2005.

Recommendation #12: The Director, BOP, should sufficiently staff
non-residential drug treatment programs based on a combination of
the DATS staffing guidelines and the number of inmates at each
institution who have been identified in SENTRY as needing drug
treatment.

Response: The Bureau does not agree with this recommendation.
The drug abuse program policy (5330.10), establishes staff-to-
inmate ratios for residential drug abuse programs only.
Residential programs provide intensive, long-term treatment with
no less than one group a day with a specified group of
participants.

Non-residential treatment is a less intensive effort (see
response to recommendation 13). It is flexible in application,
based on the needs of the inmate and the institutional
environment. Non-residential drug abuse treatment requires the
institution's drug abuse program coordinator to work closely with
the drug abuse treatment specialist in the development of the
program structure and content. Every institution is provided a
drug abuse treatment specialist for the sole purpose of providing
drug abuse education and non-residential treatment.
Additionally, each institution is provided with a drug abuse
program coordinator to oversee the programs and their compliance
with policy.

To bring the current institution complement to the staffing
guidelines for residential drug treatment is cost prohibitive.
To do so would add an additional 200 staff to drug abuse programs
at an estimated annual cost of $13,463,000, based on 2003
salaries and benefits. This initiative is not funded.

                                7




                                                              101
Recommendation #13: The Director, BOP, should revise Program
Statement 5330.10, Drug Abuse Programs Manual, to require that
non-residential drug treatment is provided to inmates in the
general population, in addition to transitional services for the
RDAP graduates. The program statement should include a curriculum
for non-residential drug treatment and guidance regarding the
minimum number of sessions and the minimum number of weeks'
duration for the groups. The Director, BOP, should also increase
emphasis on self-help groups to enhance the overall drug treatment
program and the inmates' recovery and rehabilitation.

Response: The Bureau does not agree with this recommendation.
The Bureau designed its drug abuse treatment strategy based on
literature and research that defines the key elements for
successful drug abuse treatment outcomes. These elements are the
foundation for the Bureau's residential drug abuse program. To
ensure the Bureau has effective treatment programming, the
majority of resources are directed to residential treatment
programs that include these evidence-based elements: a
cognitive-behavioral philosophy of treatment; unit-based programs;
staff-to-inmate ratios of 1:24; comprehensive assessment; program
participation of 9 months and 500 hours minimum; individual
treatment plans; a minimum of 3 hours of drug treatment
programming each day; core group and individual treatment;
criminal lifestyle intervention; lifestyle balance training;
transitional living issues; full team reviews; and treatment
occurring at the end of the offender's sentence, followed by a
comprehensive community transition program.

The non-residential drug abuse treatment program was never
considered to be a parallel program to the residential program.
Non-residential treatment was designed to provide maximum
flexibility to meet the needs of the offender, particularly those
individuals who have a relatively minor or low-level substance
abuse impairment. These offenders do not require the intensive
levels of treatment needed by individuals with moderate-to-severe
addictive behavioral problems. A second purpose of the program
is to provide those offenders who have a moderate to severe drug
abuse problem with the supportive program opportunities during the
time they are waiting to enter the residential drug abuse program
or for those who have little time remaining on their sentence and
are preparing to return to the community.

That does not mean non-residential drug abuse treatment and self-
help programs are not of use to many inmates who are recruited
into the program through admissions & orientation or by way of a
staff referral. By policy, (P.S. 5330.10, Chapter 1, pg. 4), all

                                8



                                                               102
institutions in the Bureau employ a drug abuse treatment
specialist who is responsible for providing drug abuse education
and non-residential drug abuse treatment services to the inmate
population under the supervision of the drug abuse treatment
coordinator.

Guidance for non-residential treatment format, content and
structure is provided in policy (P.S. 5330.10, Chapter 4, pg. 1,
4.2). This includes time frames, clinical topics and formats, and
direction in the use of the drug abuse program curriculum.

In 1991 a new drug abuse program curriculum was released offering
a facilitator's guide and inmate journals that can be used in non-
residential treatment programs. A further revision to the
curriculum now underway, will improve the applicability and
guidance for drug abuse treatment specialists and drug abuse
program coordinators in the structure and use of the curriculum in
non-residential treatment. Additionally, policy has been revised
and submitted for approval to further detail the role of the drug
abuse program coordinator in non-residential drug abuse treatment
in terms of program design, development, monitoring, oversight,
and clinical and administrative supervision.

Self-help groups are offered for Bureau offenders in support of
the treatment opportunities that are available. Self-help
volunteers provide services in the institution and offer support
in the community, upon the inmate's transfer to the community
corrections center. Of all the Bureau's volunteers, approximately
10 percent provide self-help activities and support to inmates
with substance use problems.

The Bureau believes that Program Statement 5330.10, Drug Abuse
Programs, Inmate, already addresses each of the recommendations
detailed. However, the policy and the drug treatment curriculum
are being revised, and the Bureau will provide further definition
for the drug abuse coordinators as it relates to non-residential
drug abuse treatment. The Bureau anticipates issuance of the
revised policy and curricula by December 2004.

Recommendation #14: The Director, BOP, should develop incentives
for participation in non-residential drug treatment and
consequences for non-completion, with the objective of increasing
the number of inmate volunteers for drug treatment. As part of
the incentives and consequences, the Director, BOP, should
consider adding a separate score for drug treatment participation
in the inmate's annual Security Designation and Custody
Classification Review.

                                9




                                                               103
Response: The Bureau does not agree with the first part of this
recommendation. Creating incentives and sanctions for non-
residential treatment, would in essence, be a disincentive to
enroll in residential programs for those inmates with the most
severe treatment need. The Bureau concentrates its treatment
resources into the residential program, a program that has been
proven effective within a correctional environment. To better
identify and treat all inmates who need residential/intensive
treatment, rather than just those who volunteer, the Bureau's
Executive Staff approved in 1998 a balanced approach of
incentives and disincentives to encourage inmate participation in
the Bureau's drug treatment programs. The Bureau is awaiting
rules clearance for the incentives and disincentives program from
the DOJ prior to implementation.

The implementation plan includes identifying inmates with a
substance use disorder, and placing them either directly into (or
on the waiting list for) the residential drug abuse program.
Treating inmates with severe drug disorders with a non-
residential program is ineffective. These individuals, who are
also criminals, require intensive, long term, structured
treatment. Using a less intensive treatment option does a
disservice to the inmate and to the community. Therefore, the
Bureau has concentrated incentives for residential treatment
involvement.

The Bureau is in the process of modifying the Security
Designation and Custody Classification form to reflect an
inmate's participation in all program areas in the Bureau. This
will include an inmate's participation in drug abuse treatment
programming.

The Bureau anticipates policy/program implementation will be
completed by December 2005.

Recommendation #15: The Director, BOP, should consider the other
opportunities to improve drug interdiction activities for the R&D
and warehouse areas, the rear gate, volunteers, contractors, and
institution intelligence operations. The BOP also should
consider another pilot test of canines as a drug detection
technique for its institutions.

Response: The Bureau partially agrees with this recommendation.
As outlined in the response to Recommendation #3, the Bureau
supports the establishment of new initiatives in the pursuit of
reducing drugs within the institutions. Canine units are a
resource each region is currently authorized to pursue at one
institution. Although authorization is present to maintain a

                                10




                                                                  104
canine program at one facility per region, we do not believe an
expansion of this policy is appropriate at this time.
Specifically, canine units require a significant amount of
financial and staff resources. Routine expenditures involving
training of both staff and the canine, purchase and subsequent
care is a major concern when determining the overall
effectiveness of the program. Additionally, these resources are
usually available within the local community for use upon
request. This resource provides a service to the Bureau and also
provides local law enforcement the opportunity to train and test
their canines. We utilize these valuable resources and believe
this cooperation strengthens our efforts of reducing drugs and
enhances our relationship with local law enforcement.

If you have any questions regarding this response, please contact
Michael W. Garrett, Senior Deputy Assistant Director, Program
Review Division, at (202) 616-2099.




                               11




                                                               105
     APPENDIX XII: OIG’S ANALYSIS OF THE BOP’S RESPONSE


        On October 31, 2002, the Office of the Inspector General (OIG) sent copies of
the draft report to the Federal Bureau of Prisons (BOP) with a request for written
comments. The BOP responded on December 6, 2002. Of the report’s 15
recommendations, the BOP agreed with 10, partially agreed with 2, and disagreed
with 3 recommendations. The BOP’s disagreements largely concern the report’s
recommendations for searches of staff and their property when they enter BOP
institutions and the increased use of non-residential drug treatment programs. In
addition, the BOP expressed general concerns regarding the methodology upon
which our recommendations are based. Our analysis of the BOP’s response
follows.

        With regard to the methodology, the BOP’s response states that while the
BOP appreciated the benefit of staff interviews and opinions, our report “relies too
heavily on staff interviews/opinions as primary evidence in supporting the
recommendations.” The BOP asserts that such interviews “naturally reflect a
parochial view.” The BOP’s response also states that staff interviews/opinions are
not the best form of evidence and “should be used to augment more statistically
sound sources…we consider it ill-advised to use such testimony as a basis for
national policy making.” The BOP’s response states that our recommendations
involve changes to BOP culture, practices, and resources, and there is “an absence
of statistical support for many of the recommendations which was disturbing
considering the magnitude of changes recommended.”

        We disagree with the BOP’s assertions. Our methodology included not only
staff interviews but also direct observation of BOP operations, review of cases
involving introduction of drugs into BOP institutions, and interviews of other federal
law enforcement officials, such as agents from the Federal Bureau of Investigation
(FBI) and the OIG with responsibility for investigating the introduction of drugs into
BOP institutions. We also reviewed information about the practices of 17 state
correctional systems that employ various methods of drug interdiction. In addition,
we conducted statistical analyses of existing BOP data in our assessment of its drug
interdiction strategy, including an extensive statistical analysis of positive inmate
drug tests and drug misconduct charges; data analysis of drug finds in institutions;
analysis of drug cases involving visitors, inmates, or staff; analysis of drug
overdoses; and analysis of the number of inmates treated in relation to the number
of inmates estimated to have drug problems. We also evaluated the BOP’s drug
interdiction strategy to identify the activities it uses to reduce the flow of drugs into
institutions. In many cases, we found that interdiction activities used by the states
are not employed by the BOP.




U.S. Department of Justice                                                        106
Office of the Inspector General
Evaluation and Inspections Division
          The BOP’s response appears to suggest that a recommendation is valid only
if it is based on statistical evidence. We believe such a perspective is too narrow.
First, the existing data and available statistical studies do not measure the impact of
individual interdiction activities. When states have attempted to measure the
effectiveness of specific interdiction activities, they have had difficulty isolating the
effect of one interdiction activity from another interdiction activity or group of
interdiction activities that are employed simultaneously. The BOP experienced this
same difficulty when testing the ion spectrometry technology to randomly screen
visitors. In its report on the ion spectrometry pilot project, the BOP stated, “Although
we conclude that the visitor drug testing program was a significant factor in the
decreases [of inmates’ positive drug tests], given the research design, we cannot
precisely say how much of the decrease was due to the use of ion spectrometry and
how much was the result of other programmatic changes in the Bureau’s drug
policy.”

        Moreover, although the information from the state correctional systems does
not evaluate the effectiveness of each individual interdiction activity, the state
information does show that a mix of interdiction activities, many of which are similar
to the ones we recommend, can reduce the amount of drugs entering institutions as
measured by rates of inmates’ positive drug tests. For example, one study
measured the impact of the Pennsylvania state correctional system’s implementation
of its Drug Interdiction Program, which included activities similar to ones we
recommend, including searches of visitors and staff. The study found that the
combination of interdiction activities Pennsylvania implemented between 1996 and
1998 reduced the percentage of inmates who had drugs in their system, as tested by
inmate hair samples, from 7.8 percent to 1.4 percent. See “Reducing Drugs in
Prisons,” National Institute of Justice Journal, October 1999. While the study did not
attempt to differentiate the effectiveness of each interdiction activity because the
activities were introduced at around the same time, it did show the overall
effectiveness of a group of interdiction activities similar to those we recommend. We
believe the BOP should not wait to implement reasonable interdiction activities, such
as the ones we recommend, by citing the absence of state data on a specific
interdiction activity recommended in our report.

        Contrary to the BOP’s response, we do not believe that the information
provided in interviews we conducted reflected “parochial” views of BOP staff. We
interviewed more than 100 BOP managers and staff who are on the front lines in
protecting the security of institutions and treating inmates’ drug problems. The
managers and staff we interviewed had many years of correctional experience at
many institutions. We believe that considering the informed views of front-line
managers and staff is essential to developing effective recommendations to correct
systemic problems.




U.S. Department of Justice                                                        107
Office of the Inspector General
Evaluation and Inspections Division
      Finally, the BOP notes that some of our recommendations would involve
changes to the BOP’s culture and practices. We agree, but believe that such
changes – while they may be difficult – should be made, given the importance of
reducing the availability of drugs in BOP’s institutions. The BOP’s failure to
implement new interdiction activities, such as those that we recommend and which
have been frequently adopted on the state level, results in significant gaps in the
BOP’s drug interdiction strategy.

      We now turn to each of our recommendations and analyze the BOP’s
response.

Recommendation 1: Resolved – Open

         Summary of the BOP’s Response. The BOP agrees with Recommendation
1 to consider restricting contact visits for specific inmates or institutions based on an
assessment of the institutions’ drug smuggling problem. The BOP, however, does
not believe that expanding its current policy for non-contact visits would provide an
acceptable solution to drug smuggling problems and would cause significant
concern in other areas of prison management. The BOP states that the benefits of
this recommendation are minimal, because inmates found guilty of drug use or
introduction of drugs would most likely not be permitted visitation as a result of loss
of visiting privileges imposed by the Disciplinary Hearing Officer (DHO). The BOP
also notes concerns with staffing and construction costs, and the effect of non-
contact visits on inmates not involved in drug use or smuggling.

        OIG’s Analysis. We found that only 2 (USP Marion and AD-MAX Florence)
of 102 BOP institutions impose non-contact visits for the entire inmate population
due to the high security threat risk of the inmates. At other BOP institutions, contact
visits are allowed and are not automatically suspended for inmates’ possession or
use of drugs. After interviewing eight DHOs during our site visits, we also found that
the DHOs’ philosophies and sanctions levied for drug misconduct charges varied
widely. To suspend contact visits, some DHOs believed that the use or possession
of a drug must be linked directly to an incident in the visiting room. Other DHOs do
not impose non-contact visits as a sanction because they question its deterrent
value when the inmate has infrequent visitors. A few DHOs consistently imposed
loss of visiting privileges for a specified period of time (such as 30, 60, 90 days or
more) if an inmate is found guilty of a drug misconduct charge. When this sanction
is completed, the inmate resumes contact visits. We believe that such wide variance
in sanctions should be reviewed by the BOP, and that non-contact visits should be
used more widely for inmates who commit drug offenses in BOP institutions.

        In addition to inmates who are found guilty of drug-related misconduct
charges, we also believe that the BOP should consider establishing non-contact
visits for other categories of inmates, such as inmates in disciplinary or


U.S. Department of Justice                                                       108
Office of the Inspector General
Evaluation and Inspections Division
administrative segregation, inmates who are members of security threat groups or
disruptive groups, or inmates on the drug testing suspect list.

      For BOP institutions with high rates of positive inmate drug tests, drug
misconduct charges, and gang activity (which is often associated with drug
smuggling and drug use in institutions), the BOP also should consider implementing
non-contact visits on a broader basis to gain control of the drug problem. Overall,
we believe the BOP should develop a systematic strategy for making better use of
non-contact visits to reduce the availability of drugs in its institutions and drug use by
inmates.

      Please provide us with the BOP’s decision for implementing broader use of
non-contact visits by April 4, 2003.

Recommendation 2: Resolved - Open

        Summary of the BOP’s Response. The BOP agrees with Recommendation
2 to consider pat searching visitors; however, the BOP believes that the OIG report
lacks supporting documentation indicating that pat searches would be a successful
drug interdiction method. In deciding whether to implement this recommendation,
the BOP states that it will consider (1) additional technologies to detect drugs,
(2) increased staff requirements necessary to implement the recommendation,
(3) use of more aggressive and proactive investigations, (4) urine surveillance
testing of inmates, and (5) progressive administrative and legal actions.

        OIG’s Analysis. The BOP views visitors as the primary source of drug
introductions into BOP institutions. We concluded that because existing interdiction
activities have not been fully effective, the BOP should implement more aggressive
measures to prevent visitors from bringing drugs into BOP institutions. Pat
searching visitors is a logical step to reduce the flow of drugs into the institutions.
Currently, the BOP only conducts limited searches of visitors. Visitors walk through
a metal detector and some of their property (e.g., a purse) undergoes a cursory
search; however, other property, clothing, and visitors themselves are not searched.
These gaps in the BOP’s search procedures allow drugs to be readily concealed on
visitors and brought into institutions.

         The BOP states it will consider various factors before deciding whether to
implement pat searching of visitors. However, additional technologies to detect
drugs may not be readily available, while pat searches of visitors can be
implemented quickly and incrementally at specific institutions, depending on the
institutions’ drug problem. While we recognize that additional staff may be required
at institutions with large numbers of visitors, or to provide same-sex searches, the
additional staff is not required every day and on every shift, because visits generally
are allowed only on certain days of the week and during daytime hours. Finally,
while we agree that investigations, inmate drug testing, and administrative and legal

U.S. Department of Justice                                                        109
Office of the Inspector General
Evaluation and Inspections Division
actions are important tools in reducing drugs in BOP institutions, they will not directly
stop visitors from bringing drugs through an institution’s front entrance. Pat
searches of visitors can be an effective tool to stop drugs from entering institutions.

        Please provide us with the BOP’s decision for implementing pat searches of
visitors by April 4, 2003.

Recommendation 3: Resolved - Open

        Summary of the BOP’s Response. The BOP agrees with Recommendation
3 to invest in technology (such as cameras, monitors, ion spectrometry, or other
emerging drug detecting technologies) to provide institutions with a greater capability
to screen and monitor visitors. The response states that the BOP will explore
purchase options for drug detection equipment, which is low-maintenance, easily
transported, and easily operated, to enhance narcotics prevention throughout its
institutions. However, the BOP response states that its limited funding does not
permit broad and universal application of enhanced technology. The BOP further
states that timely repairs of malfunctioning equipment will continue to be a priority.
To compensate for blind areas in visiting rooms, the BOP states that staff are
authorized to rearrange seating. The BOP response does not address the OIG’s
concerns that visitor monitoring rooms with two-way mirrors or camera monitors are
underused, or that ion spectrometry technology, consistent with existing policy,
should be used to detect drugs in other areas of the institutions besides visitor in-
processing in the front lobby.

         OIG’s Analysis. Regarding equipment repair, during our site visits to BOP
institutions, we found that a timely equipment repair was not a priority. We observed
institutions that allowed malfunctioning ion spectrometry machines to sit for 3-6
months before repairs were sought. Regarding blind spots in visiting rooms, the
BOP’s response did not include an explanation of how it would conduct periodic
monitoring and oversight to ensure that cameras and chairs are positioned to
compensate for the blind spots. The BOP also did not address how it will ensure
broader use of visiting monitoring rooms, camera monitors, and ion spectrometry
technology.

        By July 1, 2003, please provide us with (1) information about the drug
detection technologies that the BOP has identified for its institutions, and a plan for
implementing the technologies in a timely manner; (2) a copy of the BOP’s funding
request for new drug interdiction technologies; (3) written documentation that
restates to the institutions that repairs of malfunctioning equipment are a priority; (4)
the BOP’s oversight plan for monitoring how institutions compensate for blind spots
in their visiting rooms; and (5) information describing how the BOP will ensure
broader use of visiting monitoring rooms, camera monitors, and ion spectrometry
technology in institutions.


U.S. Department of Justice                                                        110
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 4: Resolved - Open

        Summary of the BOP’s Response. The BOP agrees with Recommendation
4 that visiting rooms should be staffed with enough correctional officers so that
sufficient direct observation and monitoring of each visitor can occur. However, the
BOP states that institutions have the discretion to determine appropriate staffing
levels to ensure proper monitoring of inmate visits, and therefore implies that the
BOP Central Office has a limited role in this issue.

        OIG’s Analysis. During our site visits, we found that institutions were not
ensuring proper monitoring of visits. In several institutions, there was insufficient
staff to roam the visiting rooms, view camera monitors, or observe visitors from
adjacent rooms with two-way mirrors. These gaps in the monitoring of visitors, who
are the primary source of drug introductions, undermine the BOP’s drug interdiction
strategy. Please provide us with an explanation as to how the BOP will ensure that
local staffing discretion will be exercised to reduce drug introductions in the visiting
rooms by July 1, 2003.

Recommendation 5: Unresolved - Open

       Summary of the BOP’s Response. The BOP agrees with Recommendation
5 to implement a policy that restricts the size and content of property that staff are
allowed to bring into BOP institutions. The BOP anticipates completion of the policy
by December 2004.

        OIG’s Analysis. While we appreciate the BOP’s agreement to implement
this recommendation, we believe that the BOP’s completion date of December 2004
– two years from now – is untimely and that the BOP needs to expedite its efforts to
stop staff smuggling drugs. To resolve this recommendation, please provide us with
a status update on the policy’s development and an expedited implementation date
by July 1, 2003.

Recommendation 6: Unresolved - Open

        Summary of the BOP’s Response. The BOP does not agree with
Recommendation 6 to develop a policy requiring searches of staff and their property
when entering institutions. The BOP states that staff morale would suffer and that
staff searches would create unwarranted concerns in areas other than drug
detection. The response further states that searching staff is intrusive and raises
gender specific issues, as well as issues regarding the impact such searches have
in the overall reduction of drugs in BOP institutions. The BOP asks the OIG to
provide formal evaluation data from states that shows the effectiveness of staff
searches in reducing the presence of drugs in institutions. The BOP states that a
more effective means to deter staff introduction of drugs would be to implement


U.S. Department of Justice                                                       111
Office of the Inspector General
Evaluation and Inspections Division
property size and content restrictions (see Recommendation 5), along with existing
processes, such as background investigations, integrity training, and other
investigative procedures.

        OIG’s Analysis. We recognize that most BOP staff maintain high integrity
standards. But when staff smuggle drugs into BOP institutions the amounts are
frequently large, as OIG and FBI cases demonstrate. A significant factor that allows
staff to smuggle drugs into institutions is the complete absence of any searches –
including random searches or ion spectrometry searches – of staff or their property
when they enter institutions. BOP staff may enter institutions with unlimited personal
property, knowing that no search of their person and property will occur. While the
BOP’s agreement to establish a policy restricting the size and content of property
that staff can carry into institutions is a positive step, property restrictions alone will
not stop drug smuggling. BOP staff still can hide drugs on their person and in BOP-
approved containers (such as lunch boxes) and deliver drugs to inmates, knowing
that they will not be searched.

       We are not suggesting that searches be required for all staff; nor are we
suggesting that the searches must be pat searches. Rather, we are recommending
that the BOP develop a staff search protocol. The BOP has flexibility in choosing
how to comply with this recommendation. For example, the BOP may conduct
random searches of staff and their property, whereby all staff on a particular shift
would be searched walking through the front entrance once per week or month.
Another example might be that every fourth staff member on a specific shift would
be searched walking through the front entrance once per week or month. These
searches can be conducted manually, via ion spectrometry, canine unit, or a
combination of methods.

        Although the BOP acknowledges that staff smuggle drugs, the BOP believes
that searches would hurt staff morale and would cause [unspecified] concerns in
[unspecified] areas other than drug detection. We disagree with this assessment.
The BOP presented no evidence to support its claim that staff morale would suffer,
or how unspecified areas other than drug detection would be affected by staff
searches. To the contrary, approximately 90 percent of the geographically diverse
BOP staff we interviewed supported a combination of restricting the size and content
of property and searching staff and their property. BOP staff at every institution
visited frequently stated to us that if you have nothing to hide, there should be no
concern about being searched. We believe that staff searches would be – and
should be – accepted as a routine and necessary safety measure, as long as there
is a clear policy that is universally applied as part of a greater effort to prevent drugs
from entering institutions.

        The BOP also states that gender specific issues and the intrusive nature of
searches may cause concern. We acknowledge that such searches are somewhat
intrusive, but the safety and security of staff and inmates should be the overriding

U.S. Department of Justice                                                         112
Office of the Inspector General
Evaluation and Inspections Division
concern. Further, after September 11, 2001, searches of persons and property are
becoming more commonplace in daily life. In addition, the BOP can address gender
and intrusiveness concerns by assigning a female correctional officer to search female
employees, and conducting all searches in the presence of a supervisor to ensure the
integrity of the searches.

         The BOP further requests that the OIG provide states’ formal evaluation data
that shows the effectiveness of staff searches in reducing the presence of drugs in
state correctional institutions. The information we collected about the states’ drug
interdiction strategies is descriptive and does not measure statistically the
effectiveness of each interdiction activity used in the strategies. However, as we
noted above, although the state information does not evaluate each interdiction
activity, it does show that a mix of activities is effective in reducing drugs in prisons.
In support of this, a 1992 report by the Bureau of Justice Statistics (BJS) shows that
institutions that direct special interdiction efforts toward staff (such as questioning,
pat searches, and drug testing of staff) have a lower positive inmate drug test rate
(1.0 percent positive for cocaine and 0.9 percent for heroin and methamphetamines)
than institutions that make no special efforts to interdict drugs from staff (2.6 percent
positive for cocaine, 2.2 percent for heroin, 6.6 percent for methamphetamine).95 In
addition, our recommendation to search staff and their property is not predicated
only on the states’ activities, but also on the BOP’s acknowledgment that staff are a
primary source of drugs entering institutions and on documented drug cases
involving staff.

        The BOP’s current limited interdiction activities toward staff – background
investigations, integrity training, and investigative procedures – do not proactively
stop drugs at their point of entry, and have not been fully effective in deterring staff
from smuggling drugs. The BOP’s agreement to develop a policy to restrict
property, although a positive first step in response to our report, should be coupled
with searches of staff. The outward appearance of a container is not as important as
its contents. Searching is the only method to determine the contents, and searching
staff is the only method to find drugs on their person.

       In sum, we believe the BOP should employ an appropriate mix of manual
searches, ion spectrometry, and other technology to prevent staff from bringing
drugs into institutions. While the number of staff that bring drugs in may be small,
the damage can be large.

      To resolve this recommendation, please provide us with how the BOP will
implement searches of staff and their property by July 1, 2003.



        95
         “Drug Enforcement and Treatment in Prisons, 1990,” BJS, U.S. Department of Justice,
Washington, D.C., July 1992.

U.S. Department of Justice                                                              113
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 7: Resolved - Open

        Summary of the BOP’s Response. The BOP agrees with Recommendation
7 that random drug testing for staff should be implemented. On November 7, 2002,
the BOP issued correspondence to all institution Chief Executive Officers (CEOs)
regarding the impending January 2003 implementation of the Drug Free Workplace
Program.

      OIG’s Analysis. Please provide us with a copy of the correspondence
issued to the institutions’ CEOs, as well as a summary of the test results for 5
percent of test designated positions in July and December 2003 for the preceding 6
months.

Recommendation 8: Unresolved - Open

       Summary of the BOP’s Response. The BOP agrees with Recommendation
8 that a policy should be implemented to eliminate unsolicited mail. The BOP
anticipates an implementation date of December 2005.

      OIG’s Analysis. Although the BOP agrees with this recommendation, it
suggests it will take three years to implement new policy. We believe that the BOP’s
implementation date of December 2005 is untimely and that the BOP needs to
expedite its efforts to stop drug smuggling through the mail. To resolve this
recommendation, please provide us with a status update on the policy’s
development and an expedited implementation date by July 1, 2003.

Recommendation 9: Resolved - Open

        Summary of the BOP’s Response. The BOP agrees with Recommendation
9 to require additional training for BOP staff to search mail and detect drugs. The
BOP stated that it has already taken steps to enhance training for inmate systems
officers effective November 2002.

       OIG’s Analysis. The OIG believes, as stated in our report, that in addition to
inmate systems officers, unit management staff who are responsible for opening and
searching legal mail on a daily basis should be included in this training. Please
provide us with a copy of the revised training curriculum, training schedule and
locations, and list of participants by July 1, 2003.

Recommendation 10: Unresolved - Open

       Summary of the BOP’s Response. The BOP agrees with Recommendation
10 to test mailroom drug detection technologies and states that the Inmate Systems
Management Branch will work with the Office of Security Technology to conduct


U.S. Department of Justice                                                    114
Office of the Inspector General
Evaluation and Inspections Division
research and tests and present their findings to the BOP’s executive staff. The BOP
anticipates presentation of the research and test findings by December 2005.

         OIG’s Analysis. Again, we believe the BOP’s completion date of December
2005 is untimely. The Office of Security Technology should already be familiar with
mailroom drug detection technologies. Inmate systems management officers at the
institutions can determine quickly whether the technology is effective, if on-site
testing of the technology is required. To resolve this recommendation, please
provide us with information about the drug detection technologies that the BOP has
identified for its institutions’ mailrooms, and a plan for testing and implementing the
technologies in a timely manner by July 1, 2003.

Recommendation 11: Unresolved - Open

        Summary of the BOP’s Response. The BOP agrees with Recommendation
11 that SENTRY, the BOP inmate tracking system, should be improved to accurately
track the number of inmates who are diagnosed with a drug abuse problem, and
who are referred for, receive, and complete treatment. The BOP states that two
policy changes to the drug abuse program policy are under review. It states that
these changes will improve SENTRY tracking of inmates entering the BOP with
substance abuse disorders by (1) expanding the category of inmates who are
eligible for the drug education course; and (2) improving the sequence of
identification, screening, assessment, and referral of inmates with drug abuse
disorders. The BOP further states that with the expansion of the category of inmates
eligible for drug abuse education, the BOP will create a Psychological Data System
(PDS) database to track inmates with a substance abuse problem or those who
receive a diagnosis and referral for treatment for a substance abuse disorder. The
BOP anticipates these policy revisions taking between one to three years to
implement, with completion of this requirement by December 2005.

        OIG’s Analysis. With the proposed revisions to the screening, identification,
assessment, and referral of inmates to drug abuse treatment, and the creation of a
PDS database to track these inmates along each of the stages, the intent of our
recommendation will be met. However, we question the length of time BOP
anticipates it will take to create the inmate tracking system, particularly when BOP
staff already have the capability to enter treatment information in SENTRY (although
not diagnosis and referral information). While the actual policy revisions (expanding
the category of inmate eligible for the drug education course and improving the
screening and referral processes) may take longer to implement, we believe that the
creation of a PDS database, improved SENTRY tracking, or any other tracking
system for inmates with an identified drug abuse problem could be completed prior
to implementation of the policy revisions. To wait until December 2005 for a tracking
system means that the BOP will not accurately identify for three more years the
number and identity of inmates who have drug abuse problems. Because demand
reduction is an important component of the BOP’s strategy to reduce drugs in its

U.S. Department of Justice                                                       115
Office of the Inspector General
Evaluation and Inspections Division
institutions, this is a lengthy timeframe for implementing the tracking system.
Without the system, the BOP does not track inmates to ensure that those identified
with a drug abuse problem get treatment and does not hold inmates accountable for
following through with their treatment recommendations. The tracking system is
critical to BOP’s demand reduction efforts, and we believe the BOP should
implement this initiative more quickly.

       To resolve this recommendation, please provide us with an amended
timeframe to expedite improved tracking of those inmates with drug abuse problems,
as well as a status report on the development of the tracking database and the
policy revisions by July 1, 2003.

Recommendation 12: Unresolved - Open

         Summary of the BOP’s Response. The BOP does not agree with
Recommendation 12 that the non-residential drug abuse treatment program should
be staffed based on a combination of the drug abuse treatment specialist (DATS)
staffing guidelines and the number of inmates needing drug treatment at each
institution. The BOP’s response states that this staffing initiative is not funded, and
bringing the BOP’s current institution complement into compliance with staffing
guidelines would be cost prohibitive. It further states that the drug abuse program
policy only provides staffing guidelines for the residential drug abuse program
(RDAP) because that is a longer and more intensive program than non-residential
treatment. The BOP also notes that each institution is already provided one DATS
and a drug abuse program coordinator.

        OIG’s Analysis. The BOP’s response does not address the lack of non-
residential drug treatment in its institutions. Drug treatment for inmates is a critical
part of the BOP’s strategy to reduce the demand for and presence of drugs in its
institutions. Yet, the BOP’s own internal program reviews have cited on-going
deficiencies in providing non-residential drug treatment.

       The staffing guidelines we cite in our recommendation and report do not
relate only to the RDAP, as implied by the BOP’s response. The staffing guidelines
also relate to the BOP’s other drug program components: drug education and non-
residential treatment. The guidelines are BOP-wide psychology services staffing
guidelines developed for all institutions regardless of their security level or other
operational variables, and are based on the population of the institution (i.e., the
guidelines provide for “one DATS for an absolute increment of 500 inmates as a
base and one DATS for each additional absolute increment of 500”). It is important
to note that the RDAP, although recognized for its successful treatment outcomes, is
not provided to inmates until sometime during their last 36 months of incarceration,
with the intent that inmates will be drug-free when released into the community. As
a result, we believe the RDAP is not sufficient to support adequately the demand
reduction component of the BOP’s drug strategy for two reasons: (1) with an

U.S. Department of Justice                                                         116
Office of the Inspector General
Evaluation and Inspections Division
average 10-year sentence, many inmates are not eligible for RDAP admission for
seven or more years from when they enter the institution. Therefore, without non-
residential treatment, inmates have no drug treatment during this lengthy period; and
(2) not all inmates when diagnosed with a drug abuse problem are eligible for or
volunteer to attend RDAP. Without non-residential drug treatment, these inmates
have no treatment alternative.

      The BOP’s response suggests that one DATS and one drug program
coordinator per institution are sufficient. However, the drug program coordinator
does not provide drug treatment, and one DATS to provide drug education classes
and non-residential drug treatment services to 1500-2000 inmates, the average
inmate population at the institutions we visited, is insufficient. At these institutions,
the DATS told us they are overwhelmed with the number of drug abuse education
classes they must teach and with the number of inmates who need drug abuse
treatment. It was clear to us that one DATS is not enough to handle the workload.

         Moreover, without a continuum of treatment services for inmates, the goal to
reduce the inmates’ demand for drugs while incarcerated will not be achieved. We
found that, despite the BOP response claiming sufficient staffing, six of eight
institutions we visited did not provide any or enough non-residential treatment for
inmates with drug problems, primarily due to lack of staff. Yet, the BOP has not
indicated how it will solve this treatment gap so that inmates will not use drugs in the
years before they are admitted to the RDAP.

        We recognize that increased drug treatment staffing across BOP institutions
would require additional resources. However, we disagree with the BOP’s rejection
of this recommendation and its unwillingness to seek additional resources for this
objective. For example, the BOP could attempt a measured approach to staff
increases by first determining those institutions with the greatest need and seeking
additional staff accordingly. The staff may be obtained through budget requests or
reallocations of positions from areas of lower priority. The BOP also could consider
expanding the role of the drug abuse program coordinators to include providing drug
treatment to inmates.

        We believe an appropriate balance of institutions’ drug treatment staffing
levels to inmates’ non-residential drug treatment needs is key to improving the
BOP’s strategy to reduce inmates’ demand for drugs. To resolve this
recommendation, please provide us with the BOP’s plan for ensuring non-residential
treatment programs are adequately staffed so inmates have access to treatment by
July 1, 2003.




U.S. Department of Justice                                                         117
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 13: Unresolved - Open

        Summary of the BOP’s Response. The BOP does not agree with
Recommendation 13 that the drug abuse program policy should be revised to
(1) clarify that non-residential treatment is required in addition to RDAP transitional
services, (2) include a curriculum for non-residential drug treatment, (3) provide
guidance regarding the minimum number of sessions and weeks’ duration for
treatment groups, and (4) increase emphasis on self-help groups such as Narcotics
(NA) and Alcoholics Anonymous (AA). The BOP states that the current drug abuse
program policy already addresses the OIG recommendation. The BOP’s response
also states that the majority of its resources are directed toward the RDAP. Further,
the BOP states that the non-residential treatment program was designed to address
those offenders with a low-level substance abuse impairment who do not need the
intensity of the RDAP, and to provide inmates with a moderate to severe drug
problem with the supportive program opportunities while waiting for RDAP admission
or near-term release into the community.

       OIG’s Analysis. As with Recommendation 12, the BOP’s response to
Recommendation 13 fails to acknowledge that non-residential treatment is often not
available to inmates who need treatment whether they have a low, moderate, or
severe drug problem, and that the lack of non-residential treatment undermines the
BOP’s efforts to rehabilitate inmates and reduce drug use in its institutions.

         In contrast to the BOP’s response, we concluded, after reviewing BOP policy
and interviewing DATS and drug program coordinators, that the current drug
treatment policy does not provide sufficient guidance for non-residential treatment in
its curriculum, application, or oversight. Specifically, BOP Program Statement
5330.10, Drug Abuse Programs, Inmate, Chapter 4, page 1, paragraph 4.2, does not
provide a sufficient level of assistance to DATS for implementing non-residential
treatment. The policy states, “Non-residential drug abuse services shall include a
minimum of one hour of individual or group contacts each month as indicated by a
treatment plan.” Most drug treatment staff in the institutions we visited confused this
requirement with the requirement for transitional (aftercare) services (a component
of non-residential treatment) to RDAP graduates before their release to the
community. Transitional services were provided in lieu of, rather than in addition to,
non-residential treatment for inmates in the general population. The BOP’s uneven
record of providing non-residential treatment provides further evidence of a program
breakdown. In six of eight institutions’ drug treatment programs we reviewed, non-
residential treatment was absent or minimal. In the past two years at these
institutions – some with the highest drug use rates BOP-wide – a total of only 7 to 32
inmates received non-residential treatment. Further, the BOP’s own internal
program reviews cite on-going deficiencies throughout the BOP in providing non-
residential drug treatment. Yet, the BOP’s response does not offer solutions to the
treatment void.


U.S. Department of Justice                                                     118
Office of the Inspector General
Evaluation and Inspections Division
       At the institutions we visited, the DATS, drug program coordinators, and unit
management staff believed non-residential treatment required stronger and more
detailed policy and additional staff. Although the policy suggests non-residential
treatment topics of interpersonal skill building, errors in thinking, post-release
survival, and anger management, it does not provide in-depth content information for
these topics. Program Statement 5330.10 hints at the expectations for non-
residential treatment, but does not provide a strong foundation for the program, as
demonstrated by the absence of treatment in the institutions.

        The BOP also references in its response other guidance – a 1991 version of a
drug abuse program curriculum (now under revision) – that can be used in non-
residential treatment programs. The BOP Central Office and staff at the institutions
visited never mentioned the existence of this decade-old curriculum during our
discussions of non-residential treatment. Because of the BOP’s lack of emphasis on
non-residential treatment, the curriculum may have limited exposure among
treatment staff. Improvements in this curriculum, along with staff training, could fill
some of the guidance gap of Program Statement 5330.10.

         The Program Statement 5330.10 does acknowledge self-help programs, such
as NA and AA, as useful adjuncts to institutions’ drug abuse programs. But the
institutions we visited did not pursue these programs because of inadequate
communication between the drug treatment staff and volunteer coordinators to
recruit program volunteers from the community, or because of local security
prohibitions against NA and AA volunteers who have criminal backgrounds. We
believe the Program Statement should more expressly state that drug treatment staff
must ensure that volunteers are solicited for self-help programs and that criminal
backgrounds of NA and AA volunteers (who are often former addicts and alcoholics)
should not automatically preclude their presence in institutions.

       To resolve this recommendation, the BOP must agree to (1) revise Program
Statement 5330.10 to clarify the requirement for non-residential drug abuse
treatment for inmates in the general population, in addition to the monthly transitional
services for RDAP graduates; (2) develop (or enhance) a detailed curriculum and
timeframes for non-residential treatment as part of Program Statement 5330.10 or
as a separate document (such as the 1991 curriculum referenced by BOP; and
(3) re-emphasize to institutions the important role of self-help programs and ensures
barriers to their use are removed. Please provide us with the status of these actions
by July 1, 2003.

Recommendation 14: Unresolved - Open

        Summary of the BOP’s Response. The BOP does not agree with the first
part of Recommendation 14 to create incentives for participation in non-residential
drug treatment and sanctions for non-completion to increase inmate participation.
The BOP response states that incentives and sanctions would be a disincentive for

U.S. Department of Justice                                                      119
Office of the Inspector General
Evaluation and Inspections Division
inmates with the most severe treatment needs to enroll in the RDAP. It further
states that placement of inmates with serious drug problems in non-residential rather
than residential treatment would be a disservice to the inmates and the community.

       The BOP agrees with the second part of Recommendation 14 to add a
separate score for drug treatment participation on inmates’ annual Security
Designation and Custody Classification form. The BOP states that modifications are
currently underway to reflect an inmates’ participation in all program areas. These
modifications should include an inmates’ participation in drug abuse treatment. The
BOP anticipates completing and implementing the modifications in December 2005.

        OIG’s Analysis. With regard to the first part of the recommendation, we
disagree with the BOP’s view that creating incentives for participation and sanctions
for non-completion of non-residential treatment would be a disincentive for inmates
to participate in the RDAP. Non-residential treatment is the only drug abuse
treatment available to inmates in the general population who do not meet the criteria
for, choose to not participate in, or are awaiting admission to the RDAP. If inmates
are referred to the RDAP, these referrals remain in force regardless of the inmates’
participation in non-residential treatment. If inmates ultimately refuse to enter the
RDAP, whether or not they attended non-residential treatment in the interim, the
inmates should receive a failing score for the referred drug program on the inmates’
annual Security Designation and Custody Classification form.

       The BOP’s response, which focuses on the benefit of the RDAP for those
inmates with severe drug disorders, diminishes the importance of non-residential
treatment. It also suggests that inmates should have no drug treatment available
other than the RDAP. As noted previously, however, inmates are not eligible for the
RDAP until the last 36 months of their sentence, which results in a lengthy treatment
void for needy inmates.

        The BOP should be encouraging inmates, through incentives and sanctions,
to participate in any accepted drug treatment. One method of treatment provided in
the near term does not detract from another method of treatment provided in the
longer term. Moreover, the BOP has not presented any evidence that incentives
and sanctions for the non-residential treatment program undermine the RDAP. The
BOP also has not presented evidence that inmates with severe treatment needs are
harmed by participating in non-residential treatment prior to admittance to the RDAP.
We believe incentives and sanctions for non-residential treatment are important to
increasing inmates’ participation in treatment. The BOP also recognizes the
importance of incentives and sanctions to treatment participation, as both the drug
education course and the RDAP have incentives for participation and sanctions or
disincentives for non-completion.




U.S. Department of Justice                                                    120
Office of the Inspector General
Evaluation and Inspections Division
       With regard to the second part of the recommendation, we believe the BOP’s
date of December 2005 is untimely for completing and implementing modifications to
the Security Designation and Custody Classification form.

       To resolve this recommendation, please provide us with (1) a copy of the
modified Security Designation and Custody Classification form and an expedited
implementation date, and (2) the BOP’s plan for improving inmates’ participation in
non-residential treatment through incentives for participation and sanctions for non-
completion by July 1, 2003.

Recommendation 15: Resolved - Open

        Summary of the BOP’s Response. The BOP partially agrees with
Recommendation 15 to consider other opportunities to improve drug interdiction
activities for the R&D and warehouse areas, the rear gate, volunteers, contractors,
and institution intelligence operations. The BOP does not agree to conduct another
pilot test of canines as a drug detection technique for its institutions.

        The BOP states that each of its six regions is authorized to have a canine unit
at one institution. The BOP does not believe it is appropriate to expand this policy,
citing the significant amount of financial and staff resources involved. It states that
purchasing canines, training staff and canines, and caring for canines are major
concerns when determining the overall cost/benefit of the program. Additionally, the
BOP states that canine resources are usually available in the local community for
use upon request, and use of these outside canines serves to enhance relationships
with local law enforcement.

        OIG’s Analysis. The OIG recommended (1) using better technology to
supplement manual searches for drugs in the R&D and warehouse areas,
(2) establishing a volunteer and contractor database to enable timely sharing of
information between institutions, (3) establishing the Special Investigative Supervisor
(SIS) lieutenant position as a permanent position rather than an 18-month rotation,
(4) providing more timely and in-depth training for SIS lieutenants, (5) using SIS staff
to train other staff about drug interdiction issues, and (6) pilot testing canines as a
drug detection technique for institutions.

       Although the BOP agreed to consider the opportunities we presented in our
report for improving drug interdiction activities for items 1 through 5 above, the BOP
did not provide specific information about its planned actions for each item. Please
provide us with the BOP’s planned actions for items 1 through 5 by April 4, 2003.

       The BOP response does not agree with item 6 to pilot test canines as a drug
detection technique. Only one region currently has a canine unit (at USP
Lewisburg). During our interviews at the BOP’s Central Office, BOP officials strongly
opposed expanding the number of BOP canine units. Therefore, although

U.S. Department of Justice                                                      121
Office of the Inspector General
Evaluation and Inspections Division
authorized, we believe it is unlikely that any region would request establishment of a
canine unit. In fact, we were told that when the current canines at USP Lewisburg
die, so too will the canine program.

        During our review, the BOP could not locate the results of its original pilot
study on canine units initiated in FY 1990. Therefore, we were unable to determine
the factual basis for the BOP’s opposition. The BOP’s own policy statement on
canine units states, “The use of canines by the Bureau and other federal law
enforcement agencies has proven to be an effective method for narcotics
detection…The presence of a canine unit not only aids in locating drugs, drug
paraphernalia, and escapees, but also serves as a deterrent.” Further, canine units
are frequently used by state correctional systems as part of their overall drug
interdiction strategies. Fourteen of 17 states from which we collected drug
interdiction strategies use canine units.

        The BOP response states that canines are usually available in the
community. However, as pointed out in the OIG report, canine units from local law
enforcement in fact are frequently unavailable for use by BOP institutions and are
not well-suited or trained for work inside a correctional institution. By contrast, the
BOP’s canine unit at USP Lewisburg demonstrates the benefits of canines as a drug
interdiction activity throughout the institution.

        We believe that drug detecting canines are an underused resource in the
BOP. Regarding cost, the purchase cost of one canine (including cost of training for
the handler and canine) is one-quarter the cost of an ion spectrometry machine, and
one-sixth to one-third the cost to maintain that machine annually. As stated in our
report, other institutional technology, such as x-ray scanners or metal detectors,
used to search inmates and their property, mail, or warehouse deliveries are not
capable of detecting drugs. Therefore, drug detecting canines could be used to
enhance interdiction activities in areas throughout institutions, such as in the
mailroom, the R&D area, the warehouse, and the rear gate. Canines are more
mobile than some machines and can also be used to search inmates, staff, visitors,
all areas of the prison, and parking lots. With the BOP’s concern about being
“restricted from broad and universal application of technological advancements by
funding allocated to the agency,” and its prolonged dates to locate, test, and
implement technology, the expanded use of canines, an already proven low-
technology alternative in many state correctional systems, appears warranted.
Canines are less expensive, trained specifically to detect drugs (and trained for
multiple other uses), serve as a highly visible deterrent, and have low on-going
maintenance costs.

       We believe the BOP should fully implement its own policy and, at a minimum,
establish a drug detecting canine unit for each region as a pilot study, concentrating



U.S. Department of Justice                                                      122
Office of the Inspector General
Evaluation and Inspections Division
on the institution within each region with the highest positive inmate drug test and
drug misconduct rates. Please provide us with your decision to pilot test drug
detecting canine units by April 4, 2003.




U.S. Department of Justice                                                      123
Office of the Inspector General
Evaluation and Inspections Division
